<html>
<title> - HEARING ON NOMINATION OF ATTORNEY GENERAL SCOTT PRUITT TO BE ADMINISTRATOR OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 115-1]
[From the U.S. Government Publishing Office]



                                                          
                                                           S. Hrg. 115-1

     HEARING ON NOMINATION OF ATTORNEY GENERAL SCOTT PRUITT TO BE 
       ADMINISTRATOR OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            JANUARY 18, 2017

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
         


     HEARING ON NOMINATION OF ATTORNEY GENERAL SCOTT PRUITT TO BE 
       ADMINISTRATOR OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY
       
       
       
       
       
       





                                                          S. Hrg. 115-1
 
     HEARING ON NOMINATION OF ATTORNEY GENERAL SCOTT PRUITT TO BE 
       ADMINISTRATOR OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 18, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
  
  
  
  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
         
                               ________
 
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-034 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
  
  
  
  
  
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JEFF SESSIONS, Alabama               KIRSTEN GILLIBRAND, New York
JERRY MORAN, Kansas                  CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
DAN SULLIVAN, Alaska                 KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 18, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    10
Lankford, Hon. James, U.S. Senator from the State of Oklahoma....    13

                                WITNESS

Pruitt, Hon. Scott, Attorney General, State of Oklahoma, 
  nominated to be Administrator, U.S. Environmental Protection 
  Agency.........................................................    15
    Prepared statement...........................................    18
    Responses to additional questions from:
        Senator Booker...........................................   740
        Senator Cardin...........................................   751
        Senator Carper...........................................   776
    Response to an additional question from Senator Duckworth....   827
    Responses to additional questions from:
        Senator Gillibrand.......................................   828
        Senator Markey...........................................   843
        Senator Merkley..........................................   879
        Senator Sanders..........................................   897
        Senator Sullivan.........................................   934
        Senator Whitehouse.......................................   936
    List of cases Mr. Pruitt joined, initiated, and amicus.......   982
    Mr. Pruitt's testimony:
        Before the Subcommittee on Technology, Information 
          Policy, Intergovernmental Relations and Procurement 
          Reform of the House Committee on Oversight and 
          Government Reform, June 28, 2012.......................   994
        Before the Committee on Oversight and Government Reform 
          Subcommittee on Energy Policy, Health Care and 
          Entitlements, July 31, 2013............................  1018
        Before the Senate Environment and Public Works 
          Subcommittee on Clean Air and Nuclear Safety, May 5, 
          2015...................................................  1021
        Before a Joint Hearing of the Senate Committee on 
          Environment and Public Works and House Committee on 
          Transportation and Infrastructure......................  1026
    Article: The Next Supreme Court Justice, by Scott Pruitt.....  1029

                          ADDITIONAL MATERIAL

Letters:
    To Scott Pruitt from Senator Whitehouse et al., December 27, 
      2016.......................................................   642
    An Open Letter to President-elect Trump and the 115th 
      Congress from Science and the Public Interest..............   644
    To President-elect Trump and Members of Congress from Second 
      Nature, January 17, 2017...................................   648
    To Senator Boozman from The Poultry Federation...............   656
Letters and other material in support of Scott Pruitt's becoming 
  EPA Administrator:
    From the Cornwall Alliance, January 5, 2017..................   659
    From the American Energy Alliance et al., January 12, 2017...   665
    From the Agricultural Retailers Association et al., January 
      17, 2017...................................................   667
    From the Agricultural Retailers Association, January 9, 2017.   668
    From the Alabama Cattlemen's Association et al., January 10, 
      2017.......................................................   669
    From the Electric Reliability Coordinating Council, January 
      17, 2017...................................................   670
    From the Office of the Attorney General, State of Alabama et 
      al., January 4, 2017.......................................   672
    From the Energy and Environment Cabinet, Commonwealth of 
      Kentucky, January 17, 2017.................................   675
    From the National Association of Home Builders, January 12, 
      2017.......................................................   680
    From U.S. Representative Mullin et al., January 10, 2017.....   683
    From the American Farm Bureau Federation, January 4, 2017....   684
    From the Specialty Equipment Market Association, January 13, 
      2017.......................................................   686
    From The Fertilizer Institute, January 17, 2017..............   688
    From the National Cattlemen's Beef Association, January 17, 
      2017.......................................................   690
    From the Western Energy Alliance, January 13, 2017...........   692
Other material in support of Scott Pruitt's becoming EPA 
  Administrator:
    Statement from the American Energy Alliance, January 12, 2017   663
    Press release from President-elect Trump, January 5, 2017....   677
    Press release from the Cornwall Alliance, January 16, 2017...   681
    Attorneys General in Support of Pruitt.......................   694
    Farmers in Support of Pruitt.................................   720


     HEARING ON NOMINATION OF ATTORNEY GENERAL SCOTT PRUITT TO BE 
       ADMINISTRATOR OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                      WEDNESDAY, JANUARY 18, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Cardin, Sanders, Whitehouse, Merkley, Gillibrand, Booker, 
Markey, Duckworth, and Harris.
    Also present: Senator Lankford.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    We have quite a full house today. I welcome the audience. 
This is a formal Senate hearing, and in order to allow the 
Committee to conduct its business, we will maintain decorum. 
That means if there are disorders, demonstrations by a member 
of the audience, the person causing the disruption will be 
escorted from the room by the Capitol Police.
    Since this is our first hearing of this session, I would 
like to welcome our new members, Senators Jerry Moran, Joni 
Ernst, Tammy Duckworth, and Kamala Harris. Thank you very much, 
and congratulations in joining the Committee.
    I would also like to welcome Senator Tom Carper in his new 
role as the Ranking Member of the Committee. You are here, even 
if you have a scratchy throat, 40 years from when you were 
Treasurer of Delaware, Member of Congress, Governor, member of 
the U.S. Senate. Have not missed a day. You are Cal Ripken, 
Jr., and the iron man. So thanks for being here. Thank you. I 
look forward to working with you.
    He deserves applause.
    With regard to procedure, we will follow the early bird 
rule in terms of the order of member questions. Members who 
were here at the start, as you all are, will be placed in the 
line based on your seniority on the Committee. Members who 
arrive after the hearing has started will be added to the line 
in the order they arrive.
    With respect to today's hearing, we will abide by the 
Committee's 5-minute rule. The 5 minutes includes not just the 
questions but also the nominee's answers, so I ask our members 
to please leave enough time for the nominee to answer your 
question. Today we will have many rounds of questions as are 
necessary so that members' questions are answered.
    Today's hearing is to consider the nomination of the 
Attorney General of Oklahoma, Scott Pruitt, to be the 
Administrator of the Environmental Protection Agency. Attorney 
General Pruitt has been a distinguished public servant as well, 
and we will hear the same from his fellow Oklahomans today. He 
served 8 years in the Oklahoma State Senate before being 
elected Attorney General of Oklahoma in November 2010, where he 
still serves.
    There are numerous statements from his peers and the people 
that he has helped over the years that stand as a testament to 
his strong qualifications to run the Environmental Protection 
Agency.
    Twenty-four State attorneys general wrote to both Ranking 
Member Carper and to me stating that ``As attorneys general, we 
understand the need to work collaboratively to address threats 
to our environment that cross State lines as well as the 
importance of a Federal counterpart in the EPA Administrator 
who possesses the knowledge, experience, and principles to work 
with our States to address issues affecting our environment. We 
believe that no one exemplifies these qualities more than Scott 
Pruitt.''
    Now, Attorney General Pruitt has taken on polluters, 
including the oil industry, when there was cause. Randy Ellis, 
an award winning investigative reporter with the Oklahoman 
newspaper, praised Pruitt for his ability to take on industry. 
The paper highlighted the work of Attorney General Pruitt to 
hold a large oil company accountable. This is what Ellis 
stated. He said, ``Mr. Pruitt demonstrated that he will take on 
industry when they overstep when he sued oil companies such as 
BP who knowingly double dipped by collecting reimbursements for 
corrective action environmental costs for sites that they 
polluted.''
    This is why I believe President-elect Trump nominated 
Attorney General Pruitt to serve as the Administrator of the 
Environmental Protection Agency. The EPA, under the leadership 
of a qualified and responsible Administrator, is a vital tool 
that must be used to protect the air we breathe, the water we 
drink, and the communities where our families live. It is truly 
a sacred trust.
    Colleagues on both sides of the aisle say that Attorney 
General Pruitt has the right experience for the position. 
Attorney General Pruitt understands the need to both protect 
the environment, while allowing our Nation's economy to grow. 
The agency needs a leader who will follow the laws created by 
this Committee.
    During the last 8 years EPA Administrators created broad 
and legally questionable new regulations which have undermined 
the American people's faith in the Agency. These regulations 
have done great damage to the livelihoods of our Nation's 
hardest working citizens. The regulatory zeal of the last 8 
years has violated a fundamental principle of environmental 
stewardship, which is do no harm. This failed environmental 
leadership has contributed to two of the worst Government-
created environmental disasters in decades: the Gold King Mine 
spill and Flint, Michigan's water crisis. Those disasters hurt 
people, many from low income and minority communities who can 
least afford it.
    As I have discussed with Attorney General Pruitt, my home 
State of Wyoming is a leading energy producing State. We have 
abundant supplies of coal, natural gas, crude oil, and uranium. 
These industries provide thousands of good paying jobs for 
Wyoming communities. We are also, in my opinion, one of the 
most beautiful States in the Nation. We are home to Yellowstone 
and Grand Teton National Parks and numerous national forests 
and pristine lakes and waterways. Our wildlife population is 
diverse and abundant. We have thriving populations of grizzly 
bears, wolves, elk, and bison. People travel from around the 
world to come to Wyoming because our State's natural resources 
are spectacular.
    Wyoming has managed to strike that balance between our 
environment and our economy, and it shows. For 8 years Wyoming 
has suffered under an EPA that didn't believe in striking a 
balance. As EPA regulations crushed energy jobs in my State; 
State revenue fell that pays for State programs. This includes 
paying for our vital environmental programs. Clearly, a 
wholesale change is needed. Any new Administrator of the 
Environmental Protection Agency needs to protect the 
environment in a responsible way that doesn't ignore the good 
work that States do to protect their air, land, and water, as 
well as their economies.
    At this time I would like to ask Ranking Member Senator 
Carper for an opening statement.
    [The prepared statement of Senator Barrasso follows:]

                   Statement of Hon. John Barrasso, 
                 U.S. Senator from the State of Wyoming

    Today we consider the nomination of Oklahoma Attorney 
General Scott Pruitt to be Administrator of the Environmental 
Protection Agency.
    Attorney General Pruitt has been a distinguished public 
servant, as we have heard from his fellow Oklahomans.
    He served 8 years in the Oklahoma State Senate before being 
elected Attorney General of Oklahoma in November 2010, where he 
still serves.
    There are numerous statements from his peers and the people 
he has helped over the years that stand as a testament to his 
strong qualifications to run the Environmental Protection 
Agency.
    Twenty-four State attorneys general wrote to both Senator 
Carper and to me, stating that: ``As attorneys general, we 
understand the need to work collaboratively to address threats 
to our environment that cross State lines as well as the 
importance of a Federal counterpart in the EPA Administrator 
who possesses the knowledge, experience, and principles to work 
with our States to address issues affecting our environment. We 
believe that no one exemplifies these qualities more than Scott 
Pruitt.''
    Attorney General Pruitt has taken on polluters, including 
the oil industry, when there is cause.
    Randy Ellis, an award winning investigative reporter with 
The Oklahoman newspaper, praised Pruitt and his ability to take 
on industry; the paper highlighted the work of Attorney General 
Pruitt to hold a large oil company accountable.
    This is what Ellis stated: ``Mr. Pruitt demonstrated that 
he will take on industry when they overstep when he sued oil 
companies such as BP who `knowingly double-dipped by collecting 
reimbursements for corrective action environmental costs for 
sites they polluted.' ''
    This is why I believe President-elect Trump nominated 
Attorney General Pruitt to serve as the Administrator of the 
Environmental Protection Agency.
    The EPA, under the leadership of a qualified and 
responsible Administrator, is a vital tool that must be used to 
protect the air we breathe, the water we drink, and the 
communities where our families live.
    It's truly a sacred trust.
    Colleagues on both sides of the aisle say that Attorney 
General Pruitt has the right experience for the position.
    Attorney General Pruitt understands the need to both 
protect the environment while allowing our Nation's economy to 
grow.
    The agency needs a leader who will follow the laws created 
by this Committee.
    During the last 8 years EPA Administrators created broad 
and legally questionable new regulations which have undermined 
the American people's faith in the agency. These regulations 
have done great damage to the livelihoods of our Nation's 
hardest working citizens.
    The regulatory zeal of the last 8 years has violated a 
fundamental principle of environmental stewardship--which is do 
no harm.
    This failed environmental leadership has contributed to two 
of the worst Government created environmental disasters in 
decades--the Gold King Mine spill and Flint, Michigan's water 
crisis.
    Those disasters hurt the people, many from low income and 
minority communities, who can least afford it.
    So I've discussed with Attorney General Pruitt, my home 
State of Wyoming is a leading energy producing State. We have 
abundant supplies of coal, natural gas, crude oil, and uranium. 
These industries provide thousands of good paying jobs for 
Wyoming communities.
    We are also, in my opinion, one of the most beautiful 
States in the Nation. We are home to Yellowstone and Grand 
Teton National Parks, and numerous national forests and 
pristine lakes and waterways.
    Our wildlife population is diverse and abundant. We have 
thriving populations of grizzly bears, wolves, elk, and bison.
    People travel from around the world to come to Wyoming 
because our State's natural resources are spectacular.
    Wyoming has managed to strike that balance between our 
environment and our economy, and it shows.
    For 8 years Wyoming has suffered under an EPA that didn't 
believe in striking a balance. As EPA regulations crushed 
energy jobs in my State, State revenue fell that pays for State 
programs. This includes paying for our vital environmental 
programs.
    Clearly a wholesale change is needed. Any new Administrator 
of the Environmental Protection Agency needs to protect the 
environment in a responsible way that doesn't ignore the good 
work that States do to protect their air, land, and water, as 
well as their economies.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Mr. Chairman, thank you for bringing us 
here today. Thank you for your kind words, as well.
    Let me begin by welcoming our nominee, his wife Marlyn, and 
his children, Cade and McKenna, to what is a very important 
hearing.
    Mr. Pruitt, this past Sunday morning I rose at dawn. I went 
for a long run, took me through a beautiful State park in the 
northern part of Delaware. I reached the park at sunrise, just 
as the sun was coming up and the sky was turning a brilliant 
blue. The winter air was crisp and clear. Wildlife was all 
around. In a word, it was perfect.
    As I ran, I said a prayer of thanksgiving for the gift of 
this moment. Later that morning, my wife and I went to church. 
There we joined our congregation in singing a hymn that began 
with these words: ``For the beauty of the earth, for the glory 
of the skies, for the love which from our birth over and around 
us lies, Lord of all, to these we raise this our hymn of 
grateful praise.''
    Those words filled my heart with emotion then, and they do 
so again this morning.
    In little more than 48 hours, Donald Trump will place his 
hand on a Bible. He will take an oath to defend our country and 
Constitution. That Bible reminds us repeatedly to love our 
neighbors as ourselves, and it answers the question who is my 
neighbor. Also found in those pages are scores of admonitions 
about another obligation that those of us who live on this 
Earth are expected to meet. Simply put, we are to serve as 
stewards of this planet. I believe that we have a moral 
obligation to do so.
    A great many of my colleagues in the Senate agree, and so 
do most Americans. We need to be convinced that you embrace it 
as well; not just with your words, but with your deeds. Much of 
your record suggests otherwise. And today, and in the days that 
follow, we need to find out where the truth lies.
    Leading the Environmental Protection Agency is hard work. 
That Agency, created by President Richard Nixon and a 
bipartisan Congress 46 years ago, is tasked with implementing 
our Nation's most important clean air, clean water, and safe 
chemical laws. The EPA is required to use sound science to 
protect both our environment and our public health. By and 
large the EPA has done this successfully for decades while our 
economy has continued to grow.
    Many in this room today may not remember a time before the 
EPA, a time when States had to work individually to protect 
citizens and the community in which they live, a time before 
the Clean Water Act and Clean Air Act were signed into law, a 
time when businesses operating throughout the U.S. were faced 
with a myriad of conflicting State and local laws affecting our 
health and our environment. The choking smog and soot of a 
half-century ago seem unfathomable now. Rivers on fire and 
deadly toxic plumes sound like something from another world, 
impossible in our United States of America.
    Today we have the luxury of largely forgetting these 
frightening circumstances thanks to the efforts of the 
Environmental Protection Agency, its employees, partnership 
with State and local agencies and with companies across 
America. In fact the EPA and its many partners throughout this 
country have been so successful that it is easy for some of us 
to forget just why this Agency is so critical. For some it is 
also easy to presume that there is not much more for the Agency 
to do, and that just could not be further from the truth.
    The environmental threats that we face today are real, and 
they don't respect State boundaries. As we consider a nominee 
to run our Nation's foremost environmental agency it is worth 
reminding everyone here why the mission of the EPA is so 
critical and just what is at stake.
    Over time, my State of Delaware has made great strides in 
cleaning up our own air pollution, but our work only goes so 
far. Delaware, like many States on the East Coast, sits at the 
end of what is known as America's tailpipe. Ninety percent of 
the air pollution in Delaware comes from outside of the First 
State, from power plants hundreds of miles away in places like 
Kentucky, Ohio, Indiana, and across the Midwest.
    As Governor of Delaware, if I had eliminated every source 
of air pollution with my State, stopped every combustion source 
and ordered every motor vehicle off the roads, Delaware would 
still have faced deadly doses of air pollution. Should children 
and others in Delaware really be forced to live with the 
consequences of decisions made by polluters hundreds or even 
thousands of miles away who gain economically from our 
disadvantage? I don't think so.
    Fortunately, the EPA has recently implemented something 
called the Good Neighbor Rule to make sure that all States do 
their fair share to clean up the air. Every citizen in this 
country has the right to breathe clean air, regardless of 
whether they are in a downwind or upwind State. That is why we 
have the EPA.
    I remember fishing as a boy with my dad along the Dan 
River, near my hometown of Danville, Virginia. We brought home 
the fish that we caught to eat, and my mom and sister ate them 
as well. Today that quintessential American pastime comes with 
a warning label. That river, along with countless other 
polluted streams, rivers, and lakes in all 50 States are 
subject to public health advisories cautioning citizens against 
eating the mercury-laden fish found in them.
    We have known for decades that most of the mercury in our 
fish comes from air pollution that is emitted from the dirtiest 
coal plants and then settles in our waterways. We also know 
that mercury is a powerful neurotoxin that accumulates in the 
human body over time, threatening the health of this 
environment and this generation and for generations to come.
    The EPA recently issued public health protections to clean 
up the toxic air pollution from our dirtiest coal plants, 
allowing families in Delaware and thousands of other 
communities to once again eat the fish from our rivers, our 
lakes, our streams without concern of mercury poisoning. That 
is why we have the EPA.
    Too often, when State and local communities are pinched for 
cash, they try to save money by short-changing clean air and 
clean water protections, and improvements to water 
infrastructure are oftentimes ignored. Corners are cut; 
solutions are adopted that may save dollars now but inflict 
costly and unnecessary damage later. As we have seen most 
recently in the city of Flint, Michigan, these cuts can have a 
terrible--even a tragic--impact on the health of the most 
vulnerable in our society, especially the youngest among us.
    Today, the citizens of Flint still lack clean drinking 
water, and the new generation there which has been exposed to 
high levels of lead faces an uncertain future. That is why we 
have the EPA.
    You may not know it, Mr. Pruitt, but Delaware is the lowest 
lying State in our Nation. The highest point in Delaware is a 
bridge. Back home the reality that our climate is changing is 
not up for grabs or up for debate. Families and business owners 
face the stark reality of climate change every single day, and 
tackling that challenge is not just the right thing to do, what 
is best for Delaware's economy; it is a matter of survival.
    Take a ride with me sometime some 30 miles south of Dover 
Air Force Base, heading east toward the Delaware Bay, on Prime 
Hook Road, and you will see what I mean. There was a time not 
long ago where, just before you reached the Delaware Bay, you 
came to a parking lot. Today that parking lot is under water. 
Stand there with me, looking to the east, and you will see part 
of a concrete bunker slipping out of the water. Recently, 
someone showed me a photo taken of that bunker in 1947, the 
year I was born. It was on dry land, 500 feet west of the 
water's edge. Five hundred feet west.
    But our little State alone cannot stem the flow of 
greenhouse gases into our atmosphere that is largely causing 
our climate to change, our seas to rise, and our coastline to 
retreat. Every State must do its fair share to safeguard our 
climate and their neighbors. That is why we have the EPA.
    Examples of air and water pollution produced by one State 
and fouling the air and water of others can still be found in 
too many parts of America, like the runoff from Pennsylvania 
that degrades the waters of the Chesapeake Bay or the haze 
exported from other States that oftentimes shrouds the Smokey 
Mountains and degrades visibility at the Grand Canyon. That is 
why we have the EPA.
    Some of my colleagues describe me as recovering Governor. 
For the most part I believe that Governors and Presidents 
deserve deference in picking the members of their leadership 
teams, and as a result I have given Presidents of both parties 
that deference in most instances. Since coming to the Senate in 
2001 I have opposed only one of the nominees for EPA 
administrator; supporting two Republicans, two Democrats 
nominees. Subsequently, every EPA administrator that I have 
supported demonstrated clearly that they were committed to 
furthering the overall mission of the EPA, protecting human 
health and our environment.
    I am also committed to a full and fair confirmation process 
with respect to our nominations that this President-elect has 
offered, too.
    Having said that, though, I have shared with Mr. Pruitt--
and I will share with my colleagues today--that too much of 
what I have seen of his record of the environment and his views 
about the role of EPA are troubling, and in some cases deeply 
troubling. Even former Republican EPA Administrator Christie 
Whitman, with whom I served for 7 years as Governor of 
neighboring States, recently said that she ``can't recall ever 
having seen an appointment of someone who is so disdainful of 
the Agency and the science behind what the Agency does.''
    Let me conclude with this. It is hard to imagine a more 
damning statement, and from one who served not long ago in that 
position of trust, Mr. Pruitt, to which you have been 
nominated. Today is your opportunity to show us that she has 
gotten it wrong. To be honest with you, coming to this hearing 
today, I fear that she has gotten it right.
    Thank you.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    We are gathered here today to consider the nomination of 
Oklahoma Attorney General Scott Pruitt to be the Administrator 
of the Environmental Protection Agency (EPA). Let me begin by 
welcoming the nominee, his wife Marlyn, and their children Cade 
and McKenna to this important hearing.
    Mr. Pruitt, this past Sunday morning I rose at dawn and 
went for a long run that took me through a beautiful State park 
in northern Delaware. I reached the park at sunrise as the sky 
was turning a brilliant blue. The winter air was crisp and 
clear. Wildlife was all around. In a word, it was perfect.
    As I ran, I said a prayer of thanksgiving for the gift of 
that moment. Later that morning, my wife and I went to church. 
There we joined our congregation in singing a hymn that began 
with these words: ``For the beauty of the earth, for the glory 
of the skies, for the love which from our birth over and around 
us lies. Lord of all to thee we raise, this our hymn of 
grateful praise.'' Those words filled my heart with emotion 
then, and they do so again this morning.
    In a little more than 48 hours Donald Trump will place his 
hand on a Bible and take an oath to defend our country and 
Constitution. That Bible reminds us repeatedly to love our 
neighbors as ourselves, and it answers the question, ``Who is 
my neighbor?'' Also found in those pages are scores of 
admonitions about another obligation that those of us who live 
on this earth are expected to meet. Simply put, we are to serve 
as stewards of this planet.
    I believe that we have a moral obligation to do so. A great 
many of my colleagues in the Senate agree. So do most 
Americans. We need to be convinced that you embrace it, as 
well, not just with your words, but with your deeds. Much of 
your record suggests otherwise. Today, and in the days that 
follow, we need to find where the truth lies.
    Leading the Environmental Protection Agency is hard work. 
That agency--created by President Nixon and a bipartisan 
Congress 46 years ago--is tasked with implementing our Nation's 
most important clean air, clean water, and safe chemical laws.
    The EPA is required to use sound science to protect both 
our environment and our public health. By and large, the EPA 
has done this successfully for decades, while our economy has 
continued to grow.
    Many in this room today may not remember a time before the 
EPA: a time when States had to work individually to protect 
citizens and the communities in which they lived. A time before 
the Clean Water Act and Clean Air Act were signed into law. A 
time when businesses operating throughout the U.S. were faced 
with a myriad of conflicting State and local laws affecting our 
health and environment.
    The choking smog and soot of a half-century ago seems 
unfathomable now. Rivers on fire and deadly, toxic plumes sound 
like something from another world--impossible in our United 
States.
    Today, we have the luxury of largely forgetting these 
frightening circumstances thanks to the efforts of the EPA and 
its employees, in partnership with State and local agencies and 
with companies across America. In fact the EPA and its many 
partners throughout this country have been so successful that 
it's easy for some of us to forget just why this agency is so 
critical. For some it's also easy to presume there's not much 
more for the agency to do. That could not be further from the 
truth.
    The environmental threats we face today are real, and they 
don't respect State boundaries. As we consider a nominee to run 
our Nation's foremost environmental agency, it's worth 
reminding everyone here why the mission of the EPA is so 
critical and just what's at stake.
    Over time, my State of Delaware has made great strides in 
cleaning up our own air pollution, but our work only goes so 
far.
    Delaware, like many States on the East Coast, sits at the 
end of what's known as ``America's tailpipe.'' Ninety percent 
of the air pollution in Delaware comes from outside the First 
State--from power plants hundreds of miles away in places like 
Kentucky, Ohio, Indiana, and across the Midwest.
    As Governor of Delaware--even if I had eliminated every 
source of air pollution within our State by stopping every 
combustion source and ordering every motor vehicle off of our 
roads--Delawareans still would have faced deadly doses of air 
pollution. Should children and others in Delaware really be 
forced to live with the consequences of decisions made by 
polluters hundreds--or even thousands--of miles from us? I 
don't think so.
    Fortunately, the EPA has recently implemented something 
called the Good Neighbor rule to make sure that all States do 
their fair share to clean up the air. Every citizen in this 
country has a right to breathe clean air, regardless of whether 
they live in a downwind or upwind State. That is why we have 
the EPA.
    I remember fishing as a boy with my father along the Dan 
River near my hometown of Danville, Virginia. We brought home 
the fish we caught to eat. My mom and sister ate them, too. 
Today that quintessential American pastime comes with a warning 
label. That river, along with countless other polluted streams, 
rivers, and lakes in all 50 States, are subject to public 
health advisories cautioning citizens against eating the 
mercury-laden fish found in them.
    We've known for decades that most of the mercury in our 
fish comes from the air pollution that is emitted from the 
dirtiest coal plants and then settles in our waterways. We also 
know that mercury is a powerful neurotoxin that accumulates in 
the human body over time, threatening the health of this 
generation and generations to come.
    The EPA recently issued public health protections to clean 
up the toxic air pollution from our dirtiest coal plants, 
allowing families in Danville and thousands of other 
communities to once again eat the fish from our rivers, lakes, 
and streams without concerns of mercury poisoning. That's why 
we have the EPA.
    Too often, when States and local communities are pinched 
for cash, they try to save money by shortchanging clean air and 
clean water protections. Improvements to water infrastructure 
are often ignored, corners are cut, and solutions are adopted 
that may save dollars now but inflict costly and unnecessary 
damage later.
    As we've seen most recently in the city of Flint, Michigan, 
these cuts can have a terrible--and even tragic--impact on the 
health of the most vulnerable in our society, especially the 
youngest among them. Today the citizens of Flint still lack 
clean drinking water, and a new generation there, which has 
been exposed to high levels of lead, faces an uncertain future. 
That's why we have the EPA.
    You may not know it, Mr. Pruitt, but Delaware is the lowest 
lying State in our Nation. The highest point in the First State 
is a bridge. Back home the reality that our climate is changing 
is not up for debate. Families and business owners face the 
stark realities of climate change every single day. Tackling 
that challenge is not just the right thing to do or what is 
best for Delaware's economy. It's a matter of survival.
    Take a ride with me some 30 miles south of the Dover Air 
Force Base heading east toward the Delaware Bay on Prime Hook 
Road, and you'll see what I mean. There was a time not long ago 
when just before you reached the Bay you came to a parking lot. 
Today, that parking lot is under water. Stand there with me 
looking to the east and you'll see part of a concrete bunker 
sticking up out of the Bay. Recently, someone showed me a photo 
taken of that bunker in 1947, the year I was born. It was on 
dry land, 500 feet west of the water's edge.
    But our little State alone cannot stem the flow of 
greenhouse gases into our atmosphere that is largely causing 
our climate to change, our seas to rise, and our coastlines to 
retreat. Every State must do its fair share to safeguard our 
climate and their neighbors. That's why we have the EPA.
    Examples of air and water pollution produced by one State 
and fouling the air and water of others can still be found in 
too many parts of America, like the runoff from Pennsylvania 
that degrades the waters of the Chesapeake Bay. Or the haze--
exported from other States--that oftentimes shrouds the Smoky 
Mountains and degrades visibility at the Grand Canyon. That's 
why we have the EPA.
    Some of my colleagues describe me as a ``recovering'' 
Governor. For the most part I believe that Governors and 
Presidents deserve deference in picking the members of their 
leadership teams. As a result I've given Presidents of both 
parties that deference in most instances.
    Since coming to the Senate in 2001 I have opposed only one 
nominee for EPA Administrator--supporting two Republican 
nominees and two Democratic nominees. Subsequently, every EPA 
Administrator nominee that I've supported demonstrated clearly 
that they were committed to furthering the overall mission of 
the EPA--protecting human health and our environment.
    I am also committed to a full and fair confirmation process 
with respect to the nominations of this President-elect, too. 
Having said that, though, I've shared with Mr. Pruitt, and I'll 
share with my colleagues, that too much of what I've seen of 
his record on the environment and his views about the role of 
the EPA are troubling, and in some cases deeply troubling.
    Even former Republican EPA Administrator Christie Whitman--
with whom I served for 7 years as Governors of neighboring 
States--recently said that she can't `` . . . recall ever 
having seen an appointment of someone who is so disdainful of 
the agency and the science behind what the agency does.''
    It's hard to imagine a more damning statement and from one 
who served, not that long ago, in the position of trust, Mr. 
Pruitt, to which you have been nominated.
    Today is your opportunity to show that she's gotten it 
wrong. But to be honest with you, coming into this hearing 
today, I fear that she's gotten it right.

    Senator Barrasso. Thank you very much, Senator Carper.
    In a few moments I would like to turn to Senators Inhofe 
and Lankford from their home State of Oklahoma regarding the 
nominee's distinguished career. Before I do that, though, I 
want to say a few words about Senator Inhofe and his 
distinguished career as chairman of the Senate Environment and 
Public Works Committee.
    First, I want to thank my friend, Jim Inhofe, for his 
leadership of this Committee. His dedication to protecting the 
environment, rebuilding our Nation's infrastructure, 
strengthening the country's economy was clearly evident 
throughout his time as Chairman. He worked across party lines 
to get things done. During the 114th Congress, under Jim 
Inhofe's leadership this Committee held 67 hearings. Of those, 
8 were field hearings. Thirty-two bills passed out of the 
Committee that were signed into law.
    Chairman Inhofe oversaw the first long-term highway bill in 
a decade. This law will improve the Nation's roads, bridges, 
transit systems, and rail transportation networks. He also 
worked on a bipartisan basis with former Ranking Member Barbara 
Boxer to pass badly needed Water Resources Development Act 
legislation. This new law prioritizes dam, waterway, and port 
construction projects, and it supports flood control projects 
that protect millions of people.
    For the first time in 40 years the Toxic Substances Control 
Act was modernized under Chairman Inhofe's tenure. This law 
enacts a new uniform regulatory program that will improve 
public confidence in the safety of chemicals, promote 
innovation, and provide manufacturers with certainty regarding 
regulation.
    Chairman Inhofe also worked to keep the Administration 
accountable. Chairman Inhofe worked to ensure that there was 
oversight of overreaching Administration regulations concerning 
the Clean Power Plan, Waters of the U.S., the Stream Buffer 
Rule, coal ash regulations, and many more.
    So I am very glad that Senator Inhofe will remain on the 
Committee. I look forward to working closely with him to 
protect our environment and bolster our Nation's economy.
    Senator Inhofe, thank you for your hard work, your 
dedication, and your leadership.
    Senator Inhofe, you are now recognized to introduce and 
talk about Attorney General Pruitt.
    Thank you.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Senator Barrasso, thank you very much, and 
I am looking forward to working in a very senior position on 
your Committee. This is the Committee that gets things done, as 
Scott Pruitt is fully aware.
    I thank you, Chairman Barrasso, and also you, Senator 
Carper, for letting me join you for this, and I am honored to 
join my fellow Senator, Senator Lankford, in introducing not 
just the Attorney General, Scott Pruitt, but my good friend, 
and to offer my support for his nomination to be the next 
Administrator of the Environmental Protection Agency.
    Though neither of us was born in Oklahoma, we got here as 
quick as we could, and both ended up in Tulsa, so he is also a 
neighbor. Attorney General Pruitt, you will be glad to know 
this, he was born in Kentucky. He showed what he was made out 
of and ended up a great baseball player that was able to get a 
scholarship and go through the university there. Then he came 
to Oklahoma, went through law school at the University of 
Tulsa, and did all kinds of things, specialized at that time in 
constitutional law.
    In 1998 General Pruitt ran and was elected to the Oklahoma 
State Senate, where he served 6 years and he quickly became a 
leader. Indeed, success has followed him throughout his law 
practice to the State Senate, to become the co-owner and 
manager, managing general partner of Oklahoma City's AAA minor 
league baseball team--see, we have something in addition to the 
Thunder that we are all fully aware of--and is currently 
Oklahoma's Attorney General.
    Through the course of his career, Attorney General Pruitt 
has stood out as a champion of State and individual rights and 
has fought against Federal overreach. He has earned a 
reputation as a defender of the rule of law and has worked to 
keep the role of the Federal Government in check. As head of 
the Environmental Protection Agency, Attorney General Pruitt 
will ensure that the Agency fulfills the role delegated to it 
by the laws passed by Congress, nothing more and nothing less.
    Oklahoma is an energy and agricultural State, but we are 
also a State that knows what it means to protect the 
environment while balancing competing interests. As Attorney 
General, Scott was instrumental--oh, this is a big deal. We 
actually have had an ongoing litigation for 100 years; it was 
the State of Oklahoma, the city of Oklahoma City, the Choctaw 
Nation, the Chickasaw Nation. It was over water rights. We 
weren't able to resolve that problem. This guy comes trotting 
along and resolves it overnight after 100 years of failures of 
trying to get this done.
    He has also worked with Oklahoma Department of 
Environmental Quality and the Oklahoma Water Resources Board to 
protect the scenic rivers. He is kind of a hero of the scenic 
rivers place. People don't know, Scott, that we in Oklahoma 
actually have more miles of freshwater shoreline----
    [Interruption from audience.]
    Senator Barrasso. I would ask the Senator to please suspend 
his remarks for a few seconds.
    [Interruption from audience.]
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Inhofe. They obviously don't like scenic rivers, 
but we do in Oklahoma.
    Anyway, additionally, in 2012 Oklahoma partnered with four 
other States--New Mexico, Colorado, Kansas, and Texas--to bring 
together State official conservation groups, energy and ag 
industries, and other private landowners to address the 
challenges facing one of the problems that we have there having 
to do with what might become an endangered species. It was an 
effort that saw success in its first year. Now, this is working 
with four different States. Despite endorsing the plan, the 
Fish and Wildlife Service moved forward with listing the 
species as threatened, endangering the cooperation reached 
between these varying interests.
    So Attorney General Pruitt sued the Fish and Wildlife 
Department for ignoring the unique cooperative agreement, and 
he won. He wins. He wins these things.
    Yes, as Attorney General, Scott Pruitt has fought the EPA, 
the Fish and Wildlife Service, the oil companies, and the 
outgoing Administration on many fronts. But all of these suits 
were brought to protect State and local interests from 
overzealous and activist executive agencies.
    Over the last 8 years the Obama administration has advanced 
a radical environmental agenda, has exhibited a deep distrust 
of State governments and private landowners, and has worked to 
obstruct the fossil fuel industry and agriculture producers, 
the most ardent protectors of the environment. These are 
industries and interests that Oklahoma relies on, and far from 
being an enemy of the environment Scott has proven himself to 
be an expert at balancing economic growth with environmental 
stewardship.
    So it is my belief that Attorney General Pruitt will return 
the Environmental Protection Agency to its proper role as a 
steward for the environment, acting within the bounds 
prescribed by Congress and the Constitution.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Chairman Barrasso, Ranking Member Carper, and 
colleagues for this opportunity. I am honored to introduce my 
friend, Oklahoma Attorney General Scott Pruitt, and to offer my 
support for his nomination to be the next Administrator of the 
Environmental Protection Agency. Though neither of us were born 
in Oklahoma, we both got there as fast as we could and made the 
Tulsa area our home.
    Attorney General Pruitt grew up in Kentucky and was enough 
of a baseball standout in high school to earn a scholarship to 
the University of Kentucky where he earned the reputation for 
being driven and a winner. Attorney General Pruitt finished his 
undergrad at Georgetown College in Georgetown, Kentucky, and 
then graduated from law school at the University of Tulsa in 
1993, where he remained and became a practicing attorney 
specializing in Constitutional Law.
    In 1998 Attorney General Pruitt ran and was elected to the 
Oklahoma State Senate where he served for 6 years. He quickly 
became a standout of the party. Indeed, success has followed 
him from his law practice, to the State Senate, to become co-
owner and managing general partner of Oklahoma City's Triple-A 
minor league baseball team, and currently as Oklahoma's 
Attorney General.
    Through the course of his career Attorney General Pruitt 
has stood out as a champion of State and individual rights and 
has fought against Federal overreach. He has earned a 
reputation as a defender of the rule of law and has worked to 
keep the role of the Federal Government in check.
    As head of the Environmental Protection Agency, Attorney 
General Pruitt will ensure that the agency fulfills the role 
delegated to it by the laws passed by Congress--nothing more, 
nothing less. Oklahoma is an energy and agriculture State, but 
we're also a State that knows what it means to protect the 
environment while balancing competing interests.
    As Attorney General, Scott was instrumental in negotiating 
a water rights settlement between the State, Oklahoma City, and 
the Chickasaw and Choctaw nations--a dispute that dates back to 
the 19th century. The negotiated settlement maintains tribal 
sovereignty and environmental conservation guidelines while 
also guaranteeing Oklahoma City's access to a vital drinking 
water source.
    He has also worked with the Oklahoma Department of 
Environmental Quality and the Oklahoma Water Resources Board to 
protect Oklahoma's Scenic Rivers from upstream pollution. In 
fact the executive director of DEQ credits Attorney General 
Pruitt's actions and insistence on using sound science with the 
fact that Oklahoma's desired water standard was preserved.
    Additionally, in 2012 Oklahoma partnered with New Mexico, 
Colorado, Kansas, and Texas to bring together State officials, 
conservation groups, energy and agricultural industries, and 
other private landowners to address the challenges facing the 
lesser prairie-chicken--an effort that saw success in its first 
year and continues to do so. Despite endorsing the plan the 
Fish and Wildlife Service moved forward with listing the 
species as threatened, endangering the cooperation reached by 
these varying interests. As Attorney General, Scott sued the 
Fish and Wildlife Service for ignoring this unique cooperative 
agreement and won.
    Yes, as Attorney General, Scott Pruitt has fought the EPA, 
the Fish and Wildlife Service, and the out-going Administration 
on many fronts, but all of these suits were brought to protect 
State and local interests from overzealous and activist 
executive agencies. Over the last 8 years the Obama 
administration has advanced a radical environmental agenda, has 
exhibited a deep distrust of State governments and private 
landowners, and has worked to obstruct the fossil fuel industry 
and agriculture producers, the most ardent protectors of the 
environment. These are industries and interests that Oklahoma 
relies on. And far from being an enemy of the environment, 
Scott has proven himself as the expert at balancing economic 
growth with environmental stewardship.
    It is my belief that Attorney General Pruitt will return 
the Environmental Protection Agency to its proper role as a 
steward of the environment, acting within the bounds prescribed 
by Congress and the Constitution.
    Thank you again, Mr. Chairman, and I would like to enter 
into the record an op-ed in support of Attorney General Pruitt 
from Scott Thompson, executive director of the Oklahoma 
Department of Environmental Quality.

    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Lankford.

           OPENING STATEMENT OF HON. JAMES LANKFORD, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Lankford. Chairman Barrasso, thank you. Ranking 
Member Carper, members of the Committee, thank you for allowing 
me to be able to be here today, introduce my fellow Oklahoman, 
and for Senator Inhofe and I to both be able to stand with him 
and to be able to introduce who we believe will be a tremendous 
nominee as Administrator for the Environmental Protection 
Agency.
    It is an honor to speak in support of Attorney General 
Pruitt today. Over the past 6 years Scott has been a leader in 
the State of Oklahoma, strongly committed to enforcing the law 
and adhering to the Constitution. He is a statesman. He is a 
dedicated public servant. As Administrator of the EPA I would 
fully expect Scott to lead the Agency to follow every 
environmental law and to partner with States, local 
authorities, and tribes to do what is best for our present and 
for our future.
    As Attorney General of Oklahoma he stood shoulder to 
shoulder with more than half of the States to ensure the 
Federal Government operates within the bounds of the statute 
and the Constitution. He has argued consistently that many 
regulations that the EPA promulgates are in fact the 
responsibilities of State governments first.
    In an environment where Chevron deference is precedent, it 
is critical that the leader of an agency that has such wide 
latitude to extract costs from the economy also respects the 
importance of our Federalist foundation and the pocketbooks of 
hardworking families.
    In previous congressional testimony, Scott has emphasized 
the importance of laws like the Clean Air Act, stressing that 
the intention was for States and the EPA to work together under 
a model of cooperative federalism that protects the environment 
while considering economic costs.
    As Attorney General Scott has been an ardent defender of 
the rule of law for Oklahomans. In 2012 he sued British 
Petroleum, arguing that they knowingly double-dipped through 
the collection of funds through a clean up fund despite having 
insurance coverage for environmental clean up. He did not 
hesitate to stand up for his constituents and for his State.
    Mike Turpen is the former Attorney General of the State of 
Oklahoma and the former Chairman of the Oklahoma Democratic 
Party. He spoke out in mid-December, when Scott was first 
announced. Let me just read a short portion of his very long 
statement in support of Scott Pruitt.
    Former Attorney General Mike Turpen and our former 
Democratic Party Chairman said, ``Oklahoma Attorney Scott 
Pruitt is a good choice to head up the Environmental Protection 
Agency. I am convinced Scott Pruitt will work to protect our 
natural habitats, reserves, and resources. His vision for a 
proper relationship between protection and prosperity makes him 
superbly qualified to serve as our next EPA Administrator.''
    Scott is an active member and a deacon at his church, First 
Baptist Church Broken Arrow, a congregation of almost 2,000 
people. He is incredibly strong in his faith, and he strives to 
walk in integrity. Scott is a serious baseball fan, as well. If 
you run out of environmental or legal questions today, which I 
doubt you will, but if you run out, why don't you ask him a 
couple questions about baseball strategy and spring training, 
which starts in just a few weeks.
    I have to tell you Scott is a friend. I have prayed with 
Scott. I have seen Scott struggle with hard decisions that 
affect our State's future. I have seen Scott listen to people 
to try to learn all sides of an issue. And I have seen Scott 
take difficult stands on matters of law. I think he will be an 
excellent Administrator for the EPA, and I think he will do 
very well today in getting a chance to bring you the confidence 
that he will work hard for our Nation's present and for the 
future.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Lankford follows:]

                   Statement of Hon. James Lankford, 
                U.S. Senator from the State of Oklahoma

    Chairman Barrasso, Ranking Member Carper, members of the 
Committee, thank you for graciously allowing Senator Inhofe and 
me the opportunity to join you this morning to introduce our 
fellow Oklahoman, Scott Pruitt, as nominee to be the next EPA 
Administrator.
    It is an honor to speak in support of Attorney General 
Pruitt today. Over the past 6 years Scott has been a leader in 
the State of Oklahoma strongly committed to enforcing the law 
and adhering to the Constitution. He is a statesman and 
dedicated public servant.
    As the Administrator of the EPA, I would fully expect Scott 
to lead the Agency to follow every environmental law and to 
partner with States, local authorities, and tribes to do what 
is best for our present and our future.
    As Attorney General of Oklahoma, he's stood shoulder to 
shoulder with more than half the States to ensure that the 
Federal Government operates within the bounds of statute and 
the Constitution. He has argued consistently that many 
regulations the EPA promulgates are in fact the responsibility 
of State government.
    In an environment where Chevron deference is precedent it 
is critical that the leader of an agency that has such wide 
latitude to extract costs from the economy respects the 
importance of our federalist foundation and the pocketbooks of 
hardworking families.
    In previous congressional testimony he has the stressed the 
importance of laws like the Clean Air Act, stressing that the 
intention was for States and the EPA to work together under a 
model of cooperative federalism that protects the environment, 
while considering economic costs. \1\
---------------------------------------------------------------------------
    \1\ Testimony before the House Oversight Subcommittee on 
Technology, Information Policy, Intergovernmental Relations and 
Procurement Reform, June 28, 2012.
---------------------------------------------------------------------------
    As Attorney General, Pruitt has been an ardent defender of 
the rule of law for Oklahomans. In 2012 he sued BP alleging 
they ``knowingly double-dipped'' through the collection of 
funds through a cleanup fund despite having insurance coverage 
for environmental clean up. He did not hesitate to stand up for 
his constituents and his State.
    Mike Turpen, former Attorney General of the State of 
Oklahoma and the former chairman of the Oklahoma Democratic 
Party, spoke out in mid-December when Scott was first 
announced. Let me read just a short portion of his long 
statement--he stated: ``Oklahoma Attorney General Scott Pruitt 
is a good choice to head up the Environmental Protection 
Agency. I am convinced Scott Pruitt will work to protect our 
natural habitats, reserves, and resources. His vision for a 
proper relationship between protection and prosperity makes him 
superbly qualified to serve as our next EPA Administrator.''
    Scott is an active member and Deacon at his church--First 
Baptist Broken Arrow--a congregation of almost 2,000. He is 
incredibly strong in his faith and strives to walk with 
integrity.
    Scott is a serious baseball fan. If you run out of 
environmental or legal questions today, which I doubt you will, 
ask him about baseball strategy and spring training, which 
starts in only a few weeks.
    Scott is a friend. I have prayed with Scott, seen Scott 
struggle with hard decisions that affect our State's future, 
seen Scott listen to people to learn all sides of an issue, and 
I have seen Scott take difficult stands on matters of law. I 
think he will be an excellent EPA Administrator.

    Senator Barrasso. Well, thank you so very much, Senator 
Lankford and Senator Inhofe.
    Senator Lankford, you are welcome to stay, but you can't 
stay in that seat.
    [Laughter.]
    Senator Lankford. You got it.
    Senator Barrasso. Now I would like to welcome Attorney 
General Pruitt to the Senate Environment and Public Works 
Committee.
    Welcome. I invite you to first introduce your family and 
then proceed with your statement. Congratulations, and welcome.

  STATEMENT OF HON. SCOTT PRUITT, ATTORNEY GENERAL, STATE OF 
  OKLAHOMA, NOMINATED TO BE ADMINISTRATOR, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Pruitt. Good morning, Chairman Barrasso, Ranking Member 
Carper, members of the Committee. It is an honor and a 
privilege to be before you today to be considered for the 
position of EPA Administrator.
    I first want to say thank you to Senators Inhofe and 
Lankford for their opening comments. Senator Inhofe has been a 
mentor and a friend to me many, many years, and he spent a lot 
of time with me through this process, introducing me to many of 
you, and I really appreciate his guidance and his help.
    Senator Lankford was a friend well before he entered 
Congress, and he is already serving Oklahoma and this country 
with great distinction.
    Mr. Chairman, you indicated to introduce my family. I am 
blessed today to have my family in attendance with me. My wife, 
Marlyn, of 27 years, is in attendance, along with my children, 
McKenna and Cade. There is a little change going on in their 
life as well. McKenna is actually graduating from Oklahoma 
University this spring and Senator Whitehouse's alma mater of 
the University of Virginia Law School. And my son is going to 
be graduating high school and heading to Oklahoma University, 
following in his sister's footsteps, to be a Boomer Sooner.
    So there is lots of change going on in their lives, lots of 
change going on in my family's life, and lots of change going 
on in the country. And I think the people of this country are 
really hungry for some change.
    And with change comes an opportunity for growth, an 
opportunity to assess how we can reprioritize as a Nation. And 
when I ponder leading the EPA I get excited about the great 
work to be done on behalf of our Nation and being a good 
steward of the natural resources we have as a Nation. What 
could be more important than protecting our Nation's waters, 
improving our air, and managing the land that we have been 
blessed with as a Nation, all the while protecting the health 
and welfare of our people?
    So, if confirmed, I would lead the EPA with the following 
principles in mind.
    First, we must reject as a Nation the false paradigm that 
if you are pro-energy, you are anti-environment, and if you are 
pro-environment, you are anti-energy. I utterly reject that 
narrative. In this Nation we can grow our economy, harvest the 
resources God has blessed us with, while also being good 
stewards of the air, land, and water by which we have been 
favored. It is not an either-or proposition.
    Next, we should celebrate the great progress that we have 
made as a Nation since the inception of the EPA and the laws 
that have been passed by this body, but recognize that we have 
much work to do.
    Third, rule of law matters. Process matters. It inspires 
confidence in those that are regulated. The law is static, not 
transient. Regulators are supposed to make things regular, to 
fairly and equitably enforce the rules and not pick winners and 
losers. A regulator should not be for or against any sector of 
our economy. Instead, a regulator ought to follow law in 
setting up the rules so that those who are regulated can plan, 
allocate resources to meet the standards versus operating in a 
state of uncertainty and duress.
    Fourth, federalism matters. It matters because Congress 
says so. And because we need to achieve good outcomes as a 
Nation for air and water quality, we need the partnership of 
the States to achieve that. It is our State regulators who 
oftentimes best understand the local needs and the uniqueness 
of our environmental challenges. Plus, our State regulators 
possess the resources and expertise to enforce our 
environmental laws.
    Fifth, public participation is key. We need to hear all 
voices as we make decisions on behalf of our country with 
respect to environmental laws.
    Two final things personally. I seek to be a good listener, 
to listen and to lead. You can't do one without the other. 
Listen to those career staff----
    [Interruption from audience.]
    Mr. Pruitt. Listen to those career staff at the EPA, as I 
have done as Attorney General of Oklahoma, and listen to you 
here in Congress with respect to the needs of your respective 
States, and listen to the voice of all Americans as we seek to 
carry out our duties under the law.
    Last--and this is very important--I seek to serve with 
civility. Oftentimes as policymakers you deal with very 
contentious issues; I have as Attorney General of Oklahoma as 
well. We deal with weighty issues, and there is passion on both 
sides of issues. But we should not succumb to personalizing 
matters. We should encourage open and civil discourse. One such 
issue where civil discourse is absent involves climate change. 
Let me say to you science tells us that the climate is 
changing, and that human activity in some manner impacts that 
change. The ability to measure with precision the degree and 
extent of that impact and what to do about it are subject to 
continuing debate and dialogue, and well it should be.
    So with these principles in mind I seek to answer your 
questions today, and I am honored to be here today to be 
considered for the position of EPA Administrator.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pruitt follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
        
    Senator Barrasso. Well, thank you very much. Welcome to 
your family, and thank you and congratulations again.
    Attorney General Pruitt, you have answered the Committee 
questionnaire. The United States Office of Government Ethics 
has stated that you are ``in compliance with applicable laws 
and regulations governing conflicts of interest.''
    Throughout this hearing, and with the questions for the 
record, our Committee members will have an opportunity to learn 
more about your commitment to public service and our Nation. I 
would ask that throughout this hearing you please respond to 
the questions for the record.
    With that said, I have to ask the following questions that 
we ask of all nominees on behalf of the Committee.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee, and other appropriate 
committees of the Congress, and provide information subject to 
appropriate and necessary security protection with respect to 
your responsibilities?
    Mr. Pruitt. Yes, Mr. Chairman.
    Senator Barrasso. Do you agree to ensure that testimony, 
briefings, documents, and electronic and other forms of 
information are provided to this Committee and its staff, and 
other appropriate committees, in a timely manner?
    Mr. Pruitt. Yes, Mr. Chairman.
    Senator Barrasso. Do you know of any matters which you may 
or may not have disclosed that might place you in any conflict 
of interest if you are confirmed?
    Mr. Pruitt. No, Chairman.
    Senator Barrasso. Thank you.
    Just a couple quick questions before we go back and forth. 
I would just ask if you could just please describe your 
environmental philosophy, what you would do to protect our 
environment.
    Mr. Pruitt. Well, Mr. Chairman, as I indicated in my 
opening statement, I believe that the role of a regulator--and 
this may not sound too exciting--but is to make things regular. 
And I think one of the difficult challenges we see with 
individuals across the country is the inability to predict or 
know what is expected of them as far as their obligations under 
our environmental laws. And I really believe, Mr. Chairman, 
that if confirmed as EPA Administrator, this public 
participation, cooperative federalism, rule of law being the 
focus of how we do business at the EPA, is center to restoring 
confidence and certainty in those that are regulated.
    Clearly, the mission of the EPA, as I indicated in my 
opening statement, to protect our natural resources, protecting 
our water quality, improving our air, helping protect the 
health and welfare of our citizens, is key to the leadership of 
the EPA, and where enforcement is necessary, vigorous 
enforcement. I have done that as Attorney General in Oklahoma. 
I have taken very constructive steps against those that have 
violated the law, but we have done so, I think, in a very 
decisive and meaningful way.
    So, Mr. Chairman, with that in mind.
    Senator Barrasso. I am going to ask one other question, 
then I am going to reserve the balance of my time for some 
interjection and questioning throughout.
    There are still a number of environmental problems that I 
see in the country and in my State. Cold war legacy pollution 
is a serious problem, where chemical compounds are left deep in 
the soil from our military activity decades ago. Often there 
are not the tools yet available to adequately address this 
pollution. If confirmed, would you advocate increasing the 
EPA's focus on innovative technological solutions to address 
these and other environmental problems?
    Mr. Pruitt. Yes, Mr. Chairman, and this Congress, this past 
Congress, as you indicated in your statement and as Senator 
Inhofe recognized, with the changes to the TSCA law, there are 
priorities this year, new authority actually that has been 
given to the EPA Administrator to order testing on certain 
chemicals. As I have spent time with some of the members on 
this Committee--Senator Gillibrand, as an example, mentioned 
PFOA as a concern with respect to the Safe Drinking Water Act, 
along with TSCA. So, yes, Mr. Chairman, I believe that there 
are priorities that are key to improving our environment, from 
CERCLA to TSCA, across air quality, with non-attainment to 
attainment, and would seek to focus and prioritize those 
efforts.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Mr. Pruitt, we don't often have the kind of 
disruptions in this room and in this building that we are 
witnessing here today. This is extraordinary. Not 
unprecedented, but extraordinary. And people might ask, well, 
why are folks so concerned. Well, I will tell you why they are 
so concerned. And you don't have to go back to March 3rd up in 
Detroit, Michigan, where President-elect--then Candidate Trump, 
Donald Trump said these words, ``We're going to get rid of EPA 
in almost every form. We are going to have little tidbits left, 
but we are going to take a tremendous amount out.'' That is 
what he said during the Republican primary.
    And what did he say after the election? Well, November 
10th, Fox News with Chris Wallace, he said, ``Environmental 
Protection, what they do is a disgrace. Every week they come 
out with new regulations.'' Chris Wallace asked him, ``Well, 
who is going to protect the environment?'' He responded by 
saying, ``We'll be fine with the environment.'' We'll be fine 
with the environment.
    Well, we are concerned that we won't be fine with the 
environment. Sometimes words do matter. And one of the concerns 
that I have is he is the President; you would be his nominee, 
you would be his EPA Administrator. All the things that he said 
in the campaign, do they just go away? In you he has put 
somebody in place who has actually defunded or led to the 
defunding of the Environmental Protection Unit within your own 
agency. And yet you have joined in a dozen or more lawsuits 
over the last 6 years, ever since you have been Attorney 
General, going after the EPA. That is why I have the kind of 
concern that you are witnessing here today; not just on that 
side of the dais, but on this side as well.
    You just took an oath, you raised your hand and took an 
oath to answer the questions that our Chairman asked of you, 
and one of them was a question dealing with your willingness to 
respond to reasonable questions that are asked of you. One of 
the things I asked of you--I submitted a letter that I think 
you received shortly after Christmas, maybe December 28th, 
close of business, and in it I asked a lot of questions. I 
asked you to try to respond by January 9th. You didn't respond 
to one of them by January 9th, not even one. Today's hearing, I 
just asked my staff have you responded to any of those 
questions in writing that I asked almost 3 weeks ago, and to my 
knowledge no response has yet been received. That is why we 
have a concern. That is why we have a concern.
    Mercury.
    Mr. Pruitt. I am sorry?
    Senator Carper. I am going to start off by talking about 
mercury. In 2011 the EPA required dirty coal power plants to 
clean up mercury and air toxic emissions by issuing the Mercury 
and Air Toxic Standards Rule. This rule will reduce the 
mercury, a neurotoxin that contaminates our streams and our 
oceans, pollutes our fish, and harms our children's health.
    As Attorney General, I believe you have been part of at 
least 14 legal cases against the EPA and at least 3 of these 
cases against the EPA's rules, to reduce mercury emissions from 
power plants. Is that correct? Just yes or no.
    Mr. Pruitt. Senator, we have been involved in litigation 
around the MATS Rule.
    Senator Carper. Is that correct, yes or no?
    Mr. Pruitt. As I indicated, yes, we have been a part of 
litigation involving the MATS Rule.
    Senator Carper. Thank you. It is my understanding that at 
least one of these cases against the mercury rule is still 
pending. Is that correct? Just yes or no.
    Mr. Pruitt. I believe so, Senator, yes.
    Senator Carper. Thank you. In the cases against the mercury 
rule, you questioned the EPA's determination that mercury 
emissions from power plants are harmful to health and should be 
regulated. To be clear, have you ever supported a case against 
the EPA that claims, and this is a quote, ``human exposure to 
methylmercury resulting from coal-fired power plants is 
exceedingly small,'' yes or no?
    Mr. Pruitt. Senator, that is not a yes or no question, if I 
may.
    Senator Carper. Fair enough. This position seems to 
question an EPA decision in 2000 in which the Agency 
determined, after almost a decade of study--and this is a quote 
from them, ``mercury emissions from power plants pose 
significant hazards to public health and must be reduced.'' 
Would you say the legal cases you have supported in the past 
directly challenge this Agency finding, yes or no?
    Mr. Pruitt. Senator, the challenges we have had as a 
State----
    Senator Carper. Yes or no?
    Mr. Pruitt [continuing]. Along with the other States----
    Senator Carper. Yes or no?
    Mr. Pruitt. If I may, Senator. If I may.
    Senator Carper. Just hold your fire. Just hold your fire.
    Mr. Pruitt. OK.
    Senator Carper. The legal position you have taken on 
mercury also seems to call in question the 2003 testimony from 
then-EPA Assistant Administrator of Air and Radiation, Jeff 
Holmstead, under George W. Bush, who sat right where you are 
sitting today, and this is what he said: ``EPA is required to 
regulate mercury because EPA determined that mercury emissions 
from power plants pose an otherwise unaddressed significant 
risk to health and the environment and because controls options 
to reduce this risk are available.''
    This Bush EPA statement on mercury risk seems contrary to 
the legal arguments you have supported in the past. Is that 
correct, yes or no?
    Mr. Pruitt. I agree with Mr. Holmstead's position that 
mercury is something that is very dangerous to the environment 
and should be regulated under section 112.
    Senator Carper. Thank you very much.
    Are you aware that the last three administrators have 
publicly stated that the EPA is required to regulate mercury 
from power plants because of the health risk, yes or no?
    Mr. Pruitt. I believe that mercury should be regulated 
under section 112.
    Senator Carper. Thank you very much.
    My time is about to expire. I will just hold it there.
    Thank you very much, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Well, I don't think you had adequate time to answer some of 
the questions that were asked. Is there anything you would like 
to add, to elaborate on?
    Mr. Pruitt. Yes, Senator, thank you. I do want to say to 
Senator Carper's concern with respect to the President-elect's 
statements throughout the campaign, I believe there is a very 
important role for the Environmental Protection Agency. In fact 
you and I talked about that in your office. I believe that 
there are air quality issues and water quality issues that 
cross State lines; that the jurisdiction of the EPA, its 
involvement in protecting our air quality and improving our 
Nation's waters is extremely important.
    And the EPA has served a very valuable role historically. 
After all it was Republicans who created the EPA under 
executive order in 1970, and this body has passed many pieces 
of legislation since the 1970s to focus upon improving our air 
and improving our water quality, and we have much to celebrate. 
Actually, there are six criteria pollutants under the NAAQS 
program since 1980 that are down 63 percent. We have made 
progress as a country, but we have work to do, and the EPA has 
a very valuable role, in partner with the States, to carry out 
those steps to ensure improving our air quality and protecting 
our Nation's waters.
    So, Senator Carper, I am hopeful that--in response to your 
concern about the role of the EPA, I believe it is a very 
valuable role, and it is something that we should focus on in 
partnering with our States.
    With respect to mercury, the litigation that you referred 
to, there was no argument that we made from a State perspective 
that mercury is not a hazardous air pollutant under section 
112. Our argument focused upon the cost-benefit analysis that 
the EPA failed to do, and in the Michigan v. EPA case the 
Supreme Court actually agreed. So it was more about the 
process, again, that the EPA was supposed to go through in 
regulating mercury to provide certainty to those in the 
marketplace, not a statement with respect to whether mercury 
should be regulated or not under section 112.
    Thank you, Senator Inhofe.
    Senator Inhofe. Thank you, General. I am glad you brought 
up this thing about the Clean Air Act. The amendments from 
1990, I was one of the co-sponsors; it has been incredibly 
successful. You mentioned that we have reduced those pollutants 
by 63 percent, but what you didn't add was that is in spite of 
the fact that we had 153 percent increase in our economic 
activity. That is a major thing.
    In my introduction I mentioned this thing that you did that 
no one can figure out how you did it, involved a 100-year 
dispute between not just the State of Oklahoma and the city of 
Oklahoma City and the Choctaws and the Chickasaws. Do you want 
to share with us how you did that? You know, they tried for 100 
years, and you came in and did it in less than 100 days.
    Mr. Pruitt. Less than 8 months into my administration as 
Attorney General, we were sued as a State by the Choctaw and 
Chickasaw Nation with respect to water in 17 counties in 
southeast Oklahoma. Many of you--if you know anything about 
water litigation, it generally takes decades to resolve water 
litigation. We were able to go from August 2011 until 2016 and 
negotiate an historic water rights agreement with those two 
Nations to provide certainty to those that are regulated, to 
provide a voice to the tribes with respect to water allocation 
and water quality, and the State has maintained its position as 
arbiter of how those permits are allocated, as well.
    So it was a partnership. It was the way things ought to 
work when litigation occurs. Sitting across the table from 
individuals and working together to try to solve the problem. 
And Senator, we were able to achieve that in record time, and I 
am very proud of what we did as a State and as the Chickasaw 
and Choctaw Nation together.
    Senator Inhofe. Yes, that is good. I think, also, you got 
them all in one room, didn't you?
    Mr. Pruitt. Yes, sir.
    Senator Inhofe. That works.
    You have been criticized by some of the people talking 
about some of your environmental record. I would like to be 
sure that people are aware of a number of people, I have some 
here that I will submit for the record, but a guy named Ed Fite 
is the vice president of scenic rivers and water quality of the 
GRDA. This is a person who has really been at the forefront of 
our scenic rivers program; he praises you, saying, ``I found 
that General Pruitt has always done right by our scenic rivers. 
He has done everything constructive that he told me that he 
would do.''
    The same thing comes from the North Carolina Department of 
Environmental Quality, Donald van der Vaart. He wrote, ``Pruitt 
is committed to clean air and clean water, and to restoring the 
EPA to its original mission of enforcing the environmental laws 
written by Congress.''
    J.D. Strong, head of the Water Resources Board, said, 
``Attorney General Pruitt'' and he goes on and praises you.
    I would like to know why it is you have become such a hero 
of the scenic river people.
    Mr. Pruitt. Well, Senator, as you know, Oklahoma has 
endured many decades of dispute with respect to phosphorus 
levels in the scenic Illinois River. In fact, there has been 
litigation that has been a part of that dispute for some time. 
There was actually a memorandum of understanding that Arkansas 
and Oklahoma entered into around 2002, 2003, and that 
memorandum expired during my time as Attorney General. There 
were many in government at the time that said we should just 
wait on the EPA to come in and address the issue, and I chose a 
different path. I actually reached out to my Democratic 
colleague, Dustin McDaniel, the Attorney General of the State 
of Arkansas, and we were able to negotiate an agreement that 
had phosphorus levels set at .037 scientifically driven and 
enforced on both sides of the border for the first time in 
history.
    So I think Mr. Fite is actually the head of the Scenic 
Illinois Rivers Commission. He has been center on this issue 
for a number of years, and I think his good word relates to the 
work that we did in my office, working with Dustin McDaniel, to 
achieve that good outcome.
    Senator Inhofe. I know my time has expired, but Mr. 
Chairman, I would like to enter into the record at this point 
in the record the statement by the DEQ that I referred to.
    Senator Barrasso. Without objection, hearing none.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Welcome to the Committee, Mr. Pruitt. As we discussed when 
you and I met, the oceans off of our Ocean State are warming 
due to fossil fuel-driven climate change. It is crashing our 
fisheries like lobster and winter flounder, and making earning 
a living harder for our fishermen. I see nothing in your career 
to give those fishermen any confidence that you will care one 
bit for their well being, and not just the well being of the 
fossil fuel industry.
    In a process that you could replicate in an Oklahoma high 
school science lab, excess carbon dioxide from fossil fuel 
emissions is turning our seas more acid. Rhode Island shell 
fishermen and shell fish growers are concerned. In my colleague 
Senator Merkley's State, they have already had oysters spat 
wiped out for businesses by acidified waters. I see nothing in 
your career that you would care at all about our Rhode Island 
shell fishermen.
    In Rhode Island we have bad air days, and because of EPA's 
work there are fewer and fewer. A bad air day is a day when 
people driving into work hear on the radio that ozone from out-
of-State smoke stacks has made the air in Rhode Island 
dangerous and that infants and the elderly and people with 
breathing difficulties should stay home on an otherwise 
beautiful day. Because those smoke stacks are out of State, we 
need EPA to protect us, and I see nothing in your record that 
would give a mom taking her child to the hospital for an asthma 
attack any comfort that you would take the slightest interest 
in her.
    And your passion for devolving power down to States doesn't 
help us because our State regulators can't do anything about 
any of those problems; they all come from out-of-State sources. 
In this respect we are very like Delaware.
    One of the things I would like to ask you about here is the 
connection between you and some of these fossil fuel companies. 
These are some of the companies that have supported you. These 
are some of the political organizations that you have raised 
money for. You have raised money for them for Pruitt for 
Attorney General, correct?
    Mr. Pruitt. Yes, sir. I had a campaign committee for that, 
yes.
    Senator Whitehouse. And Devon Energy, Koch Industries, 
ExxonMobil have all maxed out to that account.
    Mr. Pruitt. I am not aware if they maxed out or not, 
Senator, but I am sure they have given to that committee.
    Senator Whitehouse. Oklahoma Strong PAC is your leadership 
pack?
    Mr. Pruitt. It was, yes.
    Senator Whitehouse. It was? And similarly, they gave money; 
they maxed out to that organization as well, which you 
controlled?
    Mr. Pruitt. I am unsure about that, Senator.
    Senator Whitehouse. OK. But they contributed to it.
    Mr. Pruitt. I am even unsure about that as well. I haven't 
looked at that.
    Senator Whitehouse. You closed your super PAC, Liberty 2.0, 
but that took fossil fuel contributions as well, correct?
    Mr. Pruitt. That particular entity has been closed, yes.
    Senator Whitehouse. Now, you helped to raise money for the 
Republican Attorney Generals Association. While you were a 
member of its executive committee, they received $530,000 from 
Koch Industries, $350,000 from Murray Energy, $160,000 from 
ExxonMobil, and $125,000 from Devon Energy, the company whose 
letter you transposed onto your letterhead and sent as an 
Oklahoma Attorney General document.
    Did you solicit, in your role at the Republican Attorney 
Generals Association, any of that funding?
    Mr. Pruitt. I am unable to confirm if they gave those 
numbers, Senator, those amounts. There were several----
    Senator Whitehouse. Did you solicit funding from them in 
your role at the Republican Attorney Generals Association?
    Mr. Pruitt. I attended fundraising events as an Attorney 
General, along with other attorneys general with respect to the 
RAGA.
    Senator Whitehouse. And did you solicit? Did you ask them 
for money for RAGA?
    Mr. Pruitt. As I indicated, I attended fundraising events 
with respect to this.
    Senator Whitehouse. But that is different. Attending 
fundraising is one thing. Asking them is my question. Did you 
ask them for money?
    Mr. Pruitt. Specifically, you would have to ask about 
certain entities. I don't know. You have an entire list.
    Senator Whitehouse. Those are the entities: Koch 
Industries, Murray Energy, ExxonMobil, Devon Energy.
    Mr. Pruitt. I did not ask of Koch or--what were the other 
ones?
    Senator Whitehouse. Murray Energy, ExxonMobil, Devon 
Energy.
    Mr. Pruitt. I have not asked them for money on behalf of 
RAGA.
    Senator Whitehouse. You said to the Chairman that there is 
nothing that might place you in a conflict of interest that you 
have not disclosed. Yet, you founded the Rule of Law Defense 
Fund, which is a dark money operation that supports the 
Republican Attorney Generals Association, and you have not 
disclosed any of your solicitations for that entity nor have 
you disclosed what money was raised pursuant to those 
solicitations. This is an organization that appears to have a 
million dollar a year budget, so very substantial funds have 
been solicited. I believe you were its chairman. Will you 
disclose your role in soliciting money and in receiving money 
for the Rule of Law Defense Fund pursuant to your 
solicitations?
    Mr. Pruitt. Senator, a point of clarification. I actually 
did not start nor initiate the Rule of Law Defense Fund. That 
is something I did not do.
    Senator Whitehouse. You led it?
    Mr. Pruitt. I have been an officer of that organization for 
2016.
    Senator Whitehouse. OK, an officer of it.
    Mr. Pruitt. There is an executive staff, fundraisers that 
actually carry out the functions of that organization. There 
are many attorneys general that serve on that board. It is not 
a decision of one; it is a decision of those that are empowered 
to make those decisions.
    Senator Whitehouse. But you haven't told us anything about 
that. You haven't told us----
    Mr. Pruitt. I have no access----
    Senator Whitehouse [continuing]. Who you asked money from--
--
    Mr. Pruitt. That is a file that----
    Senator Whitehouse [continuing]. You haven't told us what 
they gave, if you asked them. It is a complete black hole into 
which at least a million dollars goes, and based on your record 
of fundraising it appears that a great deal of your fundraising 
comes from these organizations who are in the energy sector and 
devoted to fighting climate change.
    Mr. Pruitt. Some of whom I have actually sued, as well, 
Senator. But with respect to the Rule of Law----
    Senator Whitehouse. Name one you have sued up there.
    Mr. Pruitt. ExxonMobil.
    Senator Whitehouse. Really?
    Mr. Pruitt. Yes.
    Senator Whitehouse. My time has expired. We will pursue 
this in further questions.
    Mr. Pruitt. We are involved in, as I indicated, I think, in 
your office, we are involved in, and Senator Inhofe mentioned 
it in his comments, a situation in Oklahoma where multiple oil 
and gas companies, ConocoPhillips and others, have defrauded 
the State in clean up with respect to spills that have 
occurred, and ExxonMobil----
    Senator Whitehouse. That is a qui tam fraud case; it has 
nothing to do with the environment.
    Mr. Pruitt. Senator,----
    Senator Barrasso. I thought you were going to resolve that 
for the second round.
    Senator Whitehouse. I am sorry, he was coming back to me, 
so I was responding.
    Senator Barrasso. Thank you.
    Before heading to Senator Capito, there are two articles I 
will be introducing into the record. One from the Wall Street 
Journal in September, headlined ``Hillary Clinton Raises More 
Than Donald Trump from Oil Industry.'' The second article that 
I will be introducing for the record is from Politico from 
December 27th, by Elana Schor, who quotes America Rising 
Executive Director Brian Rogers: ``This is a partisan fishing 
expedition by six liberal Democrats who, combined, have taken 
more than $1.2 million from far left environmentalist groups 
dead set against any reforms to an out-of-control EPA.''
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    .Senator Barrasso. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    And thank you, Attorney General Pruitt, for being here, for 
your willingness to throw your hat in the ring to serve. I 
would like to quote the Ranking Member when he says it is hard 
work, because it is. The EPA is hard work.
    But one of the things you said really struck me, and I 
believe that the rule of law does matter, and I am heartened by 
your passion for that.
    The regulatory overreach of the EPA has contributed to 
economic devastation in my State of West Virginia and my 
region. Data from the Mine Safety and Health Administration 
shows that 60,000 coal jobs have been lost between 2011 and 
2016. Thousands of these were in West Virginia. We are in a 
desperate situation in our State right now because of this.
    We had a field hearing in Beckley, West Virginia, where our 
WVU economist, John Deskins, said that the coal industry 
downturn had resulted in six of our southern West Virginia 
counties being in a great depression.
    For the past 8 years the EPA has given no indication at all 
that it cares about the economic impact of its policies, even 
though Congress has said very clearly in the Clean Air Act and 
other environmental statutes that we expect jobs and economic 
factors to be taken into account. That is part of the law. In 
October a Federal court held that the EPA had failed to 
evaluate the job impacts of the EPA Clean Air Act as required 
by 321(a) of that Act and ordered the EPA to submit a schedule 
for conducting the required jobs analysis.
    Incredibly, the EPA told the court it would take 2 years--
this was just in the last several weeks--it would take 2 years 
just to come up with a plan on how to do the analysis, which, 
in my view, if that is part of the law that EPA is supposed to 
be following, they should already have the protocols set up to 
do an effective and accurate job analysis.
    So the court responded like this: ``This response is wholly 
inefficient, unacceptable, and unnecessary. It evidences the 
continued hostility on the part of the EPA to the acceptance of 
the mission established by Congress.''
    So I would like to ask you to commit to me to ensure that 
the EPA will follow the law it is charged with implementing and 
do those ongoing evaluation of job losses and economic shifts 
due to the requirements of the Act as required by the law.
    Mr. Pruitt. Senator, as you indicated, I really believe 
that it is important that rule of law is adhered to because it 
inspires confidence in those that are regulated. I think 
oftentimes those that are regulated don't know what is expected 
of them. They look at a statute, they see the requirements of 
the statute, and then those that are regulating act in a way 
that is not consistent with that framework, so they don't know 
what is expected of them, and that causes uncertainty and I 
think paralysis to a certain degree. So rule of law is 
something that we should take seriously. It has been at the 
heart of the litigation that we have initiated as a State.
    A lot of times these cases--as we were talking earlier with 
Senator Carper--there is a policy or a political kind of 
attention that is drawn to it but really is about process and 
rule of law and making sure that the framework that this body, 
Congress, has established is respected and enforced. So I 
appreciate your comments.
    Senator Capito. Well, in looking for the balance, we need 
to have at least a correct analysis of what the economic 
implications are of regulations.
    It is so important, critically important that we enforce 
our environmental laws and to keep our air clean and get it 
cleaner and protect our waters.
    In January 2014 a storage tank in Charleston, West 
Virginia, was corrupted and went into the river. It was right 
by the water flow of the major water source in my community. 
Three hundred thousand people had to do without water for 
several weeks. It caused a lot of angst economically to small 
businesses. Imagine a restaurant not being able to use water or 
you can't wash your clothes. You couldn't do anything with the 
water.
    But also, and I share this concern, concern about the 
health and the long-range implications of what has happened. 
Several people, multiple individuals and Freedom Industries 
have pled guilty to environmental crimes in Federal court, 
which I am very pleased about.
    So let's talk about TSCA, because in TSCA I was able to 
support a provision that would say that if you are storing in 
close proximity to drinking water, you have to take that into 
consideration when you are reviewing potentially hazardous 
chemicals.
    Can we count on you to work with this Committee to make 
sure that this bipartisan TSCA reform bill is fully 
implemented, and efficiently and fully?
    Mr. Pruitt. Absolutely, Senator. In fact, I would commend 
the work of this Committee, with Senator Inhofe's leadership, 
in passing that update to the TSCA legislation. For the first 
time in history, as you know, the EPA has the ability to order 
testing to address chemicals that are going to be entered into 
the stream of commerce, and that is a very big substantive 
change that exists. There are many deadlines----
    Senator Capito. And I would also add that in TSCA--excuse 
me just a minute because I am running out of time. In TSCA we 
actually expanded the EPA's reach. So when you are asked if you 
are wanting to get rid of the EPA or it doesn't have a value, I 
voted to expand that reach of EPA to make sure that I have 
clean water and that if a spill happens in a community around 
this country, what has happened in Flint, Michigan, doesn't 
have the far reaching implications that it does.
    Thank you very much.
    Mr. Pruitt. Thank you, Senator.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Pruitt, welcome to the Committee. Thank you for your 
willingness to serve our country.
    I want to talk about the Chesapeake Bay Program. We talked 
about that in my office. I explained to you, and I will do it 
very quickly, that this is a program that was developed at the 
State level with the States that are in the watershed, 
including Delaware, with my colleague, Senator Carper. It is a 
State that the locals have determined how it is best to reach 
their pollution targets in order to help preserve the 
Chesapeake Bay. It is the largest estuary in the northern 
hemisphere. It is critically important; it is complicated. It 
doesn't flush itself, as many bodies of water do; it has a 
reduction of oyster crops. There are so many problems. All the 
stakeholders have gotten together; they worked out a plan. The 
Federal Government is part of that plan. It is enforced through 
the TMDL program, and it has been agreed to by the local 
governments.
    It was challenged, the TMDLs, including you joined that 
lawsuit. The Supreme Court refused to overturn the Court of 
Appeals supporting the use of the TMDLs.
    If you are confirmed, will you support the Federal role in 
the Chesapeake Bay Program as envisioned by the partners and 
stakeholders, enforcing the TMDLs, if necessary?
    Mr. Pruitt. Yes, Senator. And as I indicated in your 
office, the time that we had together, I really commend the six 
States that joined together to address the Chesapeake Bay and 
to try to set levels for both point source and non-point source 
type of discharge into the Chesapeake Bay. There were some 
concerns about the precedent, the role that EPA was playing 
initially, but through that litigation the EPA has acknowledged 
that their role is more informational. And there was concern in 
Oklahoma about the Mississippi River Basin and the precedent 
that was set in that matter, and that is what spawned our 
litigation.
    But I really want to emphasize to you that process 
represents what should occur, for States to join together and 
enter into an agreement to address water quality issues and 
then involve the EPA to serve the role it is supposed to serve 
is something that should be commended and celebrated. And as it 
relates to enforcing that TMDL, I can commit to you that in 
fact I will do so.
    Senator Cardin. Part of the Federal Government's 
partnership is to provide resources. There are several programs 
that fund initiatives within the Chesapeake Bay Watershed; 
probably the largest is the State Revolving Funds dealing with 
wastewater. Will you support the Federal Government's 
partnership through funding these programs that are critically 
important to make the advancements in the Chesapeake Bay 
watershed?
    Mr. Pruitt. Yes, Senator. I believe that the grant making 
role of the EPA, as we talked about in your office, is very 
important to States across this country, whether it is the 
revolving funds or the WIFIA portions of our statutes. But 
grant making, in general, is very important, and I will commit 
to you in that regard that I would do so with respect to the 
Chesapeake Bay.
    Senator Cardin. I want to continue on clean water for one 
moment. We have had significant problems with safe drinking 
water and clean water. Let me ask you a preliminary question. 
Do you believe there is any safe level of lead that can be 
taken into the human body, particularly a young person?
    Mr. Pruitt. Senator, that is something I have not reviewed 
nor know about. I would be very concerned about any level of 
lead going into the drinking water or obviously human 
consumption, but I have not looked at the scientific research 
on that.
    Senator Cardin. The Clean Water Act provides for Federal 
guidance as to acceptable clean water. It is enforced by the 
States. So my question to you in regards to clean water is what 
steps will you take to make sure that our children are safe. We 
saw in Flint, Michigan, a tragedy occur. Where do you think the 
Federal Government needs to strengthen its regulatory roles to 
make sure that our children are safe from lead?
    Mr. Pruitt. Well, I think with Flint, Michigan, it is an 
example of delay in response by the EPA. There should have been 
more done on corrosion control programs with the Flint, 
Michigan, system. As you know, under the Clean Water Act and 
the Safe Drinking Water Act if there is an emergency situation 
the EPA can enter an emergency order to address those kinds of 
concerns. I think there should have been a more fast response, 
a more rapid response to Flint, Michigan.
    I think with respect to water quality it is infrastructure. 
Water infrastructure is important. And as you indicated the 
States play a very vital role in that process, and there needs 
to be more cooperation between the EPA and the States to ensure 
water quality is protected.
    Senator Cardin. Just so I understand, you have participated 
in several lawsuits against the EPA's involvement, saying that 
the locals should have the responsibility. If you are 
confirmed, will you support Federal enforcement, particularly 
in multi-State issues, where the only way we can get 
enforcement is at the Federal level?
    Mr. Pruitt. I believe that is a vital role of the EPA. As I 
indicated in your office, with air quality, water quality, 
issues that cross State line, there is an enforcement mechanism 
that is important and would seek to do so if confirmed as EPA 
Administrator.
    Senator Cardin. Thank you.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    And thank you, Mr. Pruitt, for being here today, but also 
for accepting the nomination. It is a service and a sacrifice 
not just for you, but for your family, as well, to step forward 
to serve this country. So thank you, sir, for being willing to 
do that.
    Mr. Pruitt. Thank you, Senator.
    Senator Fischer. For your testimony, I do thank you, and I 
would like to, first of all, let you know that Nebraskans have 
been really affected by the EPA in many instances, and I will 
give you some examples of that.
    Nebraska's public power utilities are grappling with how 
they could ever comply with the EPA's carbon emission reduction 
mandates. The city of Omaha is struggling with the Agency's 
expensive CSO mandate and drinking water affordability. 
Nebraska farmers are waiting on new crop technology products 
that are stuck in a broken regulatory process. Our biofuel 
investors and producers are desperate for certainty under the 
RFS. Homebuilders, transportation stakeholders, and local 
county officials are concerned about the jurisdictional 
expansion to control our State's water resources. Communities 
and small business owners fear that the EPA's ozone mandate 
will stunt potential economic development and growth in our 
State. As a result of the activist role the EPA has played for 
the past 8 years, families are concerned about the futures of 
their livelihood.
    We all want clean air, and we all want clean water. That is 
one point that I know each and every person here agrees on. But 
with the EPA's tremendous impact on Americans' lives each and 
every day, it is important that the Agency be open, 
transparent, and answerable for its actions. Given these 
concerns, along with the many others that have been and will 
continue to be discussed today, what steps will you take as the 
EPA Administrator to provide relief for American families that 
are faced truly with an onslaught of EPA rules?
    Mr. Pruitt. Senator, you mentioned open, transparent 
rulemaking. There are concerns that have been expressed 
recently with respect to regulation through litigation, where 
groups initiate litigation against the EPA and the U.S. 
Government, and set environmental policy through something 
called a sue and settle process. I think this body, as well as 
the U.S. House, has looked at those kinds of issues. And when 
we talk about open transparency, there is a reason why the 
Administrative Procedures Act exists. It is intended to provide 
notice to those that are going to be impacted with rules to 
give them the opportunity to offer comment and to inform the 
regulators on the impact of those rules. And then it is the 
obligation of the regulator to take those things into 
consideration in finalizing rules; otherwise they act in an 
arbitrary and capricious way.
    So it is very important that that process be adhered to, to 
give voice to all Americans in balancing the environmental 
objectives we have, but also the economic harm that results. 
And the Supreme Court has spoken about that rather consistently 
of late, and I would seek to lead the EPA in such a way to 
ensure that openness and transparency.
    Senator Fischer. You know, a couple weeks ago I held a very 
good conversation about our shared vision for the EPA, to bring 
common sense and accountability back to that Agency, and I 
think that is going to go a long way in restoring confidence in 
the Agency by the American people.
    One issue we did discuss was the Renewable Fuel Standard 
and its importance to my home State of Nebraska. We are the 
largest ethanol producer west of the Missouri River. Our 
neighbors to the east, Senator Ernst's home State, they do lead 
the Nation in ethanol production. So honoring the 
congressionally mandated timelines and the volume requirements 
that are critical from an investment point of view and also 
from a planning perspective, I think that this is especially 
relevant, and especially during the current farm crisis that we 
are seeing and the negative impact on people in agriculture all 
across this Nation.
    In our meeting you did express your commitment to me to 
honor the law and you echoed President-elect Trump's support 
for the statute itself and a strong RVO. For the record, can 
you please once again express your commitment to uphold the 
congressional intent of the RFS?
    Mr. Pruitt. Yes, Senator, and you said it well, to honor 
the intent and the expression of the Renewable Fuel Standard 
statute is very, very important. It is not the job of the 
Administrator of the EPA to do anything other than administer 
the program according to the intent of Congress, and I commit 
to you to do so.
    Senator Fischer. And you also----
    Mr. Pruitt. And I would say this. The waivers that 
routinely are offered by the Administrator, recently another 
waiver was offered, it should be used judiciously. There is a 
reason why Congress put in that statute those statutory 
objectives. The market has changed since 2005, and the waiver 
authority that has been provided by this body is important, but 
that waiver authority should be used judiciously, and the Act 
should be complied with and enforced consistent with the will 
of Congress.
    Senator Fischer. Thank you, sir. And I would ask that you 
also tell us publicly what you told us, that you will honor the 
timelines on the volume levels that are mandated by Congress.
    Mr. Pruitt. Yes, Senator.
    Senator Fischer. Thank you very much.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    Over a number of years information started pouring into EPA 
that the estimate of the amount of fugitive methane escaping in 
gas and oil drilling had been deeply underestimated. In 2011 
the EPA put out its best estimates based on the information 
that was being presented. And this is relevant because methane 
is a global warming gas, more potent than CO<INF>2</INF>.
    Gas companies didn't like this because, well, it presented 
a vision of natural gas being more damaging environmentally 
than folks had previously understood. Devon Energy is one of 
the groups that sought to cast doubt on this scientific 
information, and they came to you to be their spokesperson, and 
they asked will you be our mouthpiece in casting doubt and send 
a letter we have drafted to the EPA, and you sent that letter.
    And I just want to ask, first, are you aware that methane 
is approximately 30 times more potent than carbon dioxide as a 
global warming gas?
    Mr. Pruitt. I am, Senator.
    Senator Merkley. Thank you.
    Mr. Pruitt. I think the impact on human----
    Senator Merkley. That is the answer. Yes. Thank you. It is 
a yes or no question.
    And on a 1 to 10 scale, how concerned are you about the 
impacts of fugitive methane in driving global warming?
    Mr. Pruitt. Methane, as you indicated----
    Senator Merkley. One to 10 scale. Highly, 10, very 
concerned, or 1, not so concerned?
    Mr. Pruitt. The quantities of methane in the atmosphere 
compared to CO<INF>2</INF> is less, but it is far more potent, 
and it is----
    Senator Merkley. Are you concerned? I am asking about your 
level of concern.
    Mr. Pruitt. Yes. Yes.
    Senator Merkley. Highly concerned?
    Mr. Pruitt. I am concerned.
    Senator Merkley. Thank you. Do you acknowledge sending this 
letter to the EPA in October 2011?
    Mr. Pruitt. Senator, if that is a letter that is on my 
letterhead that was sent to the EPA, yes, with respect to the 
issue.
    Senator Merkley. Do you acknowledge that 97 percent of the 
words in that letter came directly from Devon Energy?
    Mr. Pruitt. I have not looked at the percentage, Senator.
    Senator Merkley. The statement that has been analyzed many 
times is that all of the 1,016 words, except for 37 words, were 
written directly by Devon Energy.
    Mr. Pruitt. Senator, that was a step that was taken as 
Attorney General representing the interest of our State. Over 
25 percent of----
    Senator Merkley. I didn't ask that question. I was just 
asking if you copied the letter virtually word for word. You 
have acknowledged that, yes, it is in the record. People can 
count it. It is correct.
    All right, so a public office is about serving the public. 
There is a public concern over the impact of methane on global 
warming. There is scientific research showing that it is far 
more devastating than anticipated and far more is leaking. But 
you used your office as a direct extension of an oil company 
rather than a direct extension of the interests of the public 
health of the people of Oklahoma. Do you acknowledge that you 
presented a private oil company's position rather than a 
position developed by the people of Oklahoma?
    Mr. Pruitt. Senator, with respect, I disagree. The efforts 
that I took as Attorney General were representing the interests 
of the State of Oklahoma.
    Senator Merkley. Earlier you said you----
    Mr. Pruitt. And there was a concern about----
    Senator Merkley. No, no, excuse me. I am asking the 
questions. You said earlier you listen to everyone. In drafting 
this letter you took an oil company's position and then without 
consulting people who had diverse views about the impact, you 
sent it off. How can you present that as representing the 
people of Oklahoma when you simply only consulted an oil 
company to push its own point of view for its private profit?
    Mr. Pruitt. Senator, there is an obligation the EPA has to 
follow processes as established by this body. The cost-benefit 
analysis under section 112 is something that they have to 
engage in. There was a concern about the overestimated 
percentages that the EPA put in the record; it was a record-
based challenge. That was the expression of the letter to the 
EPA, and it was representing the interests of an industry in 
the State of Oklahoma; not a company, an industry.
    Senator Merkley. Thank you. But my question was what other 
groups--environmental groups or other groups--did you consult 
so that you had that full perspective before representing 
simply a for-profit oil company using your official office and 
your official letterhead?
    Mr. Pruitt. I consulted with other environmental officials 
in Oklahoma that regulate that industry and learned from them 
with respect to the concerns about the estimates that were 
provided by the EPA.
    Senator Merkley. Can you provide this Committee with 
information showing who you consulted in representing this 
letter specifically for Devon Energy? Because the information 
that is in the public realm only shows that they simply sent 
you a letter, asked you to send it, and you sent it without 
questions.
    Mr. Pruitt. We have seven or so individuals in our office 
that are involved in these kinds of issues, and we will collect 
the information they have and provide it to this body pursuant 
to the Chairman's direction.
    Senator Merkley. Your staff expanded substantially while 
you were in charge, to 251 staff members. Why do you need an 
outside oil company to draft a letter when you have 250 people 
working for you?
    Mr. Pruitt. Senator, as I have indicated, that was an 
effort that was protecting the State's interest in making sure 
that we made the voices of all Oklahomans heard on a very 
important industry to our State.
    Senator Merkley. You said all heard, but you only sent it 
on behalf of a single voice, the oil company.
    Thank you.
    Senator Barrasso. I still have some time remaining from my 
questioning. Is there anything you would like to add that you 
haven't felt you have had a chance in terms of answering fully 
some of the areas of the questioning?
    Mr. Pruitt. I think, Senator, the clarification that the 
letter that was sent to the EPA was not sent on behalf of any 
one company. This was not particular to Devon Energy, not 
particular to Chesapeake, not particular to other companies in 
our State; it was particular to an industry. The State of 
Oklahoma has an oil and gas industry that is vibrant to our 
State, as you might imagine, just like many of you have 
industry in your State. There was concern expressed by that 
industry--many folks in that industry--about the overestimating 
that occurred with that methane rule. That was the 
communication to the EPA. It was a position of the State, not 
the position of any one company.
    Senator Barrasso. Thank you.
    Senator Moran.
    Senator Moran. Chairman, thank you very much.
    General Pruitt, welcome to the Committee. Thank you for 
your public service. I am going to see if I can get through 
three areas in the 5 minutes that I have.
    First of all, WOTUS, Waters of the United States. Despite 
there being an injunction against the enforcement of the WOTUS 
rule, I am told that EPA Region 7, the region in which Kansas 
is part, those regional inspectors have increased their 
inspection of smaller animal feeding operations. Unlike many 
States, Kansas has a well established State permit system for 
small facilities as well as the delegated authority under the 
Clean Water Act. The EPA--rather than cooperating with the 
State agency, the EPA is engaged in its own inspections and its 
own enforcement on these small facilities, often conflicting 
with State permitting and the enforcement process.
    In these actions the EPA has claimed jurisdiction over 
features like grass waterways, culverts under county roads 
unconnected to the feeding operation and not situated in or 
near any body of water.
    General Pruitt, what would your direction be to the EPA 
staff, to Region 7 and others, in regard to their actions 
enforcing WOTUS while an injunction is in place?
    Mr. Pruitt. Well, Senator, as you indicated, and I do want 
to acknowledge the same concerns have been expressed by those 
individuals in Oklahoma in different groups with respect to the 
WOTUS definition that has been offered by the EPA that is 
subject to a 31-State challenge that was consolidated there 
before the 6th Circuit, and as you indicated there has been a 
stay of enforcement against that particular rule. The Supreme 
Court actually, last Friday, took up a matter of jurisdiction 
on that case, so that adds some complexity to this.
    But I think the role of the EPA, prospectively, is to seek 
to provide clarity on what the true definition, what the best 
definition is with respect to Waters of the United States. As 
you know, there is much flexibility and discretion there given 
to the EPA in a series of cases that lead up to the Rapanos 
decision that haven't provided a tremendous amount of clarity. 
The best thing the EPA can do going forward is to reestablish 
that clarity so that States and individuals know what is 
expected of them in compliance.
    Senator Moran. General, thank you. I don't think I need to 
remind you, in particular, about the role that States play in 
clean water. But I would take a moment to highlight something 
that is often, I think, forgotten in the regulatory world of 
water, water quality, is the Department of Agriculture, the 
Natural Resource Conservation Service, in which landowners are 
assisted through the Department of Agriculture in improving 
water quality and water quantity in a very partnership oriented 
local effort that is significantly different than the 
tremendous reach from the EPA in Washington, DC, as compared to 
the local efforts by landowners themselves to work with USDA to 
solve problems.
    Let me move to my second question. It revolves the Flint 
Hills. That is a native grassland in our State. The owners of 
those grasslands, these are thousands of acres of grass, they 
burn the prairie in the early spring for purposes of 
regeneration of that grass. It is learned from the Indians that 
lightning used to be the method by which that grassland burned. 
Less so now with the settlement that has occurred of our 
country. And as a result of that annual burning, that is 
ecologically desirable, there is times in which a city--even 
one of our own, Wichita, for example--is in non-attainment 
under the Clean Air Act. And I raise this issue to you in 
asking that you work, if you are confirmed, with the State of 
Kansas in our local efforts to manage the burning of the 
national grasslands in a way that is advantageous to wildlife 
habitat, at the same time done in a timely fashion, at 
appropriate times, in appropriate amounts, that preserves the 
air quality; but again not a heavy handed approach that one-
size solution or a ban fits the circumstance.
    Mr. Pruitt. If confirmed, Senator, I look forward to 
working with you on that issue.
    Senator Moran. I thank you for that.
    Finally, I want to highlight a small town in Kansas named 
Pretty Prairie, a typical name or a perfect name for a town in 
our State. Pretty Prairie, Kansas, has a population of about 
700 people. For several decades, because of the high nitrates 
in the city's water levels--I didn't say that very well. 
Because of high levels of nitrate in the city water system, the 
city has provided free bottled water to its citizens. And my 
question to you is now the EPA is disallowing that practice and 
requiring the city to spend approximately $2.4 million and 
raise the rates of our residents of that community by $80 a 
month while the community seemingly is satisfied with the 
solution of the city providing an alternative to the expense of 
a new water treatment plant.
    I ask this question, again, as an example of where a rigid 
decision, as compared to a community-based decision, seems to 
prevail at the EPA and would give you an opportunity to confirm 
to me what I hope you would say is that you will work with 
communities. You, as an Oklahoman, and me as a Kansan, and many 
of the members of this Committee represent lots of communities 
in which the population is insufficient to be able to pay for 
the costs of water or sewer treatment. We need financial 
resources to accomplish that, but we also need common sense 
solutions to the problem.
    Mr. Pruitt. Senator, I look forward to working with you on 
that issue as well as the other. There was a saying in the 
environmental space: national standards, neighborhood 
solutions. And I think it is important for the EPA 
Administrator, those in Washington, as I said in my opening 
statement, to listen and learn from those, from you with 
respect to the needs of your community and your State and 
collaborate with you and the local officials to achieve good 
outcomes.
    Senator Moran. I look forward to educating you on behalf of 
Kansans.
    Senator Barrasso. Thank you, Senator Moran.
    Senator Booker.
    Senator Booker. Good morning, Mr. Pruitt.
    Mr. Pruitt. Good morning, Senator Booker.
    Senator Booker. I have a letter that I read that you sent 
to the Committee last year, and you said that the Oklahoma 
Attorney General--you said, ``I am responsible for protecting 
the welfare of Oklahoma citizens.'' I assume that is still 
correct, and you believe that.
    Mr. Pruitt. Yes, Senator.
    Senator Booker. And during the past 6 years in pursuit of 
that, if you look at the record of the lawsuits you filed 
against the EPA, you have joined or filed 14 lawsuits against 
the EPA challenging clean air and clean water rules, yes?
    Mr. Pruitt. We have been involved in multiple pieces of 
litigation, Senator.
    Senator Booker. Yes, but I am looking at specifically 14, 
and Mr. Chairman, I would like to put those 14 lawsuits into 
the record, of where you specifically challenged the EPA on air 
quality. And let me just go through some of those.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Booker. Thank you, sir.
    To reflect your recollection, you filed two lawsuits 
challenging the EPA Mercury and Air Toxics Standard; you filed 
a lawsuit challenging the EPA's 2015 National Ambient Air 
Quality Standards for ozone; you filed four lawsuits 
challenging the EPA's Clean Power Plan; you have sued to 
challenge the EPA's 111(b) standards for carbon dioxide 
emissions from new power plants; and you also sued to challenge 
the EPA's Federal implementation plan for Oklahoma under the 
Regional Haze Rule.
    You are familiar with those, I imagine?
    Mr. Pruitt. Yes, Senator.
    Senator Booker. And you filed a lawsuit challenging the EPA 
Cross-State Air Pollution Rule, something in New Jersey we are 
very concerned with. Are you aware that that rule, which you 
lost in that suit, scientists estimate that that alone prevents 
400,000 asthma attacks nationally each year? Are you aware of 
those estimations?
    Mr. Pruitt. Yes, Your Honor. Yes, Senator. May I offer----
    Senator Booker. I appreciate your promotion to judge.
    [Laughter.]
    Senator Booker. Let me continue, Mr. Pruitt. I don't have 
much time.
    Mr. Pruitt. OK.
    Senator Booker. So each of these lawsuits that I just went 
through and that we analyzed, all of them challenge attempts by 
the EPA to reduce air pollution. In all of them except one you 
filed those lawsuits joining with polluting companies that were 
also suing the EPA. And so, in addition to filing those 
lawsuits with some of the polluting companies, or at least one 
that has now been specifically mentioned by two of my 
colleagues, you used substantial portions of the letters from 
those companies, put them on your official Attorney General 
letterhead, and what was sort of surprising to me is that when 
you have been asked about this in the public, you basically 
represented that that is actually called representative 
government in my view of the world. Your testimony here says 
that you were representing industry; you were representing the 
polluters.
    So with all of these lawsuits you filed, and with all of 
these letters like this one, written to the EPA on behalf of 
the industries that are causing the pollution, it seems clear 
to me that obviously the fact pattern on representing polluters 
is clear, that you worked very hard on behalf of these 
industries that have their profits externalized, negative 
externalities are their pollution.
    So I just have a question for you specifically about the 
children of Oklahoma. Do you know how many kids in Oklahoma, 
roughly, have asthma?
    Mr. Pruitt. I do not, Senator.
    Senator Booker. Well, according to data published by the 
very non-partisan group, the American Lung Association, more 
than 111,000 children in Oklahoma, which is more than 10 
percent, more than 1 in 10 of all the kids in Oklahoma, have 
asthma. That is one of the highest asthma rates in the entire 
United States of America.
    Now, this is a crisis; similar data, for where I was mayor, 
and I can tell you firsthand the devastating impacts that 
asthma has on children and families; affecting their economic 
well being, parents who have to watch their children struggle 
to breathe, people that have to miss work, rushing their kids 
to the hospital. One in 10 kids having a disease, missing 
school, is a significant problem.
    So if you have been writing letters on behalf of polluting 
industries, I want to ask you how many letters did you write to 
the EPA about this health crisis? If this is representative 
government, did you represent those children? I want to know 
what actions you have taken in the past 6 years in your 
capacity as protector of the welfare of Oklahoma citizens to 
protect the welfare of those 111,000 children. Did you ever let 
any of them write letters on your letterhead to the EPA, and 
did you even file one lawsuit, one lawsuit on behalf of those 
kids to reduce the air pollution in your State and help them to 
have a healthy life?
    Mr. Pruitt. Senator, I have actually provided a list of 
cases to the Chairman with respect to enforcement steps we have 
taken in multiple pieces of environmental litigation. But let 
me say to you, with respect to cross-State pollution and some 
of the cases you referred to, the State has to have an interest 
before it can bring those cases, as you know. You can't just 
bring a lawsuit if you don't have standing, if there has not 
been some injury to the State of Oklahoma. In each of those 
cases----
    Senator Booker. My time has expired, but if I could just 
say injury, clearly asthma is triggered and caused by air 
pollutants. Clearly there is an air pollution problem. And the 
fact that you have not brought suits in any of the levels which 
you have represented the industries that are causing the 
pollution is really problematic when you are going to sit in a 
position that is nationally supposed to be affecting this 
reality. And asthma, in our country, is the No. 1 reason why 
children in America, health reason why children in America miss 
school.
    Mr. Chairman, thank you.
    Senator Barrasso. Thank you very much.
    I submit for the record first an article from the Tulsa 
World from Scott Thompson. The headline is ``EPA will be in 
good hands with Scott Pruitt.'' Scott Thompson is the Executive 
Director of the Oklahoma Department of Environmental Quality. 
Talks about the excellent work done and ends with a quote: 
``EPA will be in good hands with Scott Pruitt.''
    I would point out that between 2004 and 2008--and we will 
submit this for the record--the most recent employers of Obama 
administration senior EPA officials sue the EPA with 12 
lawsuits, at least, in the time when George W. Bush was in his 
second term, including Lisa Jackson, Assistant Administrator 
Cynthia Giles, Gina McCarthy, and Stephen Owens. They were 
petitioners and plaintiffs filing suits against the EPA.
    And finally, I will submit an editorial from the Tulsa 
World. ``Over the past 6 years, Pruitt's legal team has 
consistently shown deference to the legal expertise and 
professionals at DEQ,'' the Department of Environmental 
Quality. This was written by the executive director. More 
importantly, he said, ``I cannot recall an instance where they 
did not allow us to pursue legal action when deemed 
necessary.''
    And then, finally, from Mike Turpen, who is the former 
Chairman of the Oklahoma Democratic Party, says, ``The job of 
the EPA is the essential mission of guaranteeing clean air and 
clean water. Pruitt has never compromised those critical 
components of a healthy population with any actions he has 
taken.''
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Welcome, Attorney General Pruitt.
    Mr. Pruitt. Thank you, Senator Rounds.
    Senator Rounds. I notice that you didn't have the 
opportunity in the time allotted for Senator Booker's question. 
Would you care to finish your response with regard to the role 
that the States have in their ability to either participate in 
a suit and whether or not they have standing? Would you like to 
finish your thoughts on that?
    Mr. Pruitt. Thank you, Senator.
    Senator, as I indicated in your office, when we spent time 
together, the enforcement role in the State of Oklahoma is 
different than other States. With respect to the Department of 
Environmental Quality, the Oklahoma Water Resources Board, we 
had multiple agencies, Department of Agriculture, that have 
frontline enforcement authority with respect to our 
environmental laws.
    The role that we play in my office largely is a general 
counsel role. We provide guidance and direction to those 
agencies. There were many cases we have initiated in 
conjunction with them, but mainly those agencies enforce 
actions at their level. Many of those agencies have dozens of 
attorneys on their staff and a general counsel in their own 
right bringing those enforcement actions.
    You mentioned several of the cases. From MATS to Cross-
State Air Pollution and the rest. I believe the Cross-State Air 
Pollution Rule is a very important statute that EPA should 
enforce. I believe that if there are downwind States that are 
contributing to non-attainment--I am sorry, upwind States that 
are contributing to non-attainment in downwind States, that 
there should be responsibility for those States. We had that 
issue with Texas at times.
    So the lawsuit was not questioning the authority of the EPA 
to regulate under the Cross-State Air Pollution Rule; it was 
more that they were trying to assess damages against certain 
States that were in excess of their allocated share.
    So each of those cases I would ask you to remember I am an 
advocate in behalf of the State of Oklahoma. There is a State's 
interest that Senator Rounds indicated that has to be in play. 
To say that any of those cases is about any one company is just 
simply not right. There is no parens patriae standing that I 
have as Attorney General to bring a case on behalf of a private 
citizen or a company; there has to be a standing, an injury to 
the State's interest to bring those cases.
    So I would ask you to consider that as we go through those 
cases you mentioned earlier.
    Thank you, Senator Rounds.
    Senator Rounds. Thank you.
    And thank you, sir, for your response, your complete 
response.
    Also, as the chairman of the Subcommittee on Oversight of 
the Environmental Protection Agency, I have had the opportunity 
to look at their basis or the way that they make their 
decisions known and the logic they use in getting to those 
decisions. We had a chance to talk about it in my office the 
other day, and one of the items that I brought up was the fact 
that we actually had received comments from the Small Business 
Administration Office of Advocacy, a copy of which I got.
    Mr. Chairman, I would like to have those put into the 
record.
    Senator Barrasso. Without objection.
    Senator Rounds. Thank you.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Rounds. And with this, this was a letter that was 
sent to the EPA in October 2014 requesting that the EPA 
withdraw the proposed Waters of the U.S. Rule, the WOTUS Rule, 
and reevaluate the impacts the rule would have on American 
small business. Now, this is a Federal agency requesting the 
EPA take a second look at a proposed rule.
    The EPA refused this request and issued the final rule that 
we have today.
    What are your thoughts on this? And would you, if you are 
approved and become the next Administrator of the EPA, would 
you take a second look at whether or not they had a valid 
reason for having the Waters of the U.S. Rule considered again?
    Mr. Pruitt. I think, Senator, the response of the 6th 
Circuit and where we are presently with litigation, there is 
definitely a need to address that on a prospective basis. 
Historically, as you know, under the Clean Water Act, and even 
before the Clean Water was passed, waters of the United States 
equaled navigable waters, navigable in fact waters. We know 
from a couple of cases that led up to the most recent case, 
Rapanos, that the Clean Water Act is something more than 
navigable in fact. But what that more is has to be determined 
and assessed.
    So, as I indicated earlier to another Senator's question, 
the most important thing is to provide certainty, to make sure 
that the Clean Water Act helps those at the State level know 
where the boundaries are, where they have jurisdiction and 
where they don't, so that we can have regulations that are fair 
and equitable, and uncertainty is not created.
    Senator Rounds. In the lawsuits that you brought against 
the Environmental Protection Agency on behalf of the State of 
Oklahoma, would it be fair to say that a number of those are 
based upon the Environmental Protection Agency failing to 
follow its own rules and the promulgation of those rules?
    Mr. Pruitt. Yes, Senator. I think whether it is the MATS 
case or the Clean Power Plan case or the WOTUS case, or a 
multitude of cases, the courts have agreed that the EPA has 
exceeded its authority; that the EPA has not acted within the 
framework that Congress has established in performing the role 
that it is supposed to perform. That is the reason I mentioned 
in my opening statement that process matters, rule of law 
matters, federalism matters. Those issues matter because 
Congress has said so. It is Congress who gives authority to the 
EPA. The EPA is an administrative agency, it is not a 
legislative body. So it is important for that agency to act 
within the framework, within the substantive authority that 
Congress has provided it in doing its job.
    In leading the EPA, if confirmed, I think if I do that 
effectively, it will provide confidence, certainty to those 
that are regulated to know what is expected to them, and 
improve our air and improve our water because of that.
    Senator Rounds. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Rounds.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    This morning, NOAA, NASA has declared 2016 the hottest year 
in the 137-year-old record that has been kept. Donald Trump has 
called global warming a hoax caused by the Chinese. Do you 
agree that global warming is a hoax?
    Mr. Pruitt. I do not, Senator.
    Senator Markey. So Donald Trump is wrong?
    Mr. Pruitt. I do not believe that climate change is a hoax.
    Senator Markey. OK. That is important for the President to 
hear.
    Mr. Pruitt, you have made a career working on behalf of the 
fossil fuel industry to eviscerate regulations designed to 
protect public health and the environment. You have sued the 
EPA 19 times to stop clean air and water protections. Eight of 
those cases are still ongoing, including your litigation that 
challenges critical rules that reduce levels of hazardous smog, 
mercury, and carbon pollution.
    As EPA Administrator, you would be in a position to serve 
as plaintiff, defendant, judge, and jury on these ongoing eight 
lawsuits, and that would be wrong. In your ethics agreement you 
have said that you would not participate in any matter that is 
ongoing litigation within 1 year. But Mr. Pruitt, isn't it 
correct that these lawsuits may very well continue for much 
longer than 1 year?
    Mr. Pruitt. Well, Senator, I have the letter from the 
ethics counsel at the EPA, and the 1-year time period is 
intended to address covered entities, entities that I served in 
a chairmanship or an officer capacity. The Southern Theological 
Seminary, the Windows Ministry, those entities are covered 
entities. So if there is a matter that arises before the EPA 
within a 1-year period, a particular matter, a specific case 
that involves those entities, then the recusal would be in 
order. But that is really the focus of the 1-year timeline.
    Senator Markey. So will you agree to recuse yourself from 
those lawsuits which you brought as the Attorney General of 
Oklahoma against the EPA, not just for 1 year, but for the 
entirety of the time that you are the Administrator of the EPA? 
Will you commit to doing that?
    Mr. Pruitt. Senator, for clarity, I think that it is 
important to note that the 1-year time period, again, is for 
those covered entities that were highlighted in the EPA letter.
    With respect to pending litigation, the EPA ethics counsel 
has indicated, with respect to particular matters and specific 
parties, there will be an opportunity to get counsel from the 
EPA at that point to determine what steps could be taken to 
avoid appearances of impropriety.
    Senator Markey. Are you saying that you will not recuse 
yourself from the actual matters which you are suing the EPA on 
right now as Attorney General of Oklahoma for the time that you 
are the head of the EPA?
    Mr. Pruitt. I am not saying that at all, Senator.
    Senator Markey. You are saying that. Will you recuse 
yourself?
    Mr. Pruitt. I am saying that the EPA ethics counsel has 
indicated those cases will require a review by the EPA ethics 
counsel, and if it involves a particular matter with a specific 
party then recusal would potentially be in order, and I would 
follow the guidance and counsel of EPA ethics.
    Senator Markey. This is a clear line for the American 
public, given your record from Oklahoma in suing the EPA on all 
of these matters, that if you don't agree to recuse yourself, 
then again you become plaintiff, defendant, judge, and jury on 
the cases that you are bringing right now as Attorney General 
of Oklahoma against the EPA, and the EPA is for all of the 
people of the United States, not just the fossil fuel industry 
of Oklahoma. So you are not committing--and I think that is a 
big mistake, Mr. Pruitt--to recuse yourself from those cases. 
It is critical.
    Moreover, you also are in a position to initiate 
regulations that could overturn smog protections, carbon 
pollution protections that are right now on the books that you 
are suing as Attorney General of Oklahoma to overturn. Would 
you commit to not regulating, promulgating new regulations in 
any of the areas where you right now are suing the EPA? Would 
you make a commitment that you would recuse yourself from doing 
that?
    Mr. Pruitt. Let me be clear, Senator, because we talked 
about this in your office, and I very much enjoyed the 
conversation that we had there in this area that we talked 
about. I have every willingness and desire to recuse, as 
directed by EPA ethics counsel, and if directed to do so, I 
will in fact do so, to recuse from those cases. There is a 
difference, as you know, between pending litigation in a 
particular matter with specific parties and prospective 
rulemaking. Rulemaking goes through a process.
    Senator Markey. What the American people are expecting here 
is the EPA doesn't turn into every polluter's ally. The only 
way to ensure that is for you to recuse yourself from the cases 
that you have brought, because most of them are to overturn the 
clean air, clean water, smog regulations. So to create an 
appearance of independence, it is critical that you recuse 
yourself; otherwise----
    Mr. Pruitt. And I will----
    Senator Markey [continuing]. Otherwise, honestly, people 
are going to think that it is not just the fox guarding the hen 
house, it is the fox destroying the hen house, because you 
haven't distanced yourself from the actual litigation that you 
have initiated on most of the key issues that you are now going 
to have responsibility for protecting in terms of the public 
health of the entire country.
    Mr. Pruitt. And Senator, I can say to you unequivocally I 
will recuse, as directed by EPA ethics counsel.
    Senator Markey. And I am saying to you that you should just 
start out saying I am going to recuse myself from anything that 
relates to any litigation that I have initiated as the Attorney 
General of Oklahoma that questions the clean air, clean water, 
climate change, smog, or mercury protections which are right 
now on the books that the EPA is honored to protect. And if you 
don't do that, then we are going to have a fundamental conflict 
of interest that is presented by your presence as the 
Administrator of the EPA. It just gets down to being a matter 
as simple as that.
    Senator Barrasso. The Senator's time has expired. Thank 
you, Senator Markey.
    For clarification, will you fully follow the advice of the 
EPA ethics counsel?
    Mr. Pruitt. Yes, Mr. Chairman.
    Senator Barrasso. Thank you.
    Just for additional clarification, regarding conflicts of 
interest, I note the letter to this Committee on January 4th 
that I am submitting to the record. ``We''--this is the Office 
of Government Ethics--``believe that this nominee is in 
compliance with applicable laws and regulations governing 
conflicts of interest.''
    And then there was a letter yesterday from Walter Shaub, 
Director, Office of Government Ethics, responding to a letter 
from Senator Carper and other EPW Democrats regarding Attorney 
General Pruitt and potential conflicts of interest, and they 
say, ``If the Office of Government Ethics has transmitted a 
certified financial disclosure report and an ethics agreement 
to the Senate,''--which they have--``it means the Office of 
Government Ethics is satisfied that all financial conflicts of 
interest have been identified and resolved.''
    Senator Ernst.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Attorney General Pruitt, for appearing in front 
of us today. I enjoyed our conversation, both one-on-one and 
then in a group setting as well, and I would like to go back 
and revisit our discussion on the RFS. As you know, Iowa is 
home to 43 ethanol refineries. We are the largest producer of 
ethanol west or east of the Missouri River.
    President-elect Trump reiterated his support for biofuels 
while he was campaigning cross Iowa and all across the Midwest, 
and those areas of the country overwhelmingly supported his 
candidacy and led to his victory. And thank you for stating 
once again that you would honor his commitment to biofuels by 
carrying out the RFS as intended by Congress.
    Policy certainty is key for economic growth, and this is 
something that we discussed in my office. Unfortunately, as a 
result of uncertainty surrounding the EPA's renewable fuel 
volume targets in 2014, 2015, and 2016, second generation 
biofuel investment decreased and proposed projects moved 
overseas. Fortunately, the EPA has recently changed its course 
and released updated volume targets for the RFS that meet the 
levels prescribed by Congress.
    If confirmed as Administrator, what will you do to continue 
to provide certainty so that investment can continue to happen 
right here at home in the United States?
    Mr. Pruitt. You know, Senator, as you indicated in our 
meeting, the importance of the infrastructure, the investment 
that has occurred in reliance upon the law was passed in 2005 
and updated in 2007, and as I indicated earlier to Senator 
Fischer's question, the latitude discretion that has been given 
to the EPA Administrator with respect to waiving those 
statutory targets should be judiciously used. It shouldn't be 
automatic; it should be something that the EPA Administrator 
seeks to comply with and adhere to because of the will of this 
body.
    So I think those waivers obviously are in order, but with 
respect to market conditions we have less consumption today, 
more fuel-efficient vehicles. Market conditions have changed 
since 2005, but despite that the EPA Administrator should not 
use that to undermine or to somehow put into question the 
commitments made by this body in the Renewable Fuel Standards 
statute.
    Senator Ernst. Thank you for your commitment to the RFS and 
the intention of Congress.
    I also want to touch on an issue you mentioned in your 
testimony, which is the level of fear and distrust many folks 
have of the EPA. When I am home in Iowa I host town halls all 
across the State and just want to hear what is going on in 
their communities, and what I hear, without fail, at these town 
halls is that folks are frustrated with the EPA and the gotcha 
mentality that has stemmed from the Agency. My constituents 
tell me the EPA is out to get them rather than work with them, 
and there is a huge lack of trust between many of my 
constituents and the EPA. And if we take a look specifically at 
the WOTUS rule, Iowans truly feel that the EPA ignored their 
comments and concerns, threw them under the rug and then just 
moved forward.
    We know now that the EPA relied on gimmicky mass e-mails 
and social media events to prop up their message, and then they 
used those tactics to insinuate that anyone who had reasonable 
concerns about the WOTUS rule are somehow in favor of dirty 
water, which is absolutely ridiculous. And this type of culture 
that was created under the Obama administration has no place, 
has no place here.
    So, Mr. Pruitt, what do you plan to do in your first days 
as the Administrator to improve the relationships EPA has with 
the hardworking folks across the country?
    Mr. Pruitt. Well, Senator, as I indicated in my opening 
statement, this paradigm that we live within today, that if you 
are pro-energy, you are anti-environment, if you are pro-
environment, you are anti-energy, is something that I think is 
just a false narrative. We can do better than that. In fact, 
this country has shown for decades that we can grow our economy 
and be a good steward of our air, land, and water, and we need 
to get back to that.
    Cooperative federalism is at the heart of many of the 
environmental statutes that have been passed by this body, and 
the reason for that is it is the States, many times, that have 
the resources, the expertise, and understanding what the unique 
challenges are for the environment and improving our water and 
our air. It is not that they don't care about it. Senator 
Whitehouse indicated a devolution of authority to the States 
would create a problem. That is not what I am advocating. And I 
think we hear in the marketplace we need a partnership, a true 
partnership between the EPA in performing its role along with 
the States in performing theirs. And if we had that 
partnership, as opposed to punishment, as opposed to 
uncertainty and duress that we currently see in the 
marketplace, I think we will have better air, better water 
quality as a result.
    Senator Ernst. Thank you. I look forward to that 
partnership and transparency.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you, Senator.
    Senator Duckworth.
    Senator Duckworth. Thank you.
    Mr. Pruitt, I want to clarify your response to Senator 
Ernst on this whole congressional intent when it comes to the 
RFS. What I want to know, and what the people of Illinois, we 
are also a great producer of ethanol, what we need to know is 
where exactly you stand on the RFS. Are you the Attorney 
General who only 3 years ago sided with big oil to slam the 
RFS? You said that RFS was ``unworkable'' and also that it was 
a ``flawed program.''
    So I am a little confused by what you are saying today. Are 
you that Mr. Pruitt, or are you the Scott Pruitt today who is 
saying all the right things in this confirmation hearing and in 
these meetings to try to reassure pro-RFS States by repeating 
nice sounding, but ultimately vague and hollow mantra that, if 
confirmed, you would enforce the RFS law as written by 
Congress?
    As you and I are quite well aware of, such a statement 
essentially dodges the critical issue for biofuels producers 
and workers, because under the law the EPA has considerable 
discretion to adjust the renewable volume obligation in a 
manner that you would argue is contrary to congressional 
intent, yet may be compliant with the explicit letter of the 
statute. So, as EPA Administrator, you could still technically 
be in compliance with Congress, with the law, but actually be 
working against it; and your answers today have not clarified 
that.
    So my question to you, Mr. Pruitt, is this: Which specific 
actions has EPA taken since 2007 while administering the RFS 
that you, in your view, are not consistent with congressional 
intent? Can you name any?
    Mr. Pruitt. Thank you, Senator. The Administrator and the 
EPA routinely misses the statutory targets in publishing those 
each year, creating great uncertainty in the marketplace. In 
fact, in some years they have missed the timeline as far as 
submitting those targets by over a year; in some cases over 2 
years.
    Senator Duckworth. OK, so let me ask you this, then. Yes or 
no, do you believe that Congress intended for the RFS to 
increase the amount of renewable fuel blended in our Nation's 
liquid transportation fuel supply, yes or no?
    Mr. Pruitt. Without question.
    Senator Duckworth. Without question.
    Mr. Pruitt. Yes.
    Senator Duckworth. All right. My second question, then, 
is--yes or no--do you believe Congress intended for the RFS to 
be a stable policy that drives private investment in the 
renewable energy industry?
    Mr. Pruitt. Yes.
    Senator Duckworth. And finally, if confirmed, will you 
commit to opposing any and all proposals to move the point of 
obligation under the RFS program from refiners to blenders?
    Mr. Pruitt. Senator, as you know, the EPA is actually 
involved in a comment period on that very issue, and to 
prejudge the outcome of that I think would be--I would not be 
able to do that. There are many aspects of the program, from 
the trading program, the monitoring of fraud in the system, 
that need to be better administrated by the EPA. These have 
been administration issues. The EPA has created uncertainty. We 
talked about--a minute ago, with the Senator--about the amount 
of investment that has gone into the infrastructure because of 
the 2005 law. Those individuals need to have certainty and 
confidence that the RFS is going to be enforced and 
administered pursuant to the desires of Congress.
    Senator Duckworth. Right. But if you were to do that, then 
you would actually have to answer yes because to move the RFS 
program from refiners to blenders is actually one of those ways 
that you can actually undermine the RFS standards as intended 
by Congress, which you yourself just now said was intended to 
increase the amount of biofuels blended into the fuel supply of 
the United States.
    This is my problem. On the one hand your entire track 
record shows you to be someone who opposes the RFS, and yet 
here in front of Congress and in meetings with Senators you are 
giving these vague answers that sound right when it comes to 
the RFS but really opens all sorts of back doors for you to 
oppose the Renewable Fuel Standard, and that is very 
troublesome because all across the Midwest--you know, for those 
of us who have fought to strengthen national security by 
lessening our country's dangerous dependence on foreign oil, I 
am really incredibly concerned about the future of the RFS on 
American-produced biofuels under a Scott Pruitt-led EPA. And I 
am also incredibly concerned about what you are going to do in 
terms of protecting the environment.
    In your answer to one of my colleagues about what the role 
of the EPA is, what is the job of the EPA, one of the first 
questions you got, you spent 5 minutes talking before you 
actually said protect the environment. You talked all about 
reducing EPA's influence over States for a good 5 minutes 
before you actually got to the environment. And then for my 
farmers, my corn and soybean producers for my biofuel industry, 
the RFS is critical in order to continue that. And I would 
rather burn American-made American-grown corn and soybean in my 
gas tank then I would oil from the Middle East. I have already 
been to a war fought over oil in the Middle East, and I don't 
intend to allow us to continue to do that, which is why the RFS 
is so critical not just for the jobs in Illinois, not just to 
support Illinois agriculture, but for our national security 
when it comes to where we are going to get our energy supply.
    I am out of time. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Duckworth.
    Mr. Pruitt. If I may, Senator, let me say to you the role 
of the Administrator of the EPA is to enforce and administer 
the RFS program to carry out the objectives of that statute. 
Those targets that have been put in that statute by this body 
need to be respected. The discretion authority, the waiver 
authority of the Administrator needs to be judiciously used to 
address those concerns that we talked about.
    So I don't want you to have any concern about the intent, 
objective, or will, if confirmed, of carrying out the RFS 
mandate or the statute in its whole.
    Senator Duckworth. That very answer concerns me because you 
have not actually said that you are going to stick with it.
    Senator Barrasso. I would like to submit for the record 
two. One, a letter from the American Farm Bureau Federation 
which strongly supports the nomination of Scott Pruitt as 
Administrator of the U.S. Environmental Protection Agency and 
urges a vote in favor of his confirmation. The second is a 
letter from the Democrat Attorney General of the State of 
Arkansas, former Democrat Attorney General, Dustin McDaniel, 
who has this to say about Attorney General Scott Pruitt's work 
on the stem phosphorus levels in the Illinois River watershed. 
He said, ``Recent press accounts regarding these efforts 
unfairly mischaracterize the work that was done by General 
Pruitt and his team. He was a staunch defender of sound science 
and good policy as appropriate tools to protect the environment 
of his State. I saw firsthand how General Pruitt was able to 
bridge political divides and manage multiple agency agendas to 
reach an outcome that was heralded by most credible observers 
as both positive and historic.''
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
       
    Senator Barrasso. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    And thank you, Attorney General Pruitt, for your 
willingness to serve, and your family. I think everybody at the 
dais here realizes these really are family affairs that truly 
affect everyone.
    In recent years EPA has made it increasingly difficult for 
Arkansas to manage its delegated national pollutant discharge 
elimination system. Too often the permits, rulemakings, or 
other actions sent to EPA for review are returned with demands 
far more restrictive, additional expensive data collection is 
required, and other costly onerous requirements. New leadership 
at EPA has an opportunity to correct this coercive federalism 
and instead restore cooperative federalism as intended. The 
States have the expertise and local knowledge necessary to 
administer environmental programs.
    Mr. Pruitt, EPA has the opportunity to play a significant 
role in supporting a move back to cooperative federalism. Can 
you please explain how you plan to change the EPA's State 
dynamic?
    My experience with EPA, and being on transportation in the 
House, being Ranking Member on water there, Ranking Member of 
the Senate is the EPA, their attitude is we are with you unless 
you come out with a finding that is contrary, and then we are 
going to do it our way. So can you address that?
    Mr. Pruitt. I think two things, Senator. One, as we 
indicated earlier, rule of law and making sure that the 
authority granted to the States under State implementation 
plans, delegation under certain clean water provisions, that 
that is respected. But also I think the EPA needs to provide 
more assistance to the States and work in partnership and be 
proactive. Those regional administrators that we have across 
the country need to be seen as partners and not adversaries.
    So I think restoring that confidence, restoring that 
relationship and seeking to do so is very, very important in 
carrying out this partnership that we know exists under the 
various environmental statutes.
    Senator Boozman. Very good.
    For the past 8 years, EPA has acted as a political arm of 
the Obama administration time and time again. We have seen 
rules developed not based on sound science but on political 
ideology. When rules have been released, States and private 
sector--and even Congress--have had trouble getting EPA to show 
the science that helped develop these rules.
    Under your leadership can we expect EPA to be more 
transparent, in other words, how the rules are being developed, 
the science behind them? And you have continued to allude to 
this, and I think it is so important, as Administrator of the 
EPA, can we count on you to base all of your decisions on the 
rule of law, not on the Administrator's or even your own 
political ideology?
    Mr. Pruitt. Absolutely, Senator, in response to the latter 
point of your question. Public participation is important. 
There is a reason why, in rulemaking, that you take comment. 
There is a reason, as I indicated earlier to Senator Ernst, 
that you involve those that are impacted by rulemaking, because 
you want to understand the impact, both economically and 
otherwise, in the benefit of the environment as well as making 
sure that you craft rules and regulations that take all those 
things into consideration. So hearing the voices of all 
Americans in that rulemaking process, responding to those 
comments in the record before rules are finalized, 
transparency, objectivity, a commitment to process is very 
important, in my view, of restoring the confidence of the 
American people in the rulemaking processes that occur here in 
Washington, DC.
    Senator Boozman. So, again, releasing the scientific data 
behind that would be something that you would very much 
support?
    Mr. Pruitt. Yes, Senator.
    Senator Boozman. A problem with the EPA the EPW Committee 
has faced with the current Administration is a lack of 
communication. Time and time again EPA either did not respond 
to questions from Committee members or at the very least took 
months to respond. Under your leadership can we expect EPA to 
get Committee members answers in a timely fashion?
    Mr. Pruitt. Yes, Senator. As I indicated in my opening 
statement, listening is an important role of leadership, and 
listening to the voices of folks here in Congress. As I went 
through and met with many of you through this process, there 
were issues particular to your State that you made me aware of, 
and I, if confirmed as EPA Administrator, seek to be very 
active in listening to the needs with respect to your various 
States and respond to this body with respect to questions.
    Senator Boozman. Let me just comment on the Arkansas-
Oklahoma issue. I was the Congressman in that district, so I 
inherited that in 2001. I have been working on this for 15 
years. And I appreciate you and Attorney General McDaniel doing 
a very good job of getting things done. On the other hand, the 
idea that somehow you were soft, in fact, I would argue that 
the agreement that was reached was way too restrictive and is 
probably one of the most restrictive watersheds as far as 
phosphorus requirements of anyplace in the United States.
    Mr. Pruitt. Well, as you know, Senator, in that process we 
actually selected a biologist from Baylor University to engage 
in a scientific study on what the phosphorus levels should be, 
the numeric quality of the water, and it was determined at the 
end of that process that .037 was the right standard and is now 
enforceable on both sides of the border for the first time in 
history. So it is a very important outcome.
    Senator Boozman. No, I understand, and I commend you on the 
process. You know, the implication here is somehow, you know, 
you came up with a deal that was too soft, and if anything I 
would argue that it was perhaps a little bit too harsh. But I 
do appreciate the process. I know that you and our former 
Attorney General were able to do something that had been going 
on for decades.
    Mr. Pruitt. Thank you, Senator.
    Senator Barrasso. You have been at it now for about 2 
hours. If you can stay with us `til we finish the first round 
of questioning; we have about five or six additional questions 
coming.
    Senator Harris is next, and then we will break at about 
12:30, if that is all right.
    Senator Carper. Can I make a unanimous consent request, Mr. 
Chairman?
    Senator Barrasso. Yes, sir.
    Senator Carper. I would like to ask unanimous consent to 
submit for the record the legal brief against the Mercury and 
Air Toxics rule which Mr. Pruitt supported. Stated in that 
brief, I will just quote it, it says, ``Human exposure to 
methylmercury resulting from coal-fired electric-generating 
utilities is exceedingly small.'' That is the quote.
    Also ask unanimous consent to submit for the record a 
recent article that quotes, I think from the New York Times, it 
quotes a 40-year career employee of the Oklahoma Department of 
Environmental Quality that has him saying these words: ``Mr. 
Pruitt has advocated and stood up for the profits of 
businesses, be it poultry companies or the energy industry and 
other polluters, at the expense of people who have to drink the 
water or breathe the air.''
    Other statements have been introduced for the record saying 
quite a different thing about Mr. Pruitt. I think it is only 
fair to go to someone who has worked there for 40 years that 
has quite a different view than the one than the witness has 
expressed.
    Thank you.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
         
    
    Senator Barrasso. Senator Harris.
    Senator Harris. Thank you, Chairman.
    Mr. Pruitt, as an Attorney General, I know as former 
Attorney General of California that we as attorneys general 
have several duties which include representing our clients, 
State agencies, and also the discretion and power to initiate 
lawsuits in our independent capacity as attorneys general. 
Would you agree with that?
    Mr. Pruitt. Some States provide more latitude than others.
    Senator Harris. Does your State?
    Mr. Pruitt. Our State has not provided constitutionally as 
much authority as other States----
    Senator Harris. Have you never exercised your independent 
capacity as Attorney General to bring a legal action?
    Mr. Pruitt. Senator, I would have to know more specifics 
about what you are referring to. But in response to your 
question, it does----
    Senator Harris. Have you ever exercised your independent 
capacity as the Attorney General of your State to initiate a 
legal action, yes or no?
    Mr. Pruitt. The litigations that we have engaged in largely 
have been in consultation with agencies that----
    Senator Harris. Largely. So you have also exercised your 
independent capacity as the Attorney General of your State, is 
that correct or not?
    Mr. Pruitt. I may have, Senator. I don't know.
    Senator Harris. You don't know if you have or not? You have 
been Attorney General for your State for almost 7 years, is 
that correct?
    Mr. Pruitt. Approaching that, yes. Six years, actually.
    Senator Harris. And I have read that you have initiated, 
and it has been mentioned before, 14 lawsuits in your 
independent capacity as the Attorney General of Oklahoma, and 
apparently 7 of those cases have been resolved, 6 of which you 
have lost. My question is--I hear that you are a lover of 
baseball. What would your batting average then be?
    Mr. Pruitt. It was generally about .300, which is pretty 
good for a second baseman.
    Senator Harris. My calculation is it is .142.
    Moving on, would you agree that as attorneys who have the 
responsibility for doing the work of justice, and particularly 
as an Attorney General, that we make decisions based on 
propriety and impropriety; we make decisions based on what is 
not only an actual conflict but what is an appearance of 
conflict? Would you agree that is important?
    Mr. Pruitt. I believe that is important, Senator.
    Senator Harris. OK. And so on this issue of whether or not 
you would be recused if you are nominated and actually voted in 
as the Administrator of the EPA, you have said that you will 
recuse yourself from the cases your office has been involved 
with if directed to do that. Do you agree that you also have 
the discretion to recuse yourself from those cases?
    Mr. Pruitt. I believe, Senator, the rules of professional 
conduct, in addition to the review that OGE----
    Senator Harris. Do you believe that you have the discretion 
to recuse yourself from the cases that you were involved with 
as Attorney General?
    Mr. Pruitt. I think it is actually stronger than that, 
Senator. I actually have an obligation in those instances, as 
directed by ethics counsel, and that is the reason I indicated 
earlier that I will recuse.
    Senator Harris. Independent of any direction from ethics 
counsel, do you agree you have the discretion to recuse 
yourself from those cases?
    Mr. Pruitt. I believe that it is important to maintain----
    Senator Harris. I am asking about whether or not you 
actually have the discretion, the power, to recuse yourself. Do 
you disagree or agree with that?
    Mr. Pruitt. Clearly, there is a discretion to recuse.
    Senator Harris. Clearly.
    You are familiar with the Clean Air Act, yes?
    Mr. Pruitt. I am sorry, Senator?
    Senator Harris. You are familiar with the Clean Air Act?
    Mr. Pruitt. I am.
    Senator Harris. And as you may know, section 209, 
subdivision (b) of the Clean Air Act, recognizes California's 
authority to issue air pollution standards for new motor 
vehicles that go above and beyond Federal standards. The EPA 
has historically recognized California's authority to issue new 
motor vehicle pollution standards that go above and beyond 
Federal standards.
    In your opening statement you write, ``It is not EPA's 
mission to be against sectors of industry in general or against 
particular States.'' Will you commit, then, to upholding that 
same standard and recognizing California's authority to issue 
its own new motor vehicle air pollution standards?
    Mr. Pruitt. You know, Senator, as you indicated, California 
was actually regulating those standards before the EPA was 
actually created, which is why the California waiver exists 
under statute.
    Senator Harris. Do you agree to uphold that same standard 
that has been held by your previous Administrators?
    Mr. Pruitt. I agree to review that as each Administrator 
before me has. It has been granted at times and denied at 
times.
    Senator Harris. Do you agree to uphold it? Reviewing and 
upholding are two different points.
    Mr. Pruitt. Senator, as you know, Administrators in the 
past have not granted the waiver and in fact have granted the 
waiver. That is a review process that will be conducted if 
confirmed.
    Senator Harris. What is your intention, sir?
    Mr. Pruitt. I don't know without going through the process 
to determine that, Senator, and one would not want to presume 
the outcome.
    Senator Harris. In the 14 cases that have been previously 
mentioned, in each of those cases regulated companies were also 
a party to your suits; is that correct?
    Mr. Pruitt. In some instances, yes.
    Senator Harris. In most of them. Can you name a few 
instances in which you have filed a lawsuit in your independent 
capacity as Attorney General against a corporate entity for 
violating State or Federal pollution laws?
    Mr. Pruitt. Senator, I have a list here that has been 
provided.
    Senator Harris. Can you name them, please?
    Mr. Pruitt. Sure. There is a list that has been----
    Senator Harris. Can you name one?
    Mr. Pruitt. Yes. The first is the Mahard Egg Farm involving 
a CAFO situation and clean up of a large hen operation that 
affected water quality. Coco Manufacturing----
    Senator Harris. Did you file a lawsuit in that case, sir?
    Mr. Pruitt. I did, Senator.
    Senator Harris. OK. And what was the outcome of that case?
    Mr. Pruitt. We received a good outcome against them.
    Senator Harris. And the name of that entity was what?
    Mr. Pruitt. Mahard Egg Farm.
    Senator Harris. And can you name any other cases where you 
have actually filed a lawsuit against a corporate entity for 
violating Federal pollution laws?
    Mr. Pruitt. In fact, that case was brought in conjunction 
with the EPA. And I want to address something, Senator. 
Earlier, when you say independent capacity, those cases that 
you referred to, the list of cases, were as an extension of the 
DEQ in the State of Oklahoma, an extension of agencies at the 
State level that had authority granted to them by this body 
that we were----
    Senator Harris. And I understand that role, as a former 
Attorney General, but that is you representing your client. I 
am asking about your independent capacity as the Attorney 
General of your State.
    Let's move on.
    On the issue of mercury----
    Senator Barrasso. I would suggest that the Senator's time 
has expired.
    Senator Harris. Thank you.
    Senator Barrasso. Thank you.
    I would like to introduce for the record a letter by J.D. 
Strong, who is the Director of the Oklahoma Department of 
Wildlife Conservation, who in reference to the submission 
recently by the Ranking Member makes reference to that former 
employee who is retired from the State of Oklahoma and is 
currently serving as Vice Chairman of the Oklahoma chapter of 
the Sierra Club. So the references are from now someone who is 
no longer a State employee but the Vice Chairman of the 
Oklahoma chapter of the Sierra Club.
    But this letter from Mr. Strong goes to talk about the 
efforts by Attorney General Pruitt, who says, ``For the past 6 
years General Pruitt has been instrumental in many of our 
successes and has never asked me to compromise regulatory 
efforts to benefit industry.'' He says, ``On the contrary. All 
of our projects and cases that involved his office were given 
staff support at the highest level, and more often than not 
resulted in more stringent environmental protection. He has 
been a strong ally in defending our ability to continue the 
great progress that we made in protecting Oklahoma's 
environment.''
    Senator Carper. Mr. Chairman, in response, let me just ask 
for unanimous consent to put in the record, and this is on 
behalf of Senator Whitehouse, rebuttal articles for Mr. 
Pruitt's claim on litigation against fossil companies. Some of 
the topline points from these articles are, one, that they are 
fraud cases first and foremost; second, some were brought by 
his predecessor, Drew Edmondson; third point, the case against 
BP was filed and left dormant at least for any publication; and 
also that Mr. Pruitt fought against the participation of State 
whistleblowers in the litigation, and that was a reference to 
qui tam action.
    Thank you.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    General Pruitt, it is good to see you again. Thank you for 
your willingness to serve. And to your family, as you know, it 
is a team effort, so I want to thank them as well.
    I appreciated your opening statement, particularly your 
written statement, and I want to emphasize we all want clean 
air. We all want clean water. My State of Alaska has some of 
the cleanest air, cleanest water, pristine environment 
literally in the world. But your emphasis on the ability to do 
both, to grow an economy, to develop our resources responsibly, 
and protect the environment I think is very, very important, 
and I appreciate that focus.
    I believe the EPA needs a serious course correction. As 
Senator Ernst talked about, there is a lot of anger, even fear 
of this Agency throughout many parts of the country, and I 
believe you are the right person to provide that course 
correction and do something that is very important, which is 
regain the trust of the American people that I think has been 
lost in a lot of places in America because of the overreach, 
because of the lack of focusing on the law.
    So there has been a lot of discussion this morning about 
cooperative federalism. Can you explain it in a little more 
detail? Is that your term, or is that a term that--did you come 
up with that, or is that something that was actually directed 
by Congress?
    Mr. Pruitt. Directed by Congress, Senator.
    Senator Sullivan. And so in the Clean Air Act and the Clean 
Water Act who was given, what entity in our republican form of 
government was given the primary responsibility over clean air 
and clean water in the United States?
    Mr. Pruitt. Well, as you know, Senator, under the Clean Air 
Act there is something called State implementation plans that 
the EPA and the States review together, but the States have 
that responsibility of adopting the plan----
    Senator Sullivan. So isn't it correct actually in the law 
it says----
    Mr. Pruitt. It is.
    Senator Sullivan [continuing]. The primary responsibility 
under the Clean Air Act and Clean Water--and who directed that?
    Mr. Pruitt. Congress.
    Senator Sullivan. OK. So when you are talking about 
cooperative federalism, that is not some Scott Pruitt invented; 
you are focusing on the intent of the Congress.
    Mr. Pruitt. Probably more so than any statutes that have 
been adopted by Congress historically, the environmental 
statutes that we know, from clean water to clean air to Safe 
Drinking Water Act, many pieces of legislation, Congress has 
been very explicit and very specific in saying that cooperative 
federalism, the role of the States is important, should be 
respected, and should be emphasized.
    Senator Sullivan. So let me show you a chart here. This is 
the Waters of the U.S. in the States and entities that sued to 
stop that rule. Thirty-two. Democrats and Republicans and 
Independents. Do you think this is an example of cooperative 
federalism? And if not, if you are confirmed, what are you 
going to do to get back to what is not a Scott Pruitt idea, it 
is the direct direction of the Congress of the United States?
    Mr. Pruitt. Senator, when you think about the relationship 
between the EPA and the States, the States are not mere vessels 
of Federal will; they don't exist simply to carry out Federal 
dictates from Washington, DC. There are substantive 
requirements, obligations, authority, jurisdiction granted to 
the States under our environmental statutes. That needs to be 
respected. When it is not respected, that is what spawned most 
of this litigation that has been referenced here today. And why 
does it spawn it? Because it matters. It matters that the 
States participate in the way that Congress has directed, and 
they have been unable to do so for a number of years.
    Senator Sullivan. So, again, cooperative federalism, you 
are carrying out the will of Congress when you are focused on 
that issue.
    Mr. Pruitt. That is exactly right. The expertise, the 
resources, the knowledge, the awareness of how to fix 
environmental issues at the local level is something that is 
important for the entire country to know.
    Senator Sullivan. So I am a former Attorney General myself 
who has sued the EPA, and some of my colleagues on the other 
side of the aisle, Judge Booker's comments, I think he tried to 
equate a little bit suing the EPA, not caring for Oklahoma's 
children. Do you care about Oklahoma's children?
    Mr. Pruitt. Without question. I have a couple sitting 
behind me.
    Senator Sullivan. Fourteen lawsuits. And again, Senator 
Boozman mentioned this, what has been the primary focus of 
those lawsuits? It is not that you don't care about the 
environment, is it?
    Mr. Pruitt. Absolutely not. I care very much about the 
environment. It is to restore the relationship and ensure the 
relationship that Congress has directed, the role of the States 
in improving our environment. There is an idea in Washington 
that the States, those in Oklahoma or in Alaska or other parts 
of the country, don't care about the water we drink or the air 
we breathe. The farmers and ranchers, those in industry in the 
State of Oklahoma, most of them are very committed to that. 
When they have not been we have taken enforcement action 
against them.
    Senator Sullivan. And just one final question. A lot of my 
colleagues on the other side of the aisle spent a lot of time, 
and I think Senator Sanders is up next, vilifying the oil and 
gas industry, somehow bad actors, polluters. According to the 
American Petroleum Institute, 364,000 Oklahomans work in the 
oil and gas industry or related service sectors. Are these 
people bad actors? Are they polluters? Can you describe? You 
talk about the good people in your written statement. Who are 
these people, and are you representing them when you are 
bringing these kinds of actions? Are they evil people?
    Mr. Pruitt. No, Senator. They want to comply with the law. 
They want to know what is expected of them. They care about the 
air they breathe and the water they drink, and they want to 
make sure that the EPA is partnering with State agencies and 
industry to ensure that that outcome occurs.
    Senator Sullivan. And aren't these hundreds of thousands of 
people part of that industry?
    Mr. Pruitt. Absolutely. In fact, 25 percent of our entire 
State budget in Oklahoma is from that industry. This is a State 
concern. And more than that, we have significant regulation 
over this industry. Our Corporation Commission has oversight 
over many of these issues. So we have regulatory bodies from 
DEQ to the Corporation Commission to others that are involved 
in making sure that the air we breathe and the water we drink 
is clear in the State of Oklahoma.
    Senator Barrasso. Thank you.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Barrasso. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you, Mr. Pruitt, for being willing to serve this 
Administration, for your interest in public service, and your 
past public service.
    Mr. Pruitt. Thank you, Senator.
    Senator Gillibrand. I want to talk to you about some of the 
constituents in my State and the challenges, the very real 
challenges we face. First, we had millions of people's lives 
upended with Superstorm Sandy. I mean, millions of people. We 
had parents who lost their children who drowned because of 
surges of water coming through their homes, through the 
streets. The devastation was literally unparalleled in my 
State; it was just something we had never seen before. And we 
are going to be looking to you to protect these families and 
protect these communities, because we know with global climate 
change the incidences of super storms and violent weather 
impacts is changed; it is very, very different. And you have 
already told folks that you do believe that global climate 
change is real; it has been caused by human activity.
    Do you believe also that sea levels are rising?
    Mr. Pruitt. Senator, I believe that the EPA, addressing 
this issue because of the MATS v. EPA case and the endangerment 
finding has obligations to address the CO<INF>2</INF> issue. In 
doing so, they need to follow the processes as set up by 
Congress. So I think it is very important to do both.
    Senator Gillibrand. But you have studied this issue of sea 
levels. You do realize they are rising. And it is one of the 
reasons why these storm surges were so high and devastating 
communities all across New York City. So I need you to be 
vigilant because lives are at stake, and I think you have the 
purview to do that. Will you be vigilant?
    Mr. Pruitt. Senator, we will obviously address those issues 
that we talked about in your office, and I appreciate your 
passion on this issue.
    Senator Gillibrand. One of the other issues that we talked 
about that I think is equally as concerning is issues of 
mercury that have been raised, about asthma rates that have 
been raised, about groundwater polluted. I have looked at your 
record. Most of the lawsuits you filed as Attorney General were 
related to businesses, specifically what was important for your 
State in terms of employers and businesses. And the few 
lawsuits you did file about human safety were few and far 
between.
    But this role as head of the EPA, you are going to have a 
much more important role to play, and I want to talk 
specifically about mercury. If you believe that mercury is a 
threat to public health but oppose the remedy of reducing 
mercury air pollution from power plants because it is too 
costly, what, then, do you think you should do, or what should 
be done to address the mercury pollution?
    Mr. Pruitt. Let me say, Senator, mercury is something--it 
is a hazardous air pollutant under section 112. It is something 
that the EPA has authority to regulate and should regulate. It 
should do so, though, within the framework established by this 
body, and the Supreme Court said that the EPA did not follow 
the cost-benefit obligations. It is not that the benefits 
outweigh the costs; it is just that they simply didn't engage 
in a proper record-based support for their rule. So that goes 
back to earlier questions with other Senators about the process 
mattering, being committed to the rule of law and the 
rulemaking authority that Congress has given the EPA in making 
sure that as rules are passed, that they can be upheld in 
court.
    Senator Gillibrand. But I need you also to be worried about 
human health. I understand there is a cost, but when you are 
talking about lives, when you are talking about children who 
can't breathe--I have been to the emergency room at 2 in the 
morning with a child who can't breathe; it is a horrible thing. 
We have had children die in New York City because none of their 
teachers, no administrators in the schools knew what to do when 
a child has an asthma attack. It is a huge problem. So I need 
you to care about human health and really believe that the 
cost, when human health is at risk, when people are dying, is 
far higher than it is the cost to that polluter to clean up the 
air and change their processes. I need you to feel it as if 
your children sitting behind you are the ones in the emergency 
room. I need you to know it.
    Mr. Pruitt. And Senator, I would say to you there are 
certain instances where costs can't even be considered, as you 
know. Those criteria pollutants under our NAAQS program, cost 
is not even a factor because human health is the focus.
    Senator Gillibrand. So let's talk about that. So you and I 
previewed this in my office. We have a horrible problem in New 
York State with Superfund sites and with groundwater that is 
polluted. We have PFOA in our water. We have the largest PCB 
Superfund site in the United States in the Hudson River. When 
families who don't have money fish in the Hudson River, they 
eat those fish, they get ill. It is horrible. The contaminants 
are real, they are pervasive, and they are destroying lives. 
They are also destroying the economy, because when you have 
contaminants all over the place you can't sell your house, you 
can't put in industries that are relying on tourism. It is a 
huge problem.
    So PFOA is an example of a chemical that needs to be 
tested. I need you to put it No. 1 on your list, to test it, 
and if it is the carcinogen that many scientists have said it 
is, it needs to be banned.
    Mr. Pruitt. The TSCA authority that has been granted by 
this body, you and I talked about that in your office, PFOA 
needs to be addressed quickly, even under the Safe Drinking 
Water Act as well.
    Senator Gillibrand. Will you commit to doing that work?
    Mr. Pruitt. Yes, Senator.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator.
    Senator Carper. Mr. Chairman, I have a unanimous consent 
request. I would like to submit for the record--and this is 
sort of in response to a question raised by Senator Harris. Mr. 
Pruitt, in his response to her question on whether he had ever 
filed a lawsuit against a corporate entity for violating State 
or Federal pollution, apparently was not correct. I want to 
just submit for the record a list of cases that have been 
active under Mr. Pruitt's leadership. It notes which ones were 
started by his predecessor, and it shows that the case in which 
he mentioned in his exchange with Senator Harris; I think it 
was the egg case. That case actually was initiated not by Mr. 
Pruitt, but by his predecessor.
    Thank you.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. And I would like to submit to the record, 
as well, having heard that some of my Democratic colleagues 
have expressed their concerns that Attorney General Pruitt is 
not open to the finding of science, especially as it relates to 
climate change, this is not so. I would like to call the 
Committee's attention to a letter by the Cornwall Alliance for 
the Stewardship of Creation. The letter is signed by 130 
scientists, economists, legal scholars, policy experts, 
religious leaders, and over 230 other citizens urging Attorney 
General Pruitt's confirmation. The group includes David 
Legates, who is a Ph.D. in climatology, Professor of 
Climatology and Geography at the University of Delaware. The 
author praises Pruitt, stating, ``Mr. Pruitt has also 
demonstrated understanding of and open-mindedness toward 
scientific insights crucial to the formulation and 
implementation of environmental regulation.''
    The organization's founder and national spokesman, Calvin 
Beisner, is quoted in the press release announcing the letter 
as saying the following, ``Some environmental activists are 
determined to prevent Mr. Pruitt's confirmation, painting him 
as a science denier or a climate change denier.'' Mr. Beisner 
continues, ``He is neither. He is a solid, common sense 
Attorney General who will bring much needed reform to the 
EPA.''
    Without objection, the letter will be submitted for the 
record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman and Mr. Ranking 
Member. I think it has been a good hearing so far. I think we 
have a lot of information that will be reassuring to the 
American people.
    One thing I do object to, though, is something that has 
happened for years since I have been a member of this 
Committee, and that is somehow to list political contributions 
and suggest that somehow they make an individual suspect or not 
qualified. My dear friend from Rhode Island showed a poster and 
showed some contributions and suggested that based on those 
contributions from companies like Southern Company, for 
example, who has contributed to my campaign, that his 
appropriateness for the job should be challenged.
    So I am glad that the Chairman had added to the record this 
article from September 6 from the Wall Street Journal, 
September 6 of last year, pointing out the Democratic 
presidential candidate, Hillary Clinton, raised significantly 
more money than Donald Trump from the oil and gas industry. 
Individuals who worked for oil and gas companies donated 
$149,000 to Mr. Trump's GOP campaign as of the date of July 30, 
compared with $525,000 to Mrs. Clinton.
    Mr. Chairman, I am glad you put this in the record, and 
presumably, based on that argument, Hillary Clinton would be 
suspect were she to have been nominated for the position of 
heading the EPA.
    Now, Mr. Attorney General, let's talk about States as 
partners. And I enjoyed your exchange with Senator Cardin about 
the Chesapeake Bay program. As I understand, you actually 
applaud the Chesapeake Bay program and particularly the way the 
EPA worked with States as partners, is that correct? And could 
you enlarge on that?
    Mr. Pruitt. Senator, I absolutely applaud the effort by the 
States to join together in a six-State coalition to address the 
quality of the Chesapeake Bay's water quality. That is what we 
did in Arkansas, Oklahoma and Arkansas did with the scenic 
Illinois River that has already been talked about with Senator 
Boozman and others. So I think the effort that they engaged in 
was something that other States ought to model, and the EPA 
came alongside and took that TMDL and is providing assistance 
to those six States with respect to that agreement.
    Senator Wicker. Now, with regard to the Clean Power Plan 
and the Waters of the United States rules, where did those 
regulations go wrong in this respect?
    Mr. Pruitt. Well, with respect to the Clean Power Plan, in 
the cases, the Supreme Court has actually said--it was an 
unprecedented step that the Supreme Court took. Never in 
history had the Supreme Court issued a stay against a rule like 
the Clean Power Plan, and they did so because of the likelihood 
of success on the merits, in the sense that the Clean Power 
Plan did not reflect the authority of Congress given to the EPA 
to regulate CO<INF>2</INF>. As an example, with respect to 
power generation, there has to be a significant finding that 
poses risk to public health and welfare. They did not do that. 
They did not go through the proper processes of inside the 
fence and regulations of facilities, power generation 
facilities.
    So those matters, Senator, are about rule of law. And the 
same is true with the Waters of the United States rule.
    Senator Wicker. And I have not delved into this as an 
attorney, as you have, but I can tell you that the Department 
of Environmental Quality in my State told me very emphatically 
that the Clean Power Plan would put us out of business because 
we would not have had an alternative to the coal that we use. 
So I hope we can continue to make progress on this issue.
    Let me ask you about wood products. The Federal Government 
buys a lot of lumber, uses a lot of wood in construction, and 
procures a lot of wood. There are standards certifying that the 
forests are appropriate. One is the American Tree Farm System; 
another is the Sustainable Forestry Initiative.
    EPA seems to like a certification program called the FSC, 
the Forest Stewardship Council. Problem is, with this 
certification program, it excludes 90 percent of the lumber 
grown in the United States of America.
    We have had a lot of activity on both sides of the aisle in 
challenging this, and I object also to a so-called interim 
recommendation made by EPA in this regard. As far as I am 
concerned it is discrimination against domestic wood, and now 
they have come back and told us that this interim 
recommendation is under review.
    Could you comment about both of these, the idea of an 
interim recommendation being imposed on an entire industry and 
also give us any thoughts you have about using the Forest 
Stewardship Council certification model as opposed to these 
other perfectly good Sustainable Forestry Initiative and 
American Tree Farm System?
    Senator Barrasso. And if I could ask you to do it briefly, 
as the Senator's time has expired.
    Mr. Pruitt. Senator, as you and I discussed in our meeting, 
I am very concerned about the latter issue, and making sure 
that all voices, all options are considered is something the 
EPA Administrator should do, and I would seek to do, if 
confirmed.
    With respect to the interim step, I think that there is a 
concern that many have offered throughout the last several 
years, that regulators in Washington, not just the EPA, are 
seeking to use guidance or other steps to avoid what would be 
called formal rulemaking; that Congress has obligated those 
agencies to reform to ensure exactly what you just described, 
that all voices are heard. And that is unfortunate when 
agencies do that, because that is an abuse of the process.
    Senator Wicker. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Wicker.
    Senator Sanders.
    Senator Sanders. Thank you, Mr. Chairman. And I apologize 
for being late, but we were at a hearing with Congressman 
Price, who is the nominee for HHS. Perhaps not a great idea to 
have important nominating hearings at exactly the same time. So 
I apologize for not being here earlier.
    My office has received a great deal of comments from people 
in the State of Vermont, which takes environmental protection 
very seriously, as well as from all over the country, and the 
fear is that the nomination of Mr. Pruitt is a nomination 
designed to protect the fossil fuel industry and not the 
environment.
    I would like to ask Mr. Pruitt a question. As I understand 
it, earlier in this hearing you said that Mr. Trump was wrong 
in suggesting, in stating over and over again that climate 
change was a ``hoax.'' Is that in fact the case?
    Mr. Pruitt. That is correct, Senator.
    Senator Sanders. OK. Let me ask you this. As you may know, 
some 97 percent of scientists who have written articles for 
peer-reviewed journals have concluded that climate change is 
real, it is caused by human activity, and it is already causing 
devastating problems in our country and around the world. Do 
you believe that climate change is caused by the emission, by 
carbon emissions by human activity?
    Mr. Pruitt. Senator, you weren't here during my opening 
statement, but as I indicated in my opening statement, the 
climate is changing and human activity contributes to that in 
some manner.
    Senator Sanders. In some manner.
    Mr. Pruitt. Yes, sir.
    Senator Sanders. Ninety-seven percent of the scientists who 
wrote articles in peer-reviewed journals believe that human 
activity is the fundamental reason we are seeing climate 
change. You disagree with that?
    Mr. Pruitt. I believe the ability to measure with precision 
the degree of human activity's impact on the climate is subject 
to more debate on whether the climate is changing or the human 
activity contributes to it.
    Senator Sanders. While you are not certain, the vast 
majority of scientists are telling us that if we do not get our 
act together and transform our energy system away from fossil 
fuel, there is a real question as to the quality of the planet 
that we are going to be leaving our children and our 
grandchildren. So you are applying for a job as Administrator 
for the EPA to protect our environment. Overwhelming majority 
of scientists say we have got to act boldly, and you are 
telling me that there needs to be more debate on this issue and 
that we should not be acting boldly.
    Mr. Pruitt. No, Senator. As I have indicated, the climate 
is changing and human activity impacts that.
    Senator Sanders. But you haven't told me why you think the 
climate is changing.
    Mr. Pruitt. Well, Senator, the job of the Administrator is 
to carry out the statutes as passed by this body and to----
    Senator Sanders. Why is the climate changing?
    Mr. Pruitt. Senator, in response to the CO<INF>2</INF> 
issue, the EPA Administrator is constrained by statutes----
    Senator Sanders. I am asking you a personal opinion.
    Mr. Pruitt. My personal opinion is immaterial----
    Senator Sanders. Really?
    Mr. Pruitt [continuing]. To the job of carrying out----
    Senator Sanders. You are going to be the head of the agency 
to protect the environment, and your personal feelings about 
whether climate change is caused by human activity and carbon 
emissions are immaterial?
    Mr. Pruitt. Senator, I have acknowledged to you that the 
human activity impacts the climate.
    Senator Sanders. Impacts.
    Mr. Pruitt. Yes.
    Senator Sanders. Scientific community doesn't tell us it 
impacts; they say it is the cause of climate change, and we 
have to transform our energy system. Do you believe we have to 
transform our energy system in order to protect the planet for 
future generations?
    Mr. Pruitt. I believe the EPA has a very important role at 
regulating the emissions of CO<INF>2</INF>.
    Senator Sanders. You didn't answer my question. Do you 
believe we have to transform our energy system away from fossil 
fuel, to do what the scientific community is telling us, in 
order to make sure that this planet is healthy for our children 
and grandchildren?
    Mr. Pruitt. Senator, I believe that the Administrator has a 
very important role to perform in regulating CO<INF>2</INF>.
    Senator Sanders. Can you tell me, as I think all of us 
know, Oklahoma has been subjected to a record breaking number 
of earthquakes. Scientists say that Oklahoma is almost certain 
to have more earthquakes with heightened risk of a large quake 
probable to endure for a decade and that the cause of this is 
fracking. Picking up on Senator Harris's discussion with you, 
can you point me to any opinion that you wrote, any enforcement 
actions you took against the companies that were injecting 
waste fracking water?
    Mr. Pruitt. Senator, let me say I am very concerned about 
the connection between activity in Oklahoma and----
    Senator Sanders. And therefore you must have taken action, 
I guess. Can you tell me who you fined for doing this, if you 
are very concerned?
    Mr. Pruitt. The Corporation Commission in Oklahoma is 
vested with the jurisdiction, and they have actually acted on 
that.
    Senator Sanders. And you have made public statements 
expressing your deep concern about this.
    Mr. Pruitt. We have worked with, through our----
    Senator Sanders. You have made public statements. You are 
in a State which is seeing a record breaking number of 
earthquakes. You are the Attorney General. Obviously, you have 
stood up and said you will do everything you can to stop future 
earthquakes as a result of fracking.
    Mr. Pruitt. Senator, I have acknowledged that I am 
concerned about----
    Senator Sanders. Acknowledged that you are concerned. Your 
State is having a record number of--well, if that is the kind 
of Administrator for the EPA, your State is having a record 
breaking number of earthquakes, you acknowledge that you are 
concerned. If that is the kind of EPA Administrator you will 
be, you are not going to get my vote.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Mr. Chairman, a UC request. I ask at this 
point in the record that we reprint the Wall Street Journal op-
ed piece that was written by two outstanding scientists called 
``The Myth of the Climate Change Ninety-Seven Percent.''
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. I have a little bit of time left in my 
questioning from the first round. I just wanted to talk about 
some of the concerns I have with overregulation. Do you have 
the same concerns with the overregulation of U.S. manufacturing 
over the last 8 years? I believe we have exported manufacturing 
jobs overseas, the jobs that go with them in terms of the 
manufacturing of those goods to places like China and India 
that are going to produce those products in a less 
environmentally friendly way. Do you agree with this notion 
that this approach harms not just the environment but also our 
own U.S. economy?
    Mr. Pruitt. I believe, Senator, that it puts us in an 
economic disadvantage when we don't hear all voices in the 
rulemaking process with respect to these issues, absolutely.
    Senator Barrasso. I would also like to submit for the 
record an op-ed on CNN by Jeb Bush, saying, ``Scott Pruitt is 
ready to turn around the EPA. I cannot think of a person more 
suited to lead the Environmental Protection Agency than 
Oklahoma Attorney General Scott Pruitt. He has acknowledged 
human impact on the climate and supports a robust discussion 
about its effects and what the Government should and shouldn't 
do to address it.''
    And then also submitting for the record a report that I did 
as Ranking Member of the Subcommittee on Clean Air and Nuclear 
Safety of this Committee; this was a couple of years ago, 
called ``Red Tape Making Americans Sick.'' I put this together 
as a physician where we talk about unemployment, long-term 
unemployment increases the likelihood of hospital visits, 
illnesses, premature deaths in communities due to joblessness; 
it hurts children's health, hurts family well being, and quote 
scientists who point that the unemployment rate is well 
established as a risk factor for elevated illness and mortality 
rates in epidemiological studies performed since the 1980s. 
Additionally, there is influencing on mental disorders, on 
suicide, alcohol abuse, alcoholism. We also see it with spouse 
abuse, drug abuse.
    So that the regulations that come out of the EPA that do 
cut into employment of hardworking Americans actually 
contribute to a deterioration of their health.
    I don't know if you have any comments on that or what you 
may have seen in Oklahoma at times of unemployment.
    Mr. Pruitt. Senator, we have seen similar issues in 
Oklahoma. We have prescription drug abuse that occurs at rates 
that are unprecedented, as other parts of the country, so there 
is a similar concern that we have in Oklahoma.
    Senator Barrasso. I appreciate your patience, your honesty, 
your forthright presentation this morning. We are going to go 
to a second round. I now have about 12:45. If it is all right 
with you, Ranking Member Carper, we will come back in an hour. 
We will take an hour break and come back and resume with a 
second round of questioning at 1:45.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. The Committee is in recess.
    Mr. Pruitt. Thank you, Senator.
    [Recess.]
    Senator Barrasso. Let us resume the confirmation hearing 
for Scott Pruitt to be EPA Administrator.
    Attorney General Pruitt, let me start by saying sometimes 
you get a chance to sit down over lunch, and you say, I have 
been answering questions for over 2 and a half hours. I wish I 
had said something differently about something or other. Is 
there anything you would like to clarify?
    Mr. Pruitt. I have just one point of clarification in 
response to Senator Whitehouse's questions this morning about 
different environmental enforcement steps we have taken with 
respect to the leaky underground storage and double dipping in 
our State. I have officially initiated three cases there with 
respect to Valero, BP and Conoco. Exxon, and a number of other 
cases are still in settlement discussions. Those cases have not 
materialized in actual litigation just yet.
    Senator Barrasso. Thank you for that clarification.
    I have a couple quick questions. In the city of Cheyenne, 
Wyoming, it was discovered that trichloroethylene, a chemical 
that has been used by the military to degrease the engines of 
rocket motors, was seeping into the city's drinking water 
supply. The Army Corps of Engineers, which was in charge of a 
nearby former Atlas nuclear missile site, refused to even admit 
that the site was the cause of the pollution. I fought the 
Corps on this to do testing needing to prove what was obvious 
to everyone who looked at it. The test results showed a large 
plume coming from the Atlas site directly into the city's 
wells. The Corps is now addressing the pollution of the city's 
water supply. It is now protected through a state of the art 
water treatment facility that was installed by the Corps.
    Can you perhaps give me an example from when you served as 
Oklahoma's State Attorney General where you went after 
polluters and held them accountable in that same way?
    Mr. Pruitt. Yes, Senator. As I indicated earlier--I think 
this was indicated earlier in this morning's testimony--I 
mentioned the case with the hen producing, the CAFO. That was 
something we actually initiated. I know there was some question 
that Senator Carper raised in that regard. That was both with 
respect to Federal and State violations. We actually joined the 
State of Texas and the EPA in that enforcement action.
    I have submitted for the record, as you know, a list of 
cases where we have worked with the Wildlife Commission in 
Oklahoma, the DEQ around CERCLA matters and enforcement of our 
State laws.
    Senator Barrasso. What was troubling to many of us in the 
previous Administration was when officials within the Obama 
administration went to extraordinary lengths to avoid 
disclosing their official written communications under the 
Freedom of Information Act. This is the law that allows public 
access to Government records. For example, EPA Administrator 
Lisa Jackson, at the time, used an EPA e-mail account under the 
name of Richard Windsor, Richard Windsor, as opposed to her own 
e-mail account.
    If confirmed, will you refrain from taking any such action 
that makes it difficult or impossible for the public to access 
your official written communications under the Freedom of 
Information Act?
    Mr. Pruitt. Yes, Mr. Chairman. As I indicated in my opening 
statement, I really believe that public participation and 
transparency in rulemaking is very important. I think that 
extends to this matter as well.
    Senator Barrasso. Thank you.
    I will reserve the remainder of my time.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    As we discussed before, you are a part, I think, of at 
least three lawsuits, Mr. Pruitt; I think one is pending on the 
EPA's efforts to reduce mercury emissions from power plants. We 
know that 50 percent of our Nation's mercury emissions comes 
from power plants, not nuclear plants, but generally fossil 
fuel plants, largely coal-fired plants. We know there are more 
fish consumption advisories in the U.S. for mercury than I 
think all other contaminants combined, including in your own 
State of Oklahoma.
    If you believe that the EPA should not move forward on the 
Mercury and Air Toxics rule, how do States clean up mercury? 
What do you think are the health impacts of mercury emissions?
    Mr. Pruitt. Senator, I actually have not stated that I 
believe the EPA should not move forward on regulating mercury 
or adopting rulemaking in that regard. Our challenge was with 
regard to the process that was used in that case and how it was 
not complicit with the statutes as defined by Congress.
    There is not a statement, nor a belief that I have, that 
mercury is something that should not be regulated under section 
112 as a hazardous air pollutant, a HAP. As you know, that 
section directly deals with health concerns of our citizens. 
That is the reason why there is control technology that is very 
heightened in that statute, maximum achievable control 
technology that is required. So I believe that mercury should 
be dealt with and dealt with in a meaningful way by the EPA but 
subject to the processes this body has outlined.
    Senator Carper. Senator Lamar Alexander and I worked 
together for a number of years on Clear Skies legislation. The 
George Bush administration had proposed Clear Skies dealing 
with sulfur dioxide, nitrogen oxide, and mercury. Several 
colleagues of my own, including Senator Alexander, worked on 
legislation similar. One of the differences between what we 
proposed and the Bush administration's proposal was with 
respect to reducing the emissions of mercury. I do not recall 
exactly what the Bush proposal called for in terms of emissions 
reductions from power plants and others from mercury, but it 
was not very aggressive.
    I proposed a reduction of 80 percent over a certain number 
of years; Senator Alexander said he thought folks could do 
better than 80 percent and he proposed a 90 percent reduction 
schedule.
    We literally had here at this table witnesses from 
utilities and one witness from a trade association representing 
technology companies that focused on reducing emissions of 
harmful substances into our air and into our water. Every 
utility representative said, we cannot meet an 80 percent 
reduction in mercury. The witness from the trade association 
representing the industry which was in business just to try to 
reduce emissions like mercury said, not only can the industry 
meet those reductions over the stipulated period of time, they 
could exceed them.
    As it turns out, they exceeded them. They actually did 
better than 80 percent, actually did better than 90 percent and 
did it more quickly than I think was anticipated.
    Is that instructive to you in any way on this question? Is 
there any lesson there for you or for us from that experience?
    Mr. Pruitt. As I have indicated, Senator, I really believe 
that it is important, and it is a partnership between the EPA 
and the States. I made reference to the phrase earlier of 
national standards and neighborhood solutions. I think that 
shows the EPA can be involved and should be involved in setting 
standards and setting objective, science-based standards to 
improve air quality and protecting the health of our citizens 
but also to be a meaningful partner with the States in 
implementing those laws.
    Senator Carper. Let me just stop you there, please. I like 
to say that in adversity lies opportunity. That is not me. That 
is Albert Einstein. There is economic advantage to be gained 
from cleaning up pollution. We have seen there are companies 
that worked on mercury emissions. They make money doing that 
and starting that technology around the world. Similarly, there 
has been money made from the Diesel Emission Reduction Act, the 
American technology reducing emissions from old diesel engines.
    Do you ever give any thought to the economic gain, the 
economic advantage that can flow from developing that 
technology to reduce emissions? I actually think sometimes of 
setting regulations, clear regulations.
    I will never forget a conversation I had when we were 
working on our Clear Skies legislation addressing four 
pollutants, meeting with a bunch of utility CEOs, and talking 
about how to go forward on that issue. At the end of the 
conversation one of the utility CEOs, I think a curmudgeon-like 
older fellow. I do not remember where he was from. He said at 
the end of the day, here is what you need to do, Congress and 
the EPA. You need to tell us what the rules are going to be, 
you need to give us some time and flexibility, and you need to 
get out of the way. That was what he said. Tell us what the 
rules are going to be, give us some flexibility, and get out of 
the way.
    Do you believe that actually setting standards, whether it 
happens to be mercury reductions, CAFE standards, fuel 
efficiency requirements, that we are actually setting those 
standards, making it clear that we actually provide certainty 
and actually open a door for economic production?
    Mr. Pruitt. I do, Senator, actually.
    Senator Carper. Can you give us an example where you 
actually saw that happen, were helpful in making that happen?
    Mr. Pruitt. In Oklahoma, this is not widely known because 
we are known as an oil and gas State, but in the generation of 
electricity in our State, 17 percent of our electricity is 
generated through wind. We have had a heavy emphasis on 
renewables. That puts us in the top three in the country.
    Our Corporation Commission--I actually have obligations to 
appear before the Corporation Commission in the setting of 
rates. As utility companies are looking at modifying their 
facilities to comply with environmental statutes, there is 
great discussion about how to do that more economically and to 
achieve the air quality objectives we have under EPA and State 
mandates. I have been very involved in that process through 
that part of my office.
    Senator Carper. Thanks, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you again for being before us. Congratulations on 
your nomination.
    Mr. Pruitt. Thank you, Senator.
    Senator Capito. I think, as you can tell from this 
committee and the country is divided on a lot of the issues in 
and around involving what you are endeavoring to headline here 
at the EPA. I think understanding one another is extremely 
important. No matter how many times I might say the same thing 
and somebody else on the other side might say the same thing, 
it gives me a greater understanding of where they live and how 
they think best way to pursue environmental issues are.
    In the crowd that just joined us here after lunch are 
several coal miners who traveled all morning, have been waiting 
in the hall, and made some new friends in the audience. I want 
to thank them for coming because those are the faces of the 
issues that I try to address when we are talking about the 
different facets of the regulatory environment that we see that 
has been put forth over the last several years. This question 
is for you all.
    In my very first hearing as a United States Senator on this 
Committee, we had the Assistant Administrator, Janet McCabe. 
She came to testify about the EPA CO<INF>2</INF> rules. When I 
pressed her about why in the public meetings on the existing 
plant rules EPA had not bothered to come to West Virginia or 
for that matter any of the other States that most heavily rely 
on coal for electricity generation, this is what she said: ``We 
tried to. When we were scheduling national level meetings, we 
wanted to have those in locations where people were comfortable 
coming.''
    Mr. Attorney General, I want you to be comfortable coming 
anywhere in this country to talk about whether it is Rhode 
Island, West Virginia, or Alaska. People need to know you are 
listening, that you care, and that you are understanding the 
ramifications for the decisions that you make.
    So this did not sit very well for me. We had a meeting 
after that in Beckley, West Virginia, which is the birthplace 
of the Ranking Member. We had Bo Copley there, who was a laid-
off coal miner. He talked about all the hardships of his 
friends and neighbors. We had the county commissioner who 
talked about the loss of revenue to the county and how it was 
impacting the school systems, the real estate values, and the 
bankruptcies of all the different coal companies and people who 
had been out of work.
    I would implore you to commit today to visit West Virginia, 
both sides of West Virginia, and talk to our coal miners and 
their families to talk about the job and economic impacts and 
how we can work together with both sides to try to get to the 
intended goal of cleaner air and cleaner water.
    Mr. Pruitt. Senator, I really appreciate you sharing that. 
That is the reason I mentioned in my opening statement the 
importance of listening and leading. This process I have been a 
part of obviously is very new, but I spent time with each of 
you, many of you, in individual meetings. Senator Gillibrand 
talked about issues important to her around CERCLA. You cited 
concerns and issues that are important to you in West Virginia. 
I think it is very important, if confirmed as Administrator, 
that I spend time responding, learning, and listening to you 
and your respective States and trying to be helpful with regard 
to the environmental issues you face.
    Senator Capito. Thank you. That means a lot.
    I would like to get some clarification on a topic has been 
coming up about how many times you, as Attorney General, sued 
the EPA. You began your statement by saying the rule of law is 
very important to you. Then you talked about several of the 
cases, and probably most of the cases you brought forward as 
not challenging the regulations so much as the process or 
whether the rule of law has been overstepped and the boundaries 
of the EPA has been the intent of Congress by legislating to 
the EPA, has been overstepped. The courts have agreed, in some 
cases, that this is the case.
    Could you kind of restate that position on the different 
actions?
    Mr. Pruitt. Senator, as I indicated I think in response to 
Senator Sullivan, probably more so than most statutes that are 
passed by Congress, this body has recognized the very important 
and vibrant role the States play in partnership with the EPA in 
implementing and enforcing our environmental statutes. Many of 
you talked about that in your offices and how your DEQ works 
with the Regional Administrator.
    So when we talk about rule of law, as you deal with 
mercury, as you deal with CO<INF>2</INF>, as you deal with 
water issues around WOTUS and the definition in those cases, it 
is important that you do so consistent with the framework that 
has been established by this body and that it is respected. 
That gives confidence to the people that are regulating it.
    When you have an administrative agency of any type that 
acts inconsistent or tries to enlarge its authority, it does 
not inspire confidence in those that are regulated. You are 
seeing a matter of picking winners and losers and being against 
certain things as opposed to protecting people. That rule of 
law is not something that is academic in my view. It is not 
something that is just legal; I think it is important to 
ensuring good outcomes as far as improving our air and 
protecting our waters.
    Senator Capito. Thank you.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Mr. Pruitt, when we left off, we were talking about things 
that, to quote the Chairman, ``might place you in a conflict of 
interest but have not been disclosed.'' We were talking about 
the dark money operation that supports the Republican Attorney 
Generals Association.
    Before we get back into that, let me ask you this as a 
hypothetical. If you had raised significant amounts of money 
for the Rule of Law Defense Fund from corporations who will be 
subject to EPA's regulation, before EPA, with matters before 
EPA, might that place you in a conflict of interest?
    Mr. Pruitt. The EPA Ethics Counsel has said--by the way 
these are career individuals as you know, Senator. Justina Fugh 
is a career person at EPA Ethics. So as they have reviewed 
these potential conflicts, I have disclosed all entities I have 
been affiliated with.
    Senator Whitehouse. I understand that, but I am asking you 
if you think it might place you in a conflict of interest, 
because we both understand that the ethics rules that the EPA 
is enforcing predate Citizens United, predate dark money. They 
have said in the letter that they are not even looking at that 
because they do not have the authority to. That does not mean 
it is not a conflict of interest. It means that the regulatory 
authority on Government ethics has not caught up with this 
post-Citizens United, dark money world.
    My question is, you are a lawyer; you know conflicts of 
interest. You have been an Attorney General. Might it be a 
conflict of interest within your definition of the term if you 
had raised significant amounts of money for this Rule of Law 
Defense Fund, and they will have business before EPA with you? 
Is that a potential conflict of interest?
    Mr. Pruitt. I think if you actually did address those 
entities to the degree that I was never an officer of the super 
PAC you are referred to earlier, the Liberty 2.0.
    Senator Whitehouse. The question was fund raising. That is 
the question we do not have any answers on, is what you raised.
    Mr. Pruitt. They looked at those entities to determine the 
nature of my relationship and indicated those would have to be 
evaluated in the future as certain cases arose.
    Senator Whitehouse. Right now, the Chairman asked you a 
question which is, are there matters that might place you in a 
conflict of interest that you have not disclosed. You answered 
no.
    Might not having raised significant money, let's say $1 
million. Let's say you made a call to Devon Energy and said, I 
did your letter for you. RAGA needs a lot of money. We have 
this dark money thing where we can launder your identity, clean 
off it, and the money will go into RAGA. I need $1 million out 
of you. Might that not create a conflict of interest for you if 
that were the facts?
    Mr. Pruitt. Ms. Fugh has indicated in her letter to me--
again, these are career individuals at EPA Ethics--that if 
particular matters involving specific parties arise in the 
future, it will be evaluated at that point.
    Senator Whitehouse. How will they know if you are not 
willing to disclose that you raised a hypothetical $1 million 
from Devon Energy?
    Mr. Pruitt. Those aren't even covered entities under her 
letter at this point.
    Senator Whitehouse. That is my point. That may very well 
create a conflict of interest, mightn't it?
    Mr. Pruitt. Senator, I did not serve in an office or 
capacity at that entity in any way.
    Senator Whitehouse. That also is not the question. The 
question is a very simple one. Did you raise money for the Rule 
of Law Defense Fund, front entities that will appear before EPA 
as potential defendants in subjects of regulation? If so, how 
much, and what did you tell them, and what did you ask? It 
seems to me that is not an unusual or----
    Mr. Pruitt. The Rule of Law Defense Fund, according to Ms. 
Fugh, would need to be a party in the future for that to be an 
issue. That is what she has indicated in her letter to me. At 
the time--if it should arise in the future, I will seek the 
counsel of EPA Ethics and follow the advice of those career 
folks to make a decision and recuse if necessary. That is 
something I commit to doing.
    Senator Whitehouse. At this point, what I deduce from your 
statement is that if that set of hypothetical facts were true, 
if you had raised $1 million from a big energy corporation to 
go through the Rule of Law Defense Fund to support your efforts 
at RAGA, that is not something anybody should care about, even 
if that corporation is before you at EPA and subject to your 
regulation?
    Mr. Pruitt. I think it is something that if presented in 
the future, Justina Fugh, myself, and EPA Ethics would evaluate 
that, and I would take the appropriate steps to recuse if they 
told me to do so.
    Senator Whitehouse. But how would it be presented in the 
future if you are not willing to present it now? Why does it 
matter in the future and not now?
    Mr. Pruitt. If there is a matter or case that comes before 
the EPA's authority, that would be something. There is ongoing, 
as you know, Senator, Ms. Fugh indicated this in her letter; 
there are ongoing obligations that I will have, if confirmed as 
Administrator, to bring those kinds of matters to the attention 
of EPA Ethics.
    Senator Whitehouse. For what it is worth, I think the 
Senate has a role in policing this as well, that the whole 
purpose of advise and consent and the reason there are these 
Government ethics filings is so we can look at this exact 
question. The fact they haven't been updated to take into 
account dark money and all these big political organizations 
that have been created with dark money doesn't take away our 
Senate obligation to find out what conflicts of interest you 
will bring to the position of Administrator. It gives me very 
little comfort that you are not willing to answer those 
questions here.
    My time has expired. I will continue in another round.
    Senator Barrasso. Thank you very much, Senator Whitehouse.
    I would like to introduce for the record an article in the 
Associated Press in the Seattle Times headlined, ``Ethics 
Officials Clear Trump EPA Nominee.'' It says, ``The Office of 
Government Ethics on Monday released the personal financial 
disclosure report for Scott Pruitt, currently Oklahoma's 
Attorney General. The Ethics Office affirmed that Pruitt's 
disclosures comply with applicable Federal laws and rules.'' 
``His finances,'' it says, ``are among the least complicated of 
Trump's Cabinet nominees.''
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    I really do find it ironic and hypocritical that we are in 
a situation that my friends on the other side of the aisle in 
this Committee, using their definition of dark money as elected 
officials, have literally raised millions of dollars of so-
called dark money.
    I'd like to talk a little bit about some of the over-
regulatory burden that the States are facing. Air quality in 
Arkansas is among some of the cleanest in the Nation. Despite 
the progress that the State has made in looking forward, trying 
to do the right thing, the Regional Haze Federal Plan is going 
to produce a tremendous economic burden on them.
    I think it is a prime example of the haphazard regulatory 
atmosphere that we have had in the past with little input from 
the States and stakeholders. For years the regulatory 
uncertainty has prevented businesses from hiring new employees 
and stunting economic growth. In fact information from the 
National Small Business Association that was just released 
found that more than half of small businesses have held off on 
hiring because they don't know what the rules are going to be.
    You have mentioned it several times. Can you talk a little 
bit more about the impact that you have seen in regard to 
regulatory uncertainty in the State of Oklahoma and the 
experiences you have had?
    Mr. Pruitt. Senator, the Visibility Program--we have had 
similar challenges in Oklahoma. The Regional Haze Program under 
the Clean Air Act, that section of the Clean Air Act is really 
quite a bit different than other provisions of the Clean Air 
Act. It gives primacy to the States in adopting plans to 
increase or improve visibility.
    That particular section of the law says by the year 2064 we 
should have natural visibility in some key areas across the 
country. Oklahoma several years ago, actually in 2010 under a 
different Administration, both Governor and Attorney General 
submitted a State implementation plan that beat that deadline 
by decades. Despite that the EPA came in and rejected that 
State implementation plan and forced a Federal implementation 
plan on the State, costing the consumers quite a bit of money.
    One thing I would add that I didn't talk about earlier is 
we talked about cooperative federalism and the importance of 
partnership. I have talked about that; you've talked about 
that. Under this past Administration the use of Federal 
implementation plans, if you combine President Bush, President 
Clinton, and President George W. Bush, those three 
Administrations combined issued five Federal implementation 
plans under the Clean Air Act in three Administrations. This 
Administration has issued 56. So it shows an attitude of 
indifference, an attitude of trying to be dictatorial in some 
respects toward the State's role or manipulative of the State's 
role in a way that is, I think, counterproductive for air 
quality.
    Senator Boozman. When you and fellow Attorney Generals and 
other stakeholders sue the Federal Government, whether it is 
regional haze or waters of the U.S. or whatever, your goal is 
not to do away with the regulation; your goal is to make it 
such that the EPA follows their regulatory authority, is that 
correct?
    Mr. Pruitt. Yes, Senator. In that example I provided to you 
where the State implementation plan of Oklahoma that was 
rejected, we actually satisfied the statutory mandate that was 
under the regionalized program. We reached natural visibility a 
couple of decades ahead of schedule. The methodology that was 
used, the EPA simply disagreed with it. So they used their 
authority to displace the State plan costing consumers in the 
State hundreds of millions of dollars in increased utility 
costs.
    Senator Boozman. One of the things I think we have also 
seen in the last 8 years is tremendous mission creep on the 
part of the EPA where they have gotten into areas where they 
don't have the expertise. I think expertise would be the best 
word in regard to coming out with some of the things they have 
done where they lack jurisdiction and haven't really been in 
the past.
    Can we count on you to work with the other agencies and 
take their expertise into careful consideration as we come out 
with the rules and regulations?
    Mr. Pruitt. I think interagency cooperation is very, very 
important. Obviously with rulemaking, that is something that 
occurs and should occur, I think, in a very collaborative way. 
So yes, Senator, I believe it is very important as the EPA 
conducts its business that it works with the Corps and works 
with other agencies at the Federal level to ensure that it is 
doing all it can to advance and protect water quality and air 
quality and do so within the framework established by Congress.
    Senator Boozman. Does it feel like it is the ultimate 
decider again when they sometimes do not have the expertise of 
the other agency?
    Mr. Pruitt. Yes, Senator. I agree.
    Senator Boozman. Thank you.
    Mr. Pruitt. Thank you.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    Mr. Pruitt, are you familiar with this piece of medical 
equipment?
    Mr. Pruitt. Yes, an inhaler, it looks like.
    Senator Merkley. Yes, an asthma inhaler. Are you familiar 
with how many Americans have asthma?
    Mr. Pruitt. No, Senator, I am not.
    Senator Merkley. It's about 1 out of 10 Americans, 
including over 7 million children. It is a pretty significant 
health problem across the country. I know I have been fortunate 
not to have asthma, but some folks I know who have it and have 
asthma attacks feel like they are suffocating. Sometimes they 
go into crisis. People go into crisis with asthma. Sometimes 
they die from it. It is a terrifying condition.
    The EPA, in October 2015, strengthened the National Ambient 
Air Quality Standards for ground level ozone. They strengthened 
it to 70 ppb, adjusting it from 75 ppb, because they argued 
that it was an attainable standard that would save $3 billion 
to $6 billion and in addition, of course, greatly improve the 
quality of life by diminishing the amount of asthma attacks and 
deaths.
    You challenged this. You launched a lawsuit against this 
standard. Was the basis of your lawsuit cost benefit analysis, 
that they didn't follow their process?
    Mr. Pruitt. It was not, Senator. As you know, under the 
NAAQS Program, the Whitman decision, cause cannot be considered 
in a criteria pollutant.
    Senator Merkley. What was the standard you were 
challenging?
    Mr. Pruitt. It was a records-based challenge that the need 
to ratchet down from 75 parts per billion to 70 parts per 
billion. As you know, the 75 parts per billion had only been in 
operation for 2 years. I think, Senator, it is important from a 
priority perspective or the resource perspective of the EPA 
when 40 percent of the country is in nonattainment for one of 
those criteria pollutants, perhaps there should be focus on how 
to meet the level already in statute or already in rule.
    Senator Merkley. So you challenged this based on the 
attainability standard? I already know that----
    Mr. Pruitt. The records-based challenge, yes.
    Senator Merkley. Yes, the attainability standard. There 
were numerous groups that weighed in and said no, this is 
totally attainable. I will submit a list for the record of 
that, Mr. Chairman.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Merkley. The key to this is that by implementing 
that, by the time it is implemented, it would save annually 
230,000--an estimate of course--asthma attacks among children, 
160,000 missed school days, a tremendous number of missed work 
days, 630 emergency room visits, and 340 cases of acute 
bronchitis. But it also would save, best estimate, 320 to 660 
premature deaths.
    Here is something that profoundly affects the health of 
folks in Oklahoma, folks across the country, folks in my home 
State of Oregon, something that expert after expert said is 
fully attainable, and you challenged it not on a process issue, 
that is not on whether or not there was a cost-benefit analysis 
because as you rightly pointed out, cost is not allowed to be a 
factor, but whether it was attainable. Why fight so hard on the 
side of the oil industry rather than fighting on the side of 
the health of the people of Oklahoma?
    Mr. Pruitt. Senator, let me say to you with respect to the 
NAAQS Program, when you look at the nonattainment we have in 
this country, it is presently around 40 percent, I think 
increasing the nonattainment percentage as opposed to focusing 
resources to get nonattainment into attainment is a very 
important role of the EPA. We should be taking those marginal 
and moderate areas on our map that are in nonattainment and 
work with local officials, those counties, through monitoring 
and assistance to help move from nonattainment to attainment. 
That is a very important goal of the EPA in each of these 
criteria.
    Senator Merkley. Thank you. You have made your point clear. 
I just simply disagree with you. None of these standards, when 
they are set, are attained. That is the point. It is an 
objective to be worked at over time. There was a strategy that 
this might take until 2025 to be fully implemented.
    But in the course of laying out that vision and having 
folks across the country work toward that vision, you end up 
saving a tremendous amount of money and a tremendous amount of 
lives. I, as a Senator from Oregon, fighting for the quality of 
life of Oregonians, deeply resent folks fighting for oil 
industry that are trying to damage the health of my 
constituents and Americans across this country. It is a 
question of values and valuing profits of companies over the 
health of our citizens, it is a character issue, and that is 
what these hearings are all about. We are charged with Hamilton 
to determine whether or not an individual is of fit character. 
To me this is a character issue, valuing profits over people's 
health.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you, Senator Merkley.
    I am submitting for the record a report by the National 
Black Chamber of Commerce titled Potential Impact of Proposed 
EPA Regulations on Low Income Groups and Minorities. The report 
goes from 2015 and goes on to say that EPA regulations, 
including its regulation on carbon dioxide emissions, would 
result in the year 2020 in nearly 200,000 black jobs would be 
lost, and more than 300,000 Hispanic jobs would be lost. 
Additionally, commensurate with this, there would be median 
household income significant decreases throughout the 
communities listed in the report.
    [The referenced report follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman. Here we go again 
on round two.
    I am happy that we have an opportunity to continue 
questioning with you, General Pruitt.
    Nebraska, much like Oklahoma, is a rural State. In many 
cases the closest town or the neighbor can be located miles and 
sometimes hours away. In Nebraska one in four jobs is directly 
tied to production agriculture. Under this Administration 
farmers and ranchers felt especially targeted by the EPA. For 
example, in 2011 and 2012 EPA Region 7 conducted aerial 
surveillance or flyovers of feed yards in my State. While 
flying over my State EPA documented these facilities with 
photographs.
    This was very disconcerting to me given that many livestock 
producers in Nebraska also live and raise their families on 
these properties. Not only were these producers not informed 
beforehand but the EPA has already delegated the authority to 
carry out the Clean Water Act in Nebraska to the State 
Department of Environmental Quality.
    What will you do to ensure that the EPA sticks to its core 
mission? Furthermore, how will you work with the regulated 
community, including agriculture, to build trust among 
constituencies that have been, I would say, the subject of 
bullying tactics by this EPA that we have now?
    Mr. Pruitt. Senator, I indicated in my opening statement 
some core themes, if confirmed as Administrator, that I would 
seek to comply with. One is public participation, full 
participation to ensure that all voices are heard as the EPA 
conducts its activities with respect to rulemaking 
particularly. I think perhaps what you are referring to is the 
lack of that voice or opportunity in the last several years. So 
I would work to build a collaborative relationship with those 
States. As I have indicated I think the Departments of 
Environmental Quality at the State level are valuable partners, 
that we need to restore their confidence in the partnership 
with the EPA and then seek to listen to the community concerns 
in addressing and responding to environmental issues.
    Senator Fischer. Thank you.
    In one of her exit interviews, EPA Administrator Gina 
McCarthy has admitted that she has had a bad relationship with 
agriculture and with the agriculture community. She listed it 
as one of her regrets. I think a bad relationship is an 
understatement in this case.
    This Administration's EPA philosophy is diametrically 
opposed to the idea that farmers can be good stewards of our 
land, our water, our environment. Instead, it seemed that this 
Administration's EPA wanted to regulate. In some cases, it 
looked like they wanted to prevent farming. The agriculture 
community is looking forward to a new leadership at the EPA and 
working with you.
    Mr. Chairman, I have here some statements from agriculture 
officials and groups I would like inserted into the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    
    Senator Fischer. If I may, I would close by quoting a few 
of those. Jim Reese, the Oklahoma Secretary of Agriculture, 
says that ``Scott Pruitt will continue EPA's efforts to protect 
our environment but with respect toward landowners, taxpayers, 
municipalities, businesses, and Congress.'' That is nice to 
hear, sir.
    Troy Stowater, Nebraska Cattlemen president, stated, 
``Simply put, Mr. Pruitt sees clearly that agriculture and 
environment are not opposing terms, but rather they are 
complementary. He will work to cultivate the relationships 
which will lead to the United States leading in food and fiber 
production while improving the environment in which it is 
accomplished.'' Again, I am happy to look forward to that 
relationship being established again so that all parts of our 
society here in this country can participate and receive the 
recognition that we are good stewards of the land.
    If confirmed, what will be your relationship with the 
agriculture community? Are you going to enforce current laws 
and will you also respect the limits that we have on those 
laws?
    Mr. Pruitt. Yes, on both counts, Senator, and also the 
theme I mentioned in my opening statement that I would 
highlight again, is that we need to reject this paradigm that 
if you are pro-energy, you are anti-environment or if you are 
pro-environment; you are anti-energy. I believe that we, as a 
country, have demonstrated that, and we have made great 
progress since the 1970s in improving our air quality and 
protecting our waters. We can grow an economy and also protect 
and be a good steward of our environment. We need to restore 
that proper balance and commitment to both as we seek to do our 
job.
    Senator Fischer. Thank you. As I said earlier, every member 
of this Committee believes in clean air and clean water. We 
want an environment that is respected where we can manage our 
natural resources in a responsible manner. Thank you, sir.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Pruitt, I want to try to get your understanding. I 
heard you say that you wanted to see the regulations and the 
laws predictable so that stakeholders know exactly what is 
required so there is no confusion.
    I want to concentrate on the waters of the U.S. because 
ever since the Supreme Court decisions there has been an 
uncertainty as to what waters are, in fact, subject to 
regulation by the Federal Government and what waters are not. 
Do you believe that priority should be set by statute or should 
it be set by regulations from the EPA?
    Mr. Pruitt. Senator, I think that is a great question. If 
you look at the series of cases going back to Bayview all the 
way to Rapanos, I think you are exactly right. The definition 
in the Clean Water Act says that navigable waters are waters of 
the United States. That doesn't provide a great deal of clarity 
to those that administer the law. I think the EPA taking steps 
to provide clarity is important absent Congress responding. I 
think that perhaps there is a time and place for Article 1 
response, congressional response, to what this body means when 
it says navigable waters are waters of the United States.
    Senator Cardin. Of course, the Congress, for whatever 
reasons, for a long period of time, has not been able to 
respond as to what we think the definition of the waters of the 
U.S. should be. The Administration did come forward with 
proposed regulations which were resisted by many of the 
stakeholders that you are aware of.
    How would you define the waters of the U.S.? What was wrong 
in the regulation? I don't want to go through all the details. 
Tell me, where do you think we should regulate? You already 
said more than just navigable. How do we define it? How do you 
do it? What did the Administration do wrong?
    Mr. Pruitt. The challenge up until now with respect to the 
current rule, this involves actually an air case, the UARG 
case, where Justice Scalia talked about the counterbalance to 
Massachusetts v. EPA where the steps taken by the EPA to take 
the endangerment finding in 2009 that dealt with title II 
mobile sources and then link that over the PSD Program was 
something Justice Scalia said transformed the statute and was 
not lawful or constitutional.
    I think the same thing perhaps is going on with the current 
rule. When you are classifying dry creek beds in southeast 
Oklahoma that are dry 90 percent of the year as a water of the 
United States, that clearly is something that is----
    Senator Cardin. The Administration, in its regulation, had 
certain exceptions that tried to deal with that. You obviously 
didn't think those exceptions were clear enough.
    Mr. Pruitt. Actually, the Sixth Circuit said that those 
clarifications were not sufficient. I would agree with you, 
Senator Cardin, that I believe the clarity around this 
definition, the jurisdiction of the EPA, is essential to get 
right and to address. As I indicated earlier to some questions, 
the Supreme Court has actually taken up a matter from last 
Friday; it is more jurisdictional and not merit-based. But the 
response by Congress, the response to provide clarity, perhaps 
is a very important step to take.
    Senator Cardin. I want to pursue this. I think we have 
asked questions for the record as to specific provisions you 
believe should be in that rule that would be different than the 
proposed rule. I would appreciate a response to that so we can 
try to see where we are heading in your thought process as to 
how you define the regulated waters of the U.S. That would be 
helpful to us.
    Mr. Pruitt. I think, Senator, the reason that is difficult, 
as you know, is because in that process, whatever process that 
would take place, that would be rulemaking which means there 
would be comment.
    Senator Cardin. I understand that. I am not trying to get 
every I dotted and every T. I just want to get your philosophy 
as to where the waters of the U.S. lines would be drawn and 
where you took exception to the regulatory efforts of the Obama 
administration.
    Let me get to the second point, if I might, on fracking. 
Fracking is an interesting area because it is State-regulated 
principally. There are very few Federal regulations. My State 
has gas deposits that could be subject to fracking. 
Pennsylvania, our neighboring State, has done that. There have 
been some problems with pollution of water. We know about the 
gas releases that have already been talked about. There is some 
concern particularly with deep well drilling that when you 
inject the fluids back into the cavities, that it may cause 
instability. In your State, I know there were a lot of 
earthquakes, and there has been talk about whether these 
earthquakes were motivated by the fracking activities or not.
    How well have the States regulated fracking? Where do you 
see the Federal role should be in protecting our environment 
from fracking?
    Mr. Pruitt. I am glad you mentioned the State role because 
we actually have been regulating hydraulic fracturing in 
Oklahoma since the late 1940s, early 1950s. It is not a new 
process. Horizontal drilling is, but the hydraulic fracturing 
process is not. Many States have been very aggressive in 
regulating it for a number of decades.
    With response to the seismicity issue you are talking 
about, the earthquakes in Oklahoma, the Corporation Commission 
has actually declared off limits certain drilling activity in 
hot spots already. They have taken a very aggressive approach. 
I, too, share their concern. I have been in conversation with 
the commissioners at the Corporation Commission; that is who 
has jurisdiction in this matter. They have taken very 
meaningful steps to declare off limits certain drilling 
activity to try to see if it will help reduce the number of 
earthquakes happening in Oklahoma. It has helped.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I have two unanimous consent requests, so don't start my 
clock yet.
    One is I really believe, and perhaps am overly sensitive to 
this, that Mr. Pruitt's integrity has been put into question 
with the accusations of contributions to his campaign. I would 
like to keep in mind that the oil industry is a huge industry 
in my State of Oklahoma. They have things called PACs where the 
middle income people will say yes, they support me also.
    I think we need to have in the record that there are some 
things that are going on that should not be going on. This 
affects the Democrats and not the Republicans. There is a guy 
named Tom Steyer, I want to put this in the record, who 
actually said he was going to put $100 million into campaigns 
of individuals talking about global warming and what he 
expected. In 2014 he didn't do that. He only put in $75 million 
of his own money. In 2016 he was the largest contributor 
putting in $86 million of his own money. I am not going to read 
this because it does reflect the names of people who are at 
this dais.
    I ask unanimous consent that this be entered into the 
record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Inhofe. The other thing----
    Senator Carper. I'd like to object. I'd like to ask for 
clarification from my friend from Oklahoma. The moneys that you 
are referring to, were those donations that were disclosed, 
fully disclosed?
    Senator Inhofe. Oh, yes, I believe they were.
    Senator Carper. Then that does not sound like dark money to 
me.
    Senator Inhofe. All right.
    On the last question that Mr. Pruitt concerning the 
earthquakes, I'd like to make this a part of the record because 
it will surprise you guys that the Oklahoma Corporation 
Commission has really focused in on this thing and talked about 
it. This is wastewater in disposal wells that we are concerned 
with. They clamped down on it, and you are exactly right in 
your response to the question except you didn't go far enough. 
In 2016 they actually reduced the earthquakes by 31 percent.
    So we are doing, in the State of Oklahoma, something that 
we have been complimented about, the fact we are taking these 
actions. I'd like to make this a part of the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Inhofe. The other thing I want to bring out, and I 
have done this before, but I wasn't going to do it until people 
kept talking about the science is settled, the science is 
settled, the science is settled. I know people want to believe 
that.
    I remember so well--every year the U.N. has a big party, 
and they invite everyone to come in. I was going to go to 
Copenhagen to be the one-man truth squad which I did and went 
over there. But during that time, right before I left, I asked 
the Administrator of the EPA--the job I believe you are going 
to have--Lisa Jackson, I said I have a feeling once I leave 
town you are going to come up with an endangerment finding, and 
you are going to give your justification for getting involved 
in this issue. She smiled so I could tell it was true. I said, 
when you do this, it has to be based on science. Tell me the 
science that you are going to use for this. She said, well, the 
IPCC, the Intergovernmental Panel on Climate Change.
    Now, as luck would have it--my luck and not theirs--right 
after that is when ClimateGate came. That's when it was 
disclosed that the individuals, the scientists in IPCC rigged 
the numbers and came up with such an outrageous lie in terms of 
what causes global warming, all of that. I will just read a 
couple of them. One of the physicists in the IPCC said 
``ClimateGate was a fraud on a scale I have never seen 
before.'' Clive Cooke with the Financial Times said ``The 
closed-mindedness of these supposed men of science is 
surprising even to me. The stink of intellectual corruption is 
overpowering.'' The U.K. Telegraph--that is one of the largest 
publications in the UK--said, ``It's the worse scientific 
scandal of our generation.'' Nobody talks about that but that 
is the science they are talking about. I really believe it is 
necessary to have that as a part of this record of this 
meeting.
    General Pruitt, in 2012, the EPA and the National Highway 
Traffic Safety Administration issued updated fuel economy 
standards that were result of a compromise. That compromise was 
between the Obama administration, the automakers, and the State 
of California. Part of this deal required a review of these 
regulations in 2018 before--these are their words and not 
mine--any new standards were put in place. After losing the 
election, however, the Obama administration broke the deal by 
prematurely issuing new regulations. This decision was made 
unexpectedly and well over a year before the EPA said they 
would make the determination. This shortened the timeframe and 
process, and this is concerning.
    Mr. Chairman, I do ask unanimous consent that the previous 
EPA timeline for the expected action on the midterm review be 
included in the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Inhofe. Attorney General Pruitt, as Administrator, 
will you look into this matter to see whether this extreme 
action was appropriate or a hasty political decision?
    Mr. Pruitt. Senator, as you indicated, the obligation was 
to meet the November 2018 midterm review. I think the study 
that was completed was finished December 30, and they issued 
their findings within 14 days. That time period is something I 
am not sure normally happens as far as the time, the velocity 
of 14 days, but it merits review. I would review that, yes.
    Senator Inhofe. The follow up question would be, would you 
commit to sitting down with the Transportation Secretary, 
Elaine Chao? I have already talked to her about this, 
incidentally. Both will be confirmed, I am convinced, and you 
are working to address the impacts of the EPA's decision on 
automobile manufacturers and consumers. Will you work with her 
on that issue?
    Mr. Pruitt. Absolutely.
    Senator Inhofe. Very good.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Booker.
    Senator Booker. Thank you very much.
    Thank you, Mr. Pruitt. I want to jump into one of the areas 
that you said is a principal part of one of your achievements. 
In your opening statement, you said that as Attorney General 
you were confronted with an important water quality issue on 
the scenic Illinois River, the high phosphorus levels that were 
causing a range of problems that come from the manure 
principally from farm animals. You go on to state that this was 
a historic agreement to clean up the river. It was in your 
opening statement and a number of the other documents that you 
provided.
    You also described the agreement with Arkansas as an 
important agreement to reduce the pollution again that was the 
result from poultry growers that was ``occurring as a result of 
pollution from poultry growers.'' Are you familiar with this?
    Mr. Pruitt. Yes, also discharge from municipalities in 
northwest Arkansas as well.
    Senator Booker. I think that is an important point, yes. I 
would like to ask you some questions about this, but I think it 
is important. I really dug into this and did some research. I 
want to go through with my colleagues what the fact pattern is 
that led to this moment where you intervened.
    It really starts with a Supreme Court decision way back in 
1992, Arkansas v. Oklahoma. I imagine you are familiar with 
this Supreme Court decision that resolved the lawsuit between 
these two States that held that basically upriver States, such 
as Arkansas, must comply with water quality standards adopted 
by downriver States and then approved by the EPA. You are 
familiar with that?
    Mr. Pruitt. I am familiar with the litigation, yes.
    Senator Booker. After that Supreme Court decision effective 
July 1, 2002, Oklahoma actually did adopt a .037 water quality 
standard for phosphorus. Importantly, they gave a decade, 10-
year phase-in period before full compliance was required. Then 
in 2003 your predecessor, Drew Edmondson, negotiated an 
agreement with Arkansas, which I have read, called the 
Statement of Joint Principles and Actions. Mr. Chairman, I'd 
like to enter that into the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Senator Booker. In 2003, to give more teeth to this--this 
goes to what you were saying about municipalities--it created 
phosphorus limits for municipal discharges. That 2003 agreement 
that I have also read through also states that Oklahoma will 
reevaluate the .037 criteria for total phosphorus in Oklahoma's 
rivers by 2012.
    Then--this is the big part--in accordance with the 
instructions, the mandates of the Supreme Court, the EPA gave 
its approval to Oklahoma's .037 phosphorus standard. This was 
critical because under the Supreme Court decision, now Oklahoma 
had a water quality standard approved by the EPA that was now 
enforceable against up-States like Arkansas.
    Let's fast forward to April 2012. Oklahoma's Water 
Resources Board reviewed the best scientific information 
available in 2012. It reevaluated and reaffirmed the .037 
phosphorus standard.
    Mr. Chairman, I want to put in an executive summary of that 
review.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
      
    Senator Booker. Then on June 30th, 2012, the 10-year phase-
in going back to the Supreme Court decision, the actions by 
Oklahoma, the 10-year phase-in period was completed in full 
compliance and the .037 became required. It became now what was 
required by the States.
    Just to recap all of this, because it is a lot, 20 years, 
Oklahoma's EPA approved a .037 phosphorus standard more than 
two decades in the making. It had just been reaffirmed by the 
Oklahoma Water Resources Board, and then the 10-year compliance 
period phase-in had expired.
    So when you said that you had entered into a second 
agreement with Arkansas that in your words was a historic 
agreement to clean up the river, that would reduce pollution 
from poultry growers, this is the question that I have, 
sincerely, I pulled that 2013 agreement and read it, and it was 
stunning to see that it actually didn't take any steps to 
reduce pollution but actually only proposes another unnecessary 
study and attempts to suspend compliance that was two decades 
in the making with the .037 standard. It suspended compliance 
for yet another 3 years of pollution.
    Isn't it true that is what the agreement did?
    Mr. Pruitt. It isn't, Senator. There was actually no 
enforcement of the .037 standard taking place on Arkansas' side 
of the border. You referred to the Memorandum of Understanding, 
and I actually have the second Statement of Principles here 
before me as well, that expired in the 2012-2013 timeframe. 
That is what presented my office with the opportunity to go to 
Arkansas to ensure that the .037 standard would actually be 
enforced from a State law perspective on that side of the 
border. That had never taken place in history.
    You mentioned the EPA. There was no enforcement authority 
that had taken place on that phosphorus level by the EPA. 
Oklahoma had it, as you have indicated, as a standard, but it 
was not being enforced upstream in Arkansas. That is what the 
agreement addresses.
    Senator Booker. Mr. Pruitt, I don't have the seniority or 
the stature or the grandchildren of Senator Inhofe so I can't 
go over my time, but I will say this. In my next round, I will 
go back into this, because the documents don't seem consistent 
at all with what you are saying. In my next round of 
questioning, I'd like to go a little bit deeper into this 
historic settlement.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Booker.
    I would introduce for the record an article that appeared 
in the Tulsa World this past January 12th, 2017, going way 
beyond the 20 years of that panel, but 33 years. It is by Ed 
Fite who served as the agency administrator of the Oklahoma 
Scenic Rivers Commission from September 1983 until June 2016, 
33 years. His statement in this op-ed that he wrote is, ``I 
have found that Pruitt has always done right by our scenic 
rivers. For the first time ever, he has gotten the State of 
Arkansas, which happens to have parts of the streams we have 
designated as scenic rivers originating in and flowing through 
their State, to agree to Oklahoma's scenic rivers phosphorus 
standard, an incredible environmental accomplishment, the 
effect of which cannot be understated.''
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Attorney General Pruitt, in August 2016 the EPA Inspector 
General found the EPA had failed to follow through with its 
commitment to update its 2010 life cycle analysis for corn 
ethanol and has also failed to perform its legally required 
comprehensive study on the environmental effects of the RFS, 
the Renewable Fuel Standard. EPA's information on ethanol's 
life cycle emissions is inaccurate, and it is outdated. Today's 
best available science shows that blending ethanol into 
gasoline can significantly reduce greenhouse gases. However, 
the EPA has failed to update its own science with the most 
recent, best science that is available and continues to rely on 
outdated, inaccurate science when setting national policy, 
regulatory biofuels policy.
    What are your thoughts on the EPA relying on outdated, 
inaccurate science to set Federal regulatory policy?
    Mr. Pruitt. Senator, I think it is the obligation of the 
EPA in taking steps, rulemaking and otherwise, to ensure that 
it has the most up to date, objective scientific data possible.
    Senator Rounds. Let me follow up a little bit. The current 
EPA process for considering the scientific information 
underpinning major regulations, I believe, is flawed, and it is 
unbalanced. For example, the Scientific Advisory Board, or the 
SAB, is to provide scientific advice to the EPA Administrator 
and Congress. But there is a significant lack of geographic 
diversity in State, local, and tribal representation on the 
SAB.
    Can you explain to us what your views are on the agency 
science and what you envision as the role of agency science at 
the EPA?
    Mr. Pruitt. Senator, as you and I talked about in our 
meeting, I think it is important to have that geographical 
representation better represented, and there are some conflicts 
of interest application with the Science Advisory Board that 
need to be addressed as well, and also with the Clean Air 
Science Advisory Committee, which is a standing committee of 
the Science Advisory Board.
    Senator Rounds. I have got a chart that shows the 
geographic makeup of the 2015 chartered SAB. Of the 54 members 
the majority of them come from East or West Coast States. I 
also have a chart that shows the number of States that have 
government representatives on the SAB.
    How would you broaden the geographic scope of SAB members 
to make certain that States and various governmental entities 
are represented? The one on the left shows the lack of 
diversity with regard to the actual members on the board. The 
one on the right actually shows that we have a grand total of 
two States with representation for State and local units of 
government on those boards.
    Mr. Pruitt. Senator, if confirmed, it is an issue as I have 
indicated, and we talked about in your office, that is 
important to address to ensure there is confidence that science 
is driving rulemaking, that it is objective and tethered to the 
rules adopted by the EPA. So this is a very important issue 
that needs to be evaluated and discussed to ensure the efficacy 
of the science that occurs at the EPA.
    Senator Rounds. Would you commit to us that you would make 
an effort to see that the Science Advisory Board actually 
reflects some fairness with regard to geographic diversity as 
well as recognizing the important role that local and regional 
governments and State and local governments have in determining 
or at least participating in these boards and commissions?
    Mr. Pruitt. If confirmed, I look forward to working with 
you on that issue.
    Senator Rounds. Thank you.
    Let me finish quickly with just one other item. We have 
listened a lot to whether you are working on behalf of 
industries, whether you are working on behalf of the folks from 
Oklahoma, and your role as an administrator with regard to 
clean air, water, and so forth. As the Attorney General you 
have represented the interests of your State and both your 
State's economy and your State's environment. Just because you 
are pro-economic development and pro-economic development 
growth does not mean that you have to be anti-environment. 
Preserving the environment and preserving the economy I don't 
believe are mutually exclusive. I don't think you have to 
choose between the two.
    How would you balance economic growth with making certain 
that we have clean air and clean water?
    Mr. Pruitt. I think part of it is inherent in the statutes 
and the process that the EPA is supposed to conduct. I know 
sometimes rulemaking is seen as something that is not terribly 
important or something laborious, but the reason rulemaking, 
the reason Congress has said you offer notice on a proposed 
rule and you take comment is it is needed to make sure all 
voices are heard and that there is an informed decision that 
regulators are making before they finalize rules, because of 
the impact it has on the economy and on the environment in this 
instance.
    Rulemaking is something we should take seriously and that 
we should do so consistent with the framework outlined by 
Congress so that all those voices are heard that you are 
referring to, Senator, in the rulemaking process.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Rounds.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Pruitt, earlier today you said the EPA has an important 
role in regulating carbon dioxide because of the 2007 landmark 
Supreme Court ruling in Massachusetts v. EPA. The EPA 
Administrators for both President Bush and President Obama made 
a decision that carbon pollution poses a danger to America, 
otherwise known as the Endangerment Finding.
    Will you promise to keep on the books the scientific 
finding that carbon pollution poses a danger to the American 
public health and welfare?
    Mr. Pruitt. Two things, Senator. First, with respect to 
Massachusetts v. EPA, the Supreme Court said to the EPA that 
they had to make a decision.
    Senator Markey. That's right.
    Mr. Pruitt. To determine whether CO<INF>2</INF> posed a 
risk, and as you indicated in 2009 they did so. That is the law 
of the land, those two cases. There is an obligation of the EPA 
Administrator to do his or her job in fulfilling Massachusetts 
v. EPA and that endangerment finding from 2009.
    Senator Markey. So you will keep that scientific finding on 
the books?
    Mr. Pruitt. That the endangerment finding is there and 
needs to be enforced and respected.
    Senator Markey. You will not review that scientific 
finding?
    Mr. Pruitt. There is nothing that I know that would cause a 
review at this point.
    Senator Markey. That's very good.
    Massachusetts v. EPA made it possible for States like 
California and Massachusetts to set higher standards for the 
fuel economy of vehicles using their authority under the Clean 
Air Act. This is a powerful tool for States to reduce emissions 
and address global warming.
    As a direct result of the Clean Air Act authority combined 
with my 2007 fuel economy law the Obama administration reached 
a historic agreement, with the auto industry's support, to 
increase fuel economy standards to 54.5 miles per gallon by 
2025. Those standards are projected to reduce our dependence on 
foreign oil by more than 2 million barrels a day, prevent 6 
billion tons of carbon pollution, and save consumers more than 
$1.7 trillion at the gas pump because their cars will be so 
much more efficient.
    Those standards are also unleashing a TESLA revolution, 
clean energy vehicles all across the country. Ten thousand 
people are going to be employed, for example, in Nevada in this 
technology area.
    You have said you want States to play a larger role in 
environmental regulation. In your 2015 testimony before the 
House Science Committee you wrote, ``The EPA was never intended 
to be our Nation's front line environmental regulator. The 
States were to have regulatory primacy.'' But earlier today, 
you wouldn't commit to maintaining California, Massachusetts, 
and other States' ability to have regulatory primacy as the 
leaders of the effort to protect their own States to do what is 
best for global warming in their own States.
    So I am going to ask you again, will you support the 
statutory right of States to do more to reduce dependence on 
foreign oil, reduce global warming, pollution, save money at 
the gas pumps, and create tens of thousands, hundreds of 
thousands of jobs in the clean car job business?
    Mr. Pruitt. I think, Senator, generally, the answer to that 
would be yes. But in application with the California waiver 
that was discussed earlier, that is an adjudicatory process 
that I can't prejudge what would occur there. As you know 
previous Administrators have either granted or denied that 
based upon a record that was made. I do respect and do believe 
that States have a very important role. We've acknowledged 
that, or I have acknowledged that today with respect to the 
Chesapeake Bay situation, as an example.
    I will look at that issue, like others, to make sure that 
it is respected but also is consistent with the statutory 
framework that you have outlined.
    Senator Markey. Do you support the law that says California 
has a right to ask for a waiver?
    Mr. Pruitt. It is statutory, and it is something the 
Administrator has an obligation to do. So yes, I do respect it.
    Senator Markey. Do you support the current California 
waiver for greenhouse gas standards?
    Mr. Pruitt. Senator, that is what would be evaluated. I 
think it is very difficult, and we shouldn't prejudge the 
outcome in that regard if confirmed as Administrator.
    Senator Markey. So you are questioning the current waiver? 
You don't think they're entitled to the current waiver?
    Mr. Pruitt. The waiver is something that is granted on an 
annual basis. The Administrator would be responsible for making 
that decision.
    Senator Markey. You say you are going to review it?
    Mr. Pruitt. Yes, Senator.
    Senator Markey. When you say review, I hear undo the rights 
of the States. I think to a certain extent that is troublesome. 
Because obviously, what we have heard all day is how much you 
support States' rights when it comes to these issues, but now 
when it comes to the right of California, Massachusetts, and 
other States to be able to reduce carbon pollution, you are 
saying you are going to review that.
    My problem really goes to this double standard that is 
created that when you sue, from the Oklahoma perspective, from 
the oil and gas industry perspective, and you represent 
Oklahoma, you say they have a right to do what they want to do 
in the State of Oklahoma. When it comes to Massachusetts or 
California, and it comes to the question of those States' 
wanting to increase their protection of the environment, 
protect their victimization from carbon pollution, you say 
there you are going to review.
    I think the history of the agency in granting reviews that 
have been necessary for Massachusetts, for California, and 
other States to improve the environment are still valid. The 
science hasn't changed, the new clean energy technologies have 
not changed, the danger to the public from environmental 
exposure to carbon pollution has not changed. So from our 
perspective, we are fearful of what a review would actually 
result in. From my perspective, I think it is going to lead to 
you undoing that right of the States to be able to provide that 
protection.
    Senator Barrasso. The Senator's time has expired. Thank 
you, Senator Markey.
    I am going to introduce for the record a report from the 
National Energy Assistance Directors Association. These are the 
State officials who oversee the financial assistance programs 
for people to heat their homes.
    The report says that when energy prices go up, higher 
energy prices result in 24 percent of the recipients who go 
without food for at least a day, 37 percent go without medical 
or dental care, 34 percent didn't fill a prescription, and 19 
percent had someone in their home become sick because the house 
was cold due to increased energy costs.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman.
    Again, Attorney General Pruitt, thank you for being here 
today.
    I would like to go back to something a colleague, Senator 
Duckworth, mentioned earlier today, and that is the point of 
obligation. The proposal to change the point of obligation 
under the RFS is an example of regulatory change that would 
destabilize the policy environment if adopted. What is 
interesting with the point of obligation, we have two sides 
that normally oppose each other that have actually come 
together. Both biofuel producers and the American Petroleum 
Institute oppose this change, both groups.
    I would like to submit a letter for the record showing the 
united opposition to moving the point of obligation. Mr. Chair, 
if we could have that entered into the record?
    Senator Barrasso. Without objection.
    [The referenced letter follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Ernst. I'd like to revisit this. If you can, yes or 
no, as Administrator, will you oppose changes to the point of 
obligation?
    Mr. Pruitt. Senator, as I indicated in my meeting with you, 
and I think in response to Senator Duckworth earlier, there is 
a comment period in process now at the EPA about the point of 
obligation. I think prejudging the outcome of that process at 
this point is unwise.
    I can say to you as I said to you in the office, any steps 
that I would take as EPA Administrator with respect to any 
issues as far as the RNS program, the Monitor Net Program, 
point of obligation, all these various issues that we 
discussed, the job of the EPA Administrator is to make sure 
that the statute is upheld and enforced and not undermined. The 
vitality of the RFS Program has been defined by Congress dating 
back to 2005. Any steps the EPA Administrator takes need to be 
done in such a way to further the objectives of Congress in 
that statute, not undermine the objectives of Congress in that 
statute.
    Senator Ernst. I do appreciate your being objective. I am 
sure that Senator Duckworth and I will look forward to 
continuing to educate you on those issues. Thank you very much.
    I would like to show a chart of the State of Iowa. I would 
like to go back to some of Senator Cardin's comments about who 
should define what the expanded definition of Waters of the 
U.S. is. This is a chart of the State of Iowa. As you can see, 
with the expanded definition, as provided by the EPA, 97 
percent of the State of Iowa is now considered Waters of the 
U.S. If you are in area like mine in southwest Iowa here, I 
live in a Water of the U.S. Most of the State is covered by the 
waters of the U.S. I bring that up, because in a moment, I am 
going to show you another picture of the consequences of the 
EPA defining what a Water of the U.S. is.
    Last Congress this Committee examined the scope of the 
Federal Clean Water Act jurisdiction EPA and the Corps of 
Engineers claim today, even without the new WOTUS Rule. The 
committee found that EPA and the Corps are already expanding 
their jurisdiction using the concepts that they codified in 
WOTUS. They are just doing it on a case by case basis.
    The jurisdictional claims already being made are very 
troubling. For example, the Obama EPA told the public that they 
will not regulate puddles. They will not regulate puddles. 
However, we learned that the Corps is already regulating 
puddles by claiming that a puddle in a gravel parking lot is 
``a degraded wetland.'' A degraded wetland.
    The Obama EPA also told farmers not to worry about being 
regulated because ordinary farming activities have a statutory 
exemption. We learned that the Corps of Engineers and the 
Department of Justice have decided that plowing is not an 
ordinary farming activity. Explain that to my dear deceased 
grandfather and my father whose activities in farming include 
plowing.
    According to the Obama administration, any plowing that 
pushes soil into furrows is not an exempt farming activity 
because the tops of plowed furrows can dry out. According to a 
brief filed by the United States, ``the furrow tops now serve 
as small mountain ranges.'' Right there, folks, small mountain 
ranges. ``These furrow tops now provide conditions that are not 
conducive to growth and development of wetland plant species. 
They are mini-uplands.'' This is a picture of these small 
mountain ranges from the Government's expert report.
    Mr. Pruitt, will you commit to me that if confirmed, EPA 
will work with the Corps and DOJ to make sure that Federal 
agencies stop trying to regulate ordinary farming practices?
    Mr. Pruitt. Yes, Senator.
    Senator Ernst. Thank you for that very concise answer.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    Mr. Pruitt, I want to come back to this question again. Let 
me just tell you, I played second base as well. This is a 
hanging curve ball. You can knock this out of the park with a 
yes.
    Will you commit, yes or no, to reversing the EPA's current 
interpretation that available infrastructure should limit the 
requirements to blend biofuels into our fuel supply, given that 
it runs counter to congressional intent?
    Mr. Pruitt. I don't want to take any steps to undermine the 
objectives in the statute of the RFS as Administrator of EPA.
    Senator Duckworth. Will you commit to opposing any attempts 
to move the point of obligation from the farmer, the soybean 
producers, the corn producers and biofuel manufacturers away 
from them and toward the blenders? Because that would be 
counter to congressional intent.
    Mr. Pruitt. Senator, that is something, as I have 
indicated, that there is an open comment period on that very 
issue. If confirmed, I would be dealing with that issue and 
need to respond to the comments that have been made as part of 
the record. It would be unwise to prejudge that outcome. I can 
say to you that any steps that I would take as Administrator 
would be in furtherance of the RFS and not to undermine the 
RFS.
    Senator Duckworth. But the comment period has nothing to do 
with congressional intent. Earlier today you said you would 
abide by congressional intent. The congressional intent is to 
keep that point of obligation with the soybean and corn 
producers and the biofuel manufacturers and not to move away 
from it, regardless of what the open comment period says. So 
you are saying that you are willing, that your answer is no, 
because you would be open to moving it away from the soybean 
and corn growers, the farmers, toward the blenders if that is 
what comes out of the comment period? Is that what you are 
saying? That would be against congressional intent, though.
    Mr. Pruitt. Senator, I think with respect to congressional 
intent and the statute, the intent, as far as the point of 
obligation, is not addressed in the statute itself. That is a 
decision and the Administrator has been involved in that 
process historically. It's been subject to much discussion. In 
fact the EPA has dealt with this issue before.
    What I am saying to you is, it is the job of the 
Administrator to enforce the program, to administer the 
program, to ensure that the intent of Congress as far as the 
RFS is upheld. I will do that.
    To prejudge the outcome of that particular comment period 
is something that I can't do and shouldn't do at this point. I 
would need to respond to that only after being confirmed and 
going through the rest of the process.
    Senator Duckworth. You're saying that you would be open to 
moving the point of obligation away from the corn and soybean 
producers and the ethanol manufacturers, if that is what the 
open comment period says? If that is the result, then you would 
be open to moving it away from the farmers?
    Mr. Pruitt. No. I am saying, Senator, that any actions 
taken as Administrator that would jeopardize and endanger the 
RFS as intended by Congress, I would not take. That is 
different from prejudging an outcome in that particular matter.
    Senator Duckworth. But the intent of Congress is to keep 
the point of obligation with the producers.
    Mr. Pruitt. That's something I am not aware of, Senator.
    Senator Duckworth. OK. Let's move on. I am very concerned, 
and we will follow up with this in the future.
    Let's go to safe drinking water. I sat on the Government 
and Oversight Committee in the House where in a bipartisan 
manner we explored what happened in Flint, Michigan. I was 
actually flabbergasted earlier today when in response to my 
colleague, Senator Cardin, on whether you believe there is any 
safe level of lead that children can consume, you responded by 
saying, ``Senator, that is not something I have reviewed or 
know about. I believe there is some concern but I have not 
looked into the scientific research on that.''
    You are about to become the EPA Administrator. You are 
seeking to be the EPA Administrator, and you've not looked into 
the issue of lead in our drinking water supply? I think that is 
something, especially in the aftermath of Flint, that is a 
serious oversight on your part. Have you even studied the Flint 
water crisis in preparing for this hearing? Do the names Mary 
Gade and Susan Hedman ring a bell to you?
    Mr. Pruitt. In the situation in Flint, as I indicated 
earlier, the EPA should have acted more expeditiously in 
responding to Flint and did not. There was indication at the 
regional level that there were concerns, and there was not a 
response.
    I think that the EPA bears responsibility for what happened 
in Flint and would seek to, in the future, avoid those kinds of 
situations by being more proactive through the regional 
administrators and the States and municipalities in ensuring 
the quality of our drinking water.
    Senator Duckworth. As EPA Administrator will you commit to 
appointing a permanent regional administrator to the Midwest 
region based out of Chicago, but they cover Michigan? We have 
issues with lead in Galesburg, Illinois, for example. And will 
you give them the responsibility and the ability to act 
proactively so that they can step in when they see that the 
State is not doing its job in protecting the safe water 
drinking supply for its citizens?
    Mr. Pruitt. As you know, Senator, the answer is yes. The 
EPA has emergency order authority to respond to situations like 
you describe. I think the EPA should step in, in those 
situations in a very meaningful way.
    Senator Duckworth. That's good news, because they did not 
do it in the case of Flint.
    Thank you.
    I am out of time, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    I would like to introduce for the record an article from 
The Oklahoman by Rick Green that says J.D. Strong, Director of 
the State Wildlife Conservation Department, says of Attorney 
General Pruitt, ``Attorney General Pruitt has been a really 
good partner and ally in making sure we have adequate 
protections in place for the quality and quantity of water,'' 
said Strong, who previously led the Oklahoma Water Resources 
Board and was State Secretary of the Environment. ``I have 
never seen him put us in a position where we had to compromise 
anything to protect the waters of Oklahoma.''
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Again, I was the Congressman in the district with the 
Arkansas-Oklahoma Illinois River situation. I was elected in a 
special election in 2001 and inherited this. This had been 
going on for about 10 years. In 2001, from that time on until 
recently, we probably worked on this, it seems like every week.
    What happened was in 2003 the EPA came out and said the 
standard was such that by 2013 the river needed to have an 
attainment of .037 standard of phosphorus. Arkansas worked 
very, very hard, changed out all of its treatment plants in 
that area. That is one of the fastest growing areas in the 
country. The ratepayers paid for all of that, hauled out 
chicken litter and all those kinds of things, and made a 
dramatic improvement in the attainment.
    The problem was, though, Arkansas, and you mentioned, my 
good friend, Senator Booker, and he is a good friend, mentioned 
a lot about Oklahoma this and that. Arkansas never agreed to 
any of that. So they were going forward but they felt they 
could not attain the .037 standard because the first national 
river is in Arkansas, the Buffalo River, and it was not at 
.037, it is pristine.
    In good faith in 2005, I believe, the Attorney General in 
Oklahoma sued Arkansas. You can correct me if I am wrong on 
some of these things. In 2010, in that case, all of the stuff 
was put in place, but the Federal judges never ruled on it so 
it was open.
    Fast forward, 2013 is arriving. Arkansas does still not 
agree that the .037 standard is the appropriate one, so they 
were squaring off getting ready to sue each other again. 
Attorney General Pruitt and Attorney General McDaniel, a 
Democrat in my State, got together and said, let's not waste a 
ton of money with lawyers; let's use science and things like 
this to figure this out.
    They chose a neutral site, Baylor University, which has an 
excellent water department. They came in and did a study and 
came back and said .037 is the standard. Right now the States 
are living with that. It was a tremendous effort, took a long 
time, and it was a very, very difficult situation. So I applaud 
you.
    I want to put in the record a letter from our former 
Attorney General McDaniel that again outlines this. It was 
very, very complimentary of the Attorney General.
    Senator Barrasso. Without objection.
    [The referenced letter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Boozman. Thank you.
    Let me quote one of the final paragraphs: ``Recent press 
accounts regarding these efforts unfairly mischaracterize the 
work that was done by General Pruitt and his team. He was a 
staunch defender of sound science and good policy as 
appropriate tools to protect the environment of the State. I 
saw firsthand how General Pruitt was able to bridge political 
divides and manage multiple agency agendas to reach an outcome 
that was heralded by most credible observers as both positive 
and historic.''
    Again, as someone who was intimately involved in that, more 
involved than I wanted to be in things, there really was a 
heroic effort by yourself and the people in Arkansas trying to 
resolve a difficult situation.
    Mr. Pruitt. Thank you, Senator.
    Senator Boozman. Thank you.
    That's really all I have, Mr. Chair.
    Senator Barrasso. Thank you very much, Senator Boozman.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman and General 
Pruitt.
    I wanted to focus on--a number of us talked earlier about 
the frustrations that the American people have with the EPA. We 
talked about anger; Senator Ernst talked about fear. I believe 
it extends to a couple reasons underlying that.
    One is the agency currently feels that it is empowered to 
regulate literally every nook and cranny of American life. 
Related to that, they seem to have very little respect for the 
rule of law. Let me touch on those.
    Senator Ernst talked about the WOTUS rule. Literally the 
EPA has claimed the ability to regulate puddles. As a State 
with--pre-WOTUS by the way--65 percent of America's wetlands in 
Alaska, we have very significant concerns about this.
    I want to actually address an earlier comment by Senator 
Whitehouse where he said there is nothing in your record that 
shows that you have the background to help America's fishing 
industry. Well, I couldn't disagree more with Senator 
Whitehouse, who is a friend and colleague. My State has a 
fishing industry like Rhode Island's. It is a little bigger. 
Sixty percent of all the seafood that is----
    Senator Whitehouse. It's considerably bigger.
    Senator Sullivan. Thank you.
    [Laughter.]
    Mr. Chairman, would you please acknowledge that for the 
record?
    Senator Barrasso. With no objection.
    Senator Sullivan. Almost 60 percent of all seafood 
harvested in the United States comes from the waters of Alaska, 
and it is considered the best, most sustainable, best managed 
from an environmental standpoint, fishery in the world.
    Do you know what the No. 1 issue is, the top issue of the 
fishermen of Alaska is? It is EPA overreach. Let me give you a 
specific example.
    This is a regulation, 200 pages, on America's fishermen, 
the ultimate small businessmen and women. This actually 
requires that every fisherman in Alaska, commercial fisherman, 
requires a discharge permit to literally hose off the deck of a 
ship. Think about that.
    If you are gutting fish and fish guts or pieces of a fish 
fall on the deck of your ship, and you hose it down, fish back 
into the water of the oceans, you need a permit, 200 pages. 
This is the kind of thing where the trust between Americans and 
the EPA has eroded so much because of these kinds of issues.
    If confirmed, will you work with me and others on this 
Committee to make sure that these kinds of regulations are 
balancing environmental needs with jobs that are so important? 
You mentioned it as a cost. Will you work with us on that, and 
would you care to comment on a regulation like this, fish back 
into the ocean requiring a permit? Congress, by the way, has 
extended this twice, the implementation of this, so there is 
bipartisan agreement that we need to do something about this 
overreach. Would you care to comment on this?
    Mr. Pruitt. Senator, I think it is exemplary of a lack of 
priority. We have many, like I indicated earlier, 40 percent of 
our country is in nonattainment under the NAAQS Program. We 
have over 1,300 CERCLA sites in this country that need 
attention to move those areas into remediation and restore 
those areas for environmental related issues. I think in some 
respects what you cite there is just missed priorities, trying 
to focus on something like that as opposed to focusing on these 
other areas that will really improve tangibly the environmental 
protections for people across the country.
    Senator Sullivan. Let me talk next about the rule of law. I 
am glad you emphasized it as a priority. I believe it is one of 
the principal reasons again why, again, there is such a lack of 
trust between the American people and the EPA. But it is not 
just a Republican issue. As a matter of fact, there are a 
number of examples where this is viewed as a bipartisan issue 
that we need to address. You may have seen with regard to the 
Clean Power Plan, Laurence Tribe, not known as a strong staunch 
Republican, Harvard law professor, stated, ``The EPA is 
attempting to exercise lawmaking that belongs to the Congress 
and judicial power that belongs to the Federal courts. EPA is 
attempting an unconstitutional trifecta usurping the 
prerogatives of the States, Congress, and the Federal courts 
all at once with its Clean Power Plan.'' Then he stated, 
``Burning the Constitution should not become part of our 
national energy policy.''
    You've been involved in some of these cases, the Clean 
Power Plan, the Waters of the U.S. In both of these cases, 
courts have stayed the EPA's rule. Why do you think the courts 
have done that? Do you think the rule of law that has been 
ignored by the EPA is something that if confirmed, you will 
work on to regain the trust between the EPA and the American 
people?
    Mr. Pruitt. As I indicated earlier, Senator, I think at 
times perhaps there those in law and the courts that look at 
rule of law as something that is academic and technical. But it 
is real. It affects people in very real ways. When you have 
agencies of any type that act inconsistent with the statutory 
authority given to them by Congress, it creates the kind of 
uncertainty that you are talking about. People don't know what 
is expected of them, and paralysis happens.
    And so rule of law is important to economic development, it 
is important to send messages of certainty, it is important so 
that people can plan and allocate resources. There are many 
laws that people look at and say, I don't really like that. So 
long as they know what is expected of them, they can plan and 
allocate resources to comply. I think that is what is important 
about rule of law.
    Senator Sullivan. And as one of the lead litigators on the 
WOTUS rule and the Clean Power Plan and the fact that the 
Supreme Court and the Sixth Circuit have put stays on those 
rules, what do you think that indicates the courts' view is of 
those two rules issued by the EPA at this moment?
    Mr. Pruitt. Well, it is unprecedented for the Supreme Court 
to have done what they did in the Clean Power Plan.
    Senator Sullivan. Never happened in the history----
    Mr. Pruitt. Never happened in the history of jurisprudence 
before the U.S. Supreme Court. That says a lot.
    Senator Sullivan. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Senator Moran.
    Senator Moran. Mr. Chairman, I yield to somebody ahead of 
me if they would yield back to me for the next question.
    Senator Barrasso. That would be fine. I have some time that 
I haven't gotten to yet in this second round. We will go 
shortly to a third round.
    I wanted to talk a little about the Mercury Rule that the 
Supreme Court overturned. They overturned the EPA's Mercury 
Rule, finding that the EPA did not appropriately consider the 
costs of the rule. Noting that between the time that the rule 
is issued and the Supreme Court decision 3 years passed, the 
EPA Administrator Gina McCarthy was on a television show a 
couple days before the Supreme Court made its ruling, and they 
said, well, what if the Supreme Court says you are wrong? And 
essentially, she said, well, the majority of the power plants 
have already decided and invested in a path, because it is been 
3 years, to achieve compliance with the Mercury Air Toxic 
Standards. In other words, she had already gotten her result, 
even though what she had done was found by the courts to be 
illegal.
    So I would ask you your thoughts on her statement, and do 
you believe that her statement shows respect for the rule of 
law?
    Mr. Pruitt. Well, Senator, this is speculation to a certain 
degree, and one of my favorite philosophers is Yogi Berra, and 
he said, ``Predictions are pretty tough, particularly about the 
future.'' So I don't want to be too speculative here. But when 
you look at the response of the Supreme Court and the Clean 
Power Plan, I think largely the reason they acted in an 
unprecedented way is because of what you just addressed, Mr. 
Chairman, that in response to the Michigan and the EPA case, 
there were some comments made that they had achieved the 
outcome despite the fact that it acted inconsistent with the 
framework under the law.
    So I think rule of law is something, as I indicated to 
Senator Sullivan, it is not something that is academic. I think 
it is meaningful. It inspires confidence in those that are 
regulated. It gives them assurance that regulators are acting 
consistent with their authority, and it allows them to plan and 
allocate resources to meet the standards and meet the 
objectives that Congress and regulators established.
    Senator Barrasso. Senator Moran.
    Senator Moran. Mr. Chairman, thank you very much.
    General, you can see by where I sit on the dais that I 
haven't been in the Senate a terribly long time. But one of my 
causes upon my arrival and the discovery of how the Senate 
works is to try to work with my colleagues to reassert 
congressional authority. In my view there is a number of ways 
we could do that. One, Congress could quit passing huge pieces 
of legislation and delegating authorities to agencies and 
departments. Another one that we could pursue--and I hope we 
will this year--is an appropriations process, by which we have 
the opportunity to influence decisions made at the 
Environmental Protection Agency and every other agency and 
department.
    One of the things--when we do that by developing a 
relationship with an agency head, knowing that, and I guess 
part of that is that Members of Congress need to have greater 
levels of expertise on the subject matter of their 
jurisdiction. One of the subcommittee I chair is in the 
Commerce Committee. It has jurisdiction over the National 
Highway Traffic Safety Administration. The Environmental 
Protection Agency just last week finalized its greenhouse gas 
standards for light duty cars and trucks for 2022 to 2025.
    Now, the law says that it is to coordinate that effort with 
the National Highway Traffic Safety Administration. And that 
agency is still developing its own process to determine 
appropriate fuel standards. I raise this as an example of 
where, once again, two agencies instructed by Congress to work 
together to find a solution or the right answer to an issue 
ignore the law. I assume you would assure me or members of this 
Committee that the Environmental Protection Agency, to the best 
of your ability, will obey the law.
    But I also assume that you are willing to assure me that 
when directed by the law to cooperate with other agencies, to 
have the input of an agency that our subcommittee has 
jurisdiction over, as the person in the Senate responsible for 
these issues, I go to the agency that I have the most influence 
over, and they say, well, EPA's already done its thing. I 
assume we can bring those kinds of practices to an end.
    Mr. Pruitt. Absolutely, Senator. I think that interagency 
discussion, that collaboration to ensure that there is 
meaningful discussion, review of action, takes place. I want to 
speak generally to your delegation reference, because I do 
think that that is a very important issue that you raise. I 
think a lot of times what has happened is that Congress has 
spoken in very general ways, I will not say vague, but 
approaching vagueness, and giving carte blanche or substantial 
authority to agencies without providing the kind of framework 
that is necessary for them to make their decision.
    From a separation of powers issue, I think that is very 
important. I think it is important for Congress, article 1, to 
exercise its authority and to give the direction to these 
agencies on how they should conduct their business. Senator 
Cardin, in his comments and questions earlier about the Waters 
of the United States Rule, I think that is a problem, 
presently, largely because the definition of Waters of the 
United States in the statute is so vague and so general, it 
creates uncertainty.
    So I think making sure that Congress performs its role and 
the executive branch performs its role in enforcing laws, and 
we try to do less delegation and respect separation of powers, 
is very, very important.
    Senator Moran. I appreciate your reassurance of how you 
would conduct, if confirmed, the agency. It also is a 
reflection upon the need for Congress to do its job better. 
Perhaps, I guess you'd have nothing to do with that. But for me 
and my colleagues, we need to be much more precise and clear in 
legislation and much more likely to deal in smaller bite-size 
pieces. Too often I think Congress is interested, and I don't 
want to be derogatory to any of my colleagues, but too often we 
look for the headline, we solved a problem, and yet we complain 
about what an agency's decisions are, and we have given them so 
much authority they have the ability to make what I would 
consider, some of us may consider a bad decision.
    Mr. Pruitt. And there are important steps that have been 
taken. We've mentioned TSCA this morning, where you've done 
just that, in his past year. So I think that is a very 
important item that you raise, Senator.
    Senator Moran. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Moran.
    We'll now move to a third round of questions.
    Attorney General Pruitt, you just mentioned TSCA. You sent 
a letter to this Committee in April 2015 supporting the Frank 
Lautenberg Chemical Safety Act. In fact, the timing of your 
letter was less than a month after the bill was introduced, and 
you were the first Attorney General of the United States to 
support the bill.
    The bill ultimately received overwhelming bipartisan 
support in Congress. It would be your job to implement the 
bipartisan reforms and ensure we have consistent regulation 
throughout the country. Would you discuss the plans that you 
might have to implement this legislation, and will you commit 
to implementing the legislation in a timely manner?
    Mr. Pruitt. Senator, and Mr. Chairman, yes. I think in 
response to obligations of the EPA, this body has put timelines 
before the EPA to carry out certain rulemaking, the 
Prioritization Rule, the Risk Evaluation Rule, fees that need 
to be established, all those are mid-term in 2017. And I think 
it is a matter of the EPA Administrator making that a priority 
at the agency.
    I also think that in response to Senator Gillibrand 
earlier, and others have raised this too, there are certain, 
like PFOA, that need to be addressed in evaluating that listing 
under TSCA or perhaps the Safe Drinking Water Act as well. So I 
think there are specific actions that need to be taken but also 
the rulemaking process and the deadlines be adhered to.
    Senator Barrasso. You made reference to, and I did in my 
opening statements as well, to Flint. There was give and take 
on Flint a little earlier. The other thing I brought up was the 
Gold Key Mine spill in Colorado, an environmental disaster 
caused by the EPA. Last Friday, the EPA announced that it has 
denied all claims for the $1.2 billion in lost income, loss of 
use of property and damage to the businesses and the property 
suffered by 73 tribes, by land owners, local businesses, local 
governments as a result of the spill. The EPA's excuse was its 
legal interpretation of the Federal Tort Claims Act. According 
to the EPA, if a Federal agency hurts someone through a 
discretionary action, then the Federal Tort Claims Act does not 
apply. This doesn't sound right to me.
    So if confirmed, will you commit that you will review that 
decision and use whatever authority is available to you under 
the law to help the people who have been harmed by the EPA's 
negligence?
    Mr. Pruitt. Yes, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks very much.
    A question. Mr. Chairman, I know you did not use, when we 
started this round of questioning, you did not use like 2 
minutes and 30 seconds of your time. When you comment like you 
have just commented, are you drawing down on that 2 minutes and 
30 seconds?
    Senator Barrasso. I am now in the third round of 
questioning, yes, sir. And I would reflect that looking back at 
EPA nomination hearing processes, when Gina McCarthy was 
nominated, came to this Committee, Chairman Barbara Boxer, two 
rounds, first round 5 minutes, second round, 2 minutes. We are 
now in a third round of 5 minutes, so I think that the Chairman 
has tried to listen to our discussions with other members to 
make sure that all the Democrats and every member had a chance 
to have as many questions as possible.
    Senator Carper. Thank you. I want to go back to something 
you said about one of our colleagues with respect to EPA 
actually visiting States and participating in meetings in those 
States with respect to the Clean Power Plan. I think it was 
said that West Virginia, my native State, native State of my 
friend from West Virginia, that was not visited. We have heard 
since then from Joe Goffman, who was counsel to John McCain, 
EPA Assistant Administrator for Air, as you may know, he said 
he personally participated in meetings on the Clean Power Plan 
in West Virginia, also in Kentucky, Texas, Pennsylvania, 
Nevada, Washington, California, Wyoming, North Dakota, 
Colorado, Illinois, and I think Nebraska.
    I wrote a letter to Gina McCarthy on January 11th. You may 
recall, Mr. Pruitt, I wrote a letter to you on December 28th, 
and posed a series of questions to you and asked for your 
responses by January 9th. I have yet to receive those 
responses. I wrote a letter to her on January 11th, again, to 
Gina McCarthy and to Assistant Secretary Darcy of the 
Department of the Army. I wrote because we were getting and 
hearing on our office a whole list of assertions about the 
Waters of the U.S. I think this is maybe instructive for all of 
us. The things that we were hearing, people were calling in, in 
Delaware. It led us to ask these questions.
    One of the questions was, are the EPA and the Corps 
currently implementing a new Clean Water Rule? The assertion 
was that indeed, that has been happening. So we asked, is that 
really the case. And 2 days later, 2 days later, we received a 
response, no, the agencies are not now implementing the new 
Clean Water Rule. Implementation of the new rule is temporarily 
stayed by the Sixth Circuit Court of Appeals. September 2015, 
the agencies immediately directed their field offices to stop 
using the new rule, and instead resume implementing regulations 
interpreting the guidance prior to the new rule. That was one 
of the questions we asked.
    We also asked, because we were hearing assertions 
otherwise, are the EPA and the Corps currently pursuing 
enforcement actions pursuant to the new Clean Water Rule? And 
we got on the same date, January 13th, this response, that said 
no, the agencies are not pursuing any enforcement actions 
pursuant to the new Clean Water Rule and will not enforce this 
rule unless and until the Sixth Circuit Court of Appeals stay 
is lifted.
    The next question we asked, because we were hearing 
assertions otherwise, does anything in the Clean Water Rule 
revoke or otherwise modify the Clean Water Act's statutory or 
regulatory exemptions for farming and ranching? Response, 2 
days later, January 13th, was no, the Clean Water Rule makes 
absolutely--absolutely no changes to normal farming, ranching, 
and forestry exemptions established under the Clean Water Act 
in implementing regulations.
    So question No. 4, some have claimed that landowners will 
no longer be able to rely on the Clean Water Act's statutory 
and regulatory exemptions for farming and ranching, should the 
Clean Water Rule go into effect, because while the statute and 
regulations remain unchanged, the agency has narrowed those 
exemptions in practice through the actions in the field. Is 
that true? And the answer is, not surprisingly, the assertion 
that the agencies have no application in statutory and 
regulatory exemptions for farming, ranching, and forestry is 
untrue. The agencies have taken no steps intended to reduce the 
scope of the exemptions. We have not observed changes by field 
offices in the way they interpret or implement these 
exemptions. In fact the Corps has re-emphasized publicly that 
these exemptions are self-implementing. Farmers, ranchers, and 
foresters are not required to get approval from the agencies 
prior to using the exemptions.
    I raise this because sometimes what people assert to be 
true, sometimes it is over the Internet, sometimes it is on 
television, sometimes it is on the radio, newspapers. 
Assertions are made. And in this case there is a whole long 
list of assertions that were made, and none of them were true. 
They are distortions, untruths about what the EPA is doing with 
respect to a regulation that was stayed.
    I would ask to, for the record, Mr. Chairman, to be able to 
submit for the record the questions that we posed to EPA on 
January 11th and also the responses that we have received.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Carper. Thank you.
    I'd like to look at a chart, if you don't mind. This is a 
report card that lists 17 counties. How many counties do you 
have in Oklahoma?
    Mr. Pruitt. Seven--seventy-seven.
    [Laughter.]
    Mr. Pruitt. Mr. Chairman, can I refer to Senator Inhofe for 
these questions?
    [Laughter.]
    Senator Carper. I was watching; his lips are barely moving 
as you speak.
    Thank you.
    At the same time you've been suing EPA on its ozone 
standards, all the counties in Oklahoma for which data is 
collected earned an F from the American Lung Association for 
not meeting ozone health standards. You have 60 counties that 
the American Lung Association does not have data on the 
progress made or not made with respect to ozone. These are the 
ones we have information on, 17. Seventeen counties from Adair 
to Tulsa. You live in Tulsa, I expect? Tulsa County. They all 
got Fs. This is last year, 2016. My question to you is, what 
did you do about it? What did you do about it before or since? 
Sometimes people may not believe what we say, but they will 
believe what we do. What have you done about this?
    Mr. Pruitt. Senator, two things. I really believe there 
needs to be a tremendous effort made by counties across this 
country to move nonattainment into attainment. Over 40 percent 
of the country--presently 40 percent of the country 
approximately is in nonattainment. There needs to be great 
prioritization with EPA and local officials in achieving 
attainment.
    Senator Carper. But that wasn't my question, Mr. Pruitt. 
What did you do about it? You have 17 counties for which we 
have data from last year. What did you do about it? Before or 
since? That's what I am asking you.
    Mr. Pruitt. As indicated in our meeting individually, the 
primary enforcement responsibility in Oklahoma with respect to 
air quality permits and the rest is the Department of 
Environmental Quality. And there have been actions taken by 
DEQ, and they continually work with those counties to reach 
attainment. And we provide general counsel advice to that 
agency in the performance of their role.
    Senator Carper. I am not the Attorney General of Delaware, 
never had any intention to be, but if 17 of our counties in 
Delaware--we only have 3--if 17 of them or all 3 of them got 
Fs, I promise you, I would do something about it.
    Thank you.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Congress recently passed a bipartisan bill--many of us up 
here supported it, I know I did--as part of the Water 
Infrastructure Bill to allow States to lead implementation and 
enforcement of EPA's coal ash rule through the State-based 
permit program. That rule is already in effect, and it is 
important that the EPA move quickly on this. If you are 
confirmed, are you going to get right on this thing?
    Mr. Pruitt. Yes, Senator Inhofe.
    Senator Inhofe. All right.
    Sue and settle, we all know what that is, we know that 
groups, maybe some of the environmentalist extremist groups 
will file lawsuits against the EPA. The EPA, instead of 
defending against the lawsuits, will enter into a resolution 
behind closed doors without any public input or participation. 
These settlements result in new sets of legally binding 
priorities and duties for the EPA that achieve demands of 
special interests. Can you share your thoughts on sue and 
settle?
    Mr. Pruitt. Senator, this issue came up earlier. And it is 
a concern. Because it is regulation through litigation. There 
is a place for consent decrees in our litigation system, but to 
use a consent decree to bypass Congress, bypass the regulatory 
requirements that you've placed upon those agencies, to engage 
in rulemaking through litigation is something I think should 
not occur.
    Senator Inhofe. And that is the part that did not come up 
earlier. I appreciate that very much.
    Last, the cost of regulations. As you know the Supreme 
Court overturned EPA's Mercury and Air Toxics Rule in 2015 
because the EPA failed to--ignored the fact that the cost was 
$9.6 billion annually of the rule. Now, in fact, the EPA's 
regularly issued rules over the past 8 years are very costly 
for our industries and our job creators. According to the CRS, 
now, the CRS, when they make an evaluation, are much more 
conservative. The figure is always a very conservative figure. 
But they said the Clean Power Plan would be at least $5 billion 
to $8 billion a year. The figures I have heard on that are far 
greater because it wouldn't be that much different than the old 
systems they tried to do through legislation.
    The methane standards on oil and gas facilities, $315 
million a year. The new ozone standards, $1.4 billion. The 2015 
coal ash standards, $587 million a year. And the 2011 sulfur 
dioxide standards, $1.5 billion a year. Now, when you hear 
this, all this money is being spent on compliance costs by our 
job creators, people out there that are working for a living, 
and they are hiring people. What are your thoughts, and what do 
you believe should be the role of the costs of EPA's 
decisionmaking?
    Mr. Pruitt. I think it is very important in the rulemaking 
process, Senator. And the Supreme Court and courts have 
recognized that very important factor.
    I mentioned earlier the case that we were involved in in 
Oklahoma involving the regional haze program. That was an 
example where Oklahoma actually complied and met and satisfied 
the requirements under the statute and the rule. But the steps 
that were taken were displaced by the EPA, adding hundreds of 
millions of dollars of cost to consumers in the generation of 
electricity. So costs are very important. We need to make sure 
that they are considered. In certain areas of the statute, as I 
indicated earlier, they can't be, under the title I NAAQS 
program. But in that case that you are referring to, it is an 
obligation of the EPA to actually engage in a cost-benefit 
analysis, make a record before it made its decision.
    Senator Inhofe. Do you think that the laws that are in the 
books right now adequately handle this situation?
    Mr. Pruitt. I do, largely, Senator. I think it is mostly an 
application issue that the agency and the regulator is doing 
its job under the statute as provided by Congress.
    Senator Inhofe. Thank you very much.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. And presumably, Mr. Pruitt, it goes 
without saying that if the EPA is going to consider cost to the 
industry of confirming to pollution guidelines it should also 
consider benefits to the public from cleaner air, cleaner water 
and the results of that compliance, right?
    Mr. Pruitt. It should, Senator.
    Senator Whitehouse. So we have been talking about 
fundraising done by you for the rule of law defense fund during 
the time when you were both a board member and for a full year 
the chairman of the Rule of Law Defense Fund and the fact that 
we have exactly zero information in this Committee about that 
fundraising. We also have zero--and let me ask unanimous 
consent for the page from the filing that discloses that he was 
in fact a member of the board of directors and chairman of the 
Rule of Law Defense Fund.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Senator Whitehouse. We also have a meeting agenda from the 
Republican Attorney Generals Association during the time that 
you were executive committee member of the Republican Attorney 
Generals Association meeting at the Greenbrier, which I will 
stipulate to my friend from West Virginia is a lovely place to 
go. The agenda, which I would like to take this page of and put 
into the record, mentions a private meeting with Murray Energy. 
It mentions a private meeting with Southern Company. It 
mentions a private meeting with the American Fuel Petrochemical 
Manufacturers. If you will show the graphic, these are all the 
same groups that I have been asking about in terms of your 
fundraising for the Rule of Law Defense Fund. And there is 
Murray Energy, and there is Southern Company, and I am sure the 
American Fuel Petrochemical Manufacturers represent a lot of 
the others.
    As I understand it, we know nothing, no minutes, no 
statements, no reports about what took place in those meetings 
that are described as private meetings on a sheet that is 
stamped confidential. Correct? We know nothing about the 
content of those meetings?
    Mr. Pruitt. Senator, I did not generate the document. I 
know nothing about how that document got generated or what----
    Senator Whitehouse. Are you denying that those private 
meetings took place?
    Mr. Pruitt. No, Senator. I just didn't generate the 
document and don't know about the content, other than what you 
have represented.
    Senator Whitehouse. OK, and we don't know. And because you 
were on the executive committee of RAGA, that is information 
that we could get, right? I mean, it is available, if there 
were minutes or reports out of those meetings, notes taken. But 
we don't have them, correct?
    Mr. Pruitt. Senator, that would be a request made to the 
Republican Attorney Generals Association. I might add, the 
Republican Attorney Generals Association, there is a Democrat 
Attorney Generals Association as well.
    [Simultaneous conversations.]
    Senator Whitehouse. I am not faulting that. I am talking 
about private meetings at the time that you were on the 
executive committee with some of the really, really big 
polluters with whom you have been very closely politically 
associated.
    Mr. Pruitt. There is a Conference, if I may, Senator, of 
Western Attorneys General. There is a national association. And 
they talk about water.
    Senator Whitehouse. I know.
    Mr. Pruitt. And there are meetings that take place at each 
of those as well.
    Senator Whitehouse. The rest of the Attorney Generals avoid 
that because we don't want to talk about water.
    Let's talk about FOIA. You have had a conversation with the 
Chairman about FOIA. As I understand it, there is a FOIA 
request to the Oklahoma Attorney General's office, to your 
office, for e-mails between your office and Devon Energy and 
Koch Industries and Americans for Prosperity, the Koch front 
group, and Murray Energy and the American Petroleum Institute. 
And the information that I have is that that Open Records Act 
request was filed more than 740 days ago. More than 2 years 
ago. That in response to it, your office has conceded that 
there are 3,000 responsive documents. Three thousand e-mails 
and other documents between your office and these companies. 
And that in 740 days, exactly zero of those documents have been 
produced.
    Is that acceptable turnaround on a FOIA request, and should 
we not be concerned that your office is not complying with a 
FOIA request that relates so specifically to so many of these 
companies that are going to be before you as EPA Administrator 
if you are confirmed?
    Mr. Pruitt. Senator, I actually have a general counsel and 
an administrator in my office that are dedicated to performing 
or providing responses to Open Records requests.
    Senator Whitehouse. Not very dedicated, if it takes 740 
days. That is still zero.
    Mr. Pruitt. But I am not involved in that process. That is 
handled independently by the administrator and that general 
counsel in responding. So I can't speak to the timeline and why 
it is taking that length of time. But I will tell you that our 
office works--we actually go across the State of Oklahoma in 
training with officials locally in compliance with FOIA and 
Open Records laws.
    [Simultaneous conversations.]
    Senator Whitehouse [continuing]. Your own training, because 
it doesn't seem to be sticking very well.
    Mr. Pruitt. The representation you made about the timeline, 
I don't know.
    Senator Whitehouse. Given how many of these groups have 
important financial interests before the EPA, do you not think 
that 3,000 e-mails back and forth between you and your office 
and them are relevant to potential conflict of interest as an 
administrator and should be before us as we consider this?
    Mr. Pruitt. Again, I think the EPA ethics counsel has put 
out a very clear process with respect to covered entities, as 
we described it earlier, and on particular matters and specific 
cases, I will follow the advice of that EPA career person, 
ethics, to make sure that there----
    [Simultaneous conversations.]
    Senator Whitehouse. You keep saying that.
    Senator Barrasso. The Senator's time has expired.
    Senator Whitehouse. Will you let me finish my sentence?
    Senator Barrasso. Please do.
    Senator Whitehouse. The problem with that is that if you 
haven't disclosed any of this information, then the EPA ethics 
counsel would have no idea to even look. They would have no 
idea what the risks are. You can't say, nobody can look at 
whether I did this, but by the way, they're going to look at 
it. It just doesn't add up. Sorry about going over my time.
    Senator Barrasso. Thank you, Senator.
    I would like to point out, we had a report cared that was 
just brought up. And I would like to introduce for the record a 
letter from each of the five Members of Congress from the State 
of Oklahoma with their steadfast support for Scott Pruitt, 
saying, we are proud of his service to our State and are very 
confident that he will do a superb job serving our Nation and 
our citizens in this new role.
    Also as a follow up for the first round of questions, there 
was a dispute about a lawsuit against Mahard Egg Firm and who 
it was filed by. I have here the complaint in the case, and it 
was filed May 18th, 2011, and if you read it, it says, in the 
State of Oklahoma, by and through Attorney General Scott 
Pruitt. So you are the one that filed the suit, along with the 
Attorney General of Texas against Mahard Egg Firm. This will be 
submitted for the record as well.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Since the Ranking Member mentioned that Mr. Joe Goffman had 
visited, I call to the attention in beseeching you that when 
you are successfully the Administrator at the EPA that you will 
listen to everybody and come to States that are most directly 
affected. He mentioned that the Associate Assistant 
Administrator had made the long list that he had said.
    I would like to point out a clarification. The EPA 
announced on September 30th, a day I will remember because that 
is the birthday of my youngest child, they announced where they 
were going to be going for their listening sessions. They went 
to Boston, they went to New York City, they went to 
Philadelphia, they went to Atlanta, they went to Denver, they 
went to Lenaxa, Kansas, and I wish our Kansas Senator was here, 
which I have looked up is a part of the Kansas City 
metropolitan area. They went to San Francisco. They went to 
Washington, DC. They went to Dallas, they went to Seattle, they 
went to Chicago.
    My State in the last 5 years has lost 10,000 jobs, not 
wholly because of this, but some of this plays a large part. So 
I will go back to my original request, that the people that are 
affected by this environmentally and health-wise are just as 
important as the people who stand to lose their jobs over this, 
who then are plunged into poverty, who then have hopelessness 
around and in their communities, who then become addicted to 
drugs and other opioids. It is just a cascading issue. Their 
lives are just as important. So that is my plea on that.
    Now, last question from me.
    Senator Carper. Mr. Chairman, could I ask a unanimous 
consent request?
    Senator Barrasso. Yes.
    Senator Carper. I am sorry for interrupting. But the 
document with respect to the outreach that the EPA did, in 
conjunction with the Clean Power Plan, it shows from October, I 
think October 16th, 2014, something like this, the document 
records nearly 1,000 meetings, calls, presentations, 
conferences, consultations, 1,000, and other outreach with 
stakeholders. The document shows these post-proposal 
interactions included more than 300 meetings with State and 
local stakeholders, had 30 discussions with tribes, 450 
meetings with industry stakeholders, 150 discussions in 
environmental justice and scientific stakeholders, dozens more 
discussions with conveners. And this goes on and on and on.
    In total, the agency received almost 4.3 million comments 
about all aspects of the proposed rule, more than any rule in 
EPA history, and thousands of people participated in the 
agency's public hearings, Webinars, listening sessions, and so 
forth, all across the country. The agency made many revisions 
in the final rule in response to those comments. Thank you.
    Senator Barrasso. Thank you. I would ask that once a 
questioner starts, they be allowed to continue. We could get 
into a lengthy discussion. The EPA was found guilty of covert 
propaganda for soliciting information through a number of 
environmental groups. It continues to be a blot on the record 
of the EPA, and the question of this entire Administration and 
their approach toward abilities toward the rule of law versus 
an EPA out of control. So we are going to allow the questioner 
to continue.
    Back to you, Senator Capito.
    Senator Capito. Thank you.
    Not to beat a dead horse, but to try----
    [Laughter.]
    Senator Capito. I will say that the Assistant Administrator 
McCabe, when she was telling me that they only wanted to go 
where places were comfortable, she looked at me and said, 
Senator, we are going to Pittsburgh. Gee. Thanks a lot. Which 
is not in West Virginia, I will make that point.
    In any event, my question is--you have said a lot about 
States, and I agree, the States should have the primacy, it is 
in the law. And that is something that, part of why you have 
brought suit and part of the reason you have been successful 
with other attorneys general.
    Let me ask you a question. Let's say you have a State where 
you are the administrator of the EPA, and you deem that that 
State's Office of Environmental Quality, or DEP, which is what 
it is in West Virginia, just doesn't measure up. They are not 
protecting their people's health, they are not enforcing the 
law. They are, in your judgment and folks that you are working 
with, are not up to the task and are letting their people down.
    What avenues of correction would you have at the EPA, and 
do you have, and what would you exercise in that kind of 
category, and what kind of judgments would have to be made for 
those things to occur?
    Mr. Pruitt. Senator, I really appreciate the question. I 
think there are times where States are recalcitrant, that they 
don't perform the obligations that they have, let's say, under 
the Clean Air Act, in adopting a State implementation plan, or 
as they adopt the State implementation plan they don't take 
into consideration all the factors that Congress had put in the 
statute and the EPA requires. In those instances it is very 
appropriate for the EPA to use its authority like a Federal 
implementation plan to take over that jurisdiction and to 
ensure that the safety and health of our citizens is protected, 
and the air quality is maintained, and water quality is 
maintained.
    So there is a time and place for that. I think in many 
instances, however, over the last several years, it has been 
the first response as opposed to cooperation. And a Federal 
implementation plan is absolutely in order at times.
    Senator Capito. Thank you.
    Senator Barrasso. Senator Merkley.
    Senator Merkley. Mr. Chairman, before you start my clock, I 
would like to follow up on Senator Inhofe's strategy here of 
submitting certain facts back for the record. I would ask 
unanimous consent to submit for the record an article from the 
Union of Concerned Scientists related to the so-called 
ClimateGate that the Senator referred to earlier. That notes 
that the manufactured controversy over e-mails stolen from the 
university has generated a lot of heat but not light. The e-
mail content being quoted does not indicate climate data 
research has been compromised. Most importantly, nothing in the 
content of the stolen e-mails has any impact on our overall 
understanding of human activities driving dangerous levels of 
global warming. Media reports and contrarian claims that they 
do are inaccurate.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Merkley. Thank you.
    Senator Inhofe. Mr. Chairman, since my name was invoked, 
let me respond. Were you listening when I talked about the 
various publications that have come and talked about how 
fraudulent it was? These are publications, science 
publications, they have gone in and made their own evaluations. 
And for the U.K. Telegraph to say it is the worst scientific 
scandal for our generation, that is very extreme.
    Senator Merkley. We could have an entire day dedicated to 
the review of the scientific literature on this, and it would 
weigh very heavily on the scales in the direction I have 
indicated in support of the information presented by the Union 
of Concerned Scientists. We may just have to agree to disagree. 
That is why I submitted it for the record; we will let the 
public decide.
    Senator Inhofe. And that is why the statement is repeated 
over and over again about the science is settled, that is not 
an accurate statement.
    Senator Barrasso. I would invite the Senator to question 
the witness.
    Senator Merkley. The beauty of the Senate is we get to have 
our own opinions.
    Meanwhile, I also wanted to submit for the record in 
response, when I was speaking about asthma, Mr. Chairman, you 
submitted a study from the National Black Chamber of Commerce. 
And it is important to note that that organization has been 
funded by the American Petroleum Institute, by a Koch Brothers 
front group, and by Exxon, and that there is a series of 
responses that invoke the opposite side of that, and the NAACP, 
which certainly speak for a broad swath of African Americans, 
takes a very, very different stance. And it had endorsed the 
Clean Power Plan.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Merkley. Thank you.
    I would also like to submit for the record two articles or 
two statements from the National Congress of American Indians 
and from Latino organizations, a whole group of Latino 
organizations, that are very concerned about this nomination.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Merkley. Thank you very much, Mr. Chairman.
    Then I would like to turn to a question that has puzzled me 
over time. And it is in the context of how one evaluates, how 
one views the world. I heard one of my colleagues once present 
it this way. If you go to a doctor and they say you have 
cancer, you decide you had better get a second opinion. You go 
to a hundred doctors, and 97 of them say you have cancer and 
you had better act, most people feel like, 97 doctors said I 
should act, 3 said I should go take some health care 
supplement. Maybe I had better have the operation.
    And that is really the place where we are in climate 
science now, where the overwhelming weight of the scientific 
community weighs in and says, yes, it is very logical, you can 
do it in the laboratory, as Senator Whitehouse noted, that 
carbon dioxide traps heat. You can do it in a laboratory that 
methane traps heat. You can track the change in the environment 
of the concentration of those gases. You can see the impacts on 
the ground now.
    In my home State you have an impact on the oysters, because 
the Pacific Ocean is 30 percent more acidic than it was before 
we started burning coal. That is a scary thing, when shellfish 
have trouble forming shells. It has an economic impact. Our 
pine beetles are thriving because the winter is not cold enough 
to kill them, and so it is having a huge impact on our forests. 
That is an economic impact on rural America.
    The southern part of my State has had three worst ever 
droughts in the last 15 years. It is a huge impact on 
agricultural communities. The streams in Oregon coming from the 
snow packs have been declining in size and raising in 
temperature, very bad for trout, very bad for salmon. That is 
an impact on our fishing community.
    So the global warming that is taking place and being driven 
by the burning of fossil fuels is having a huge economic impact 
on the citizens of my State, my rural citizens, my citizens who 
depend on timber, who depend on fishing, who depend on farming. 
Should the citizens seek to address this problem? Because we 
are just on the front end of this happening.
    Ten years ago we were talking about models that led to the 
conversation Senator Inhofe had about ClimateGate, about 
assumptions and models. We don't need models now. We have facts 
on the ground. The moose are dying because the ticks are not 
being killed by the winter being cold enough. The fish are 
migrating on the Atlantic coast and Maine is losing its 
lobsters to Canada.
    These facts on the ground are extraordinarily real. They 
have a huge economic impact. And shouldn't we take a very 
serious approach to the urgency of this problem, as we see it 
descending upon us?
    Mr. Pruitt. Senator, I think the EPA, and if confirmed as 
Administrator, there is currently an obligation to deal with 
the issue. The Massachusetts v. EPA case says that 
CO<INF>2</INF> is a pollutant under the Clean Air Act. And as 
such that is what generated the 2009 endangerment finding. So I 
think there is a legal obligation presently for the EPA 
Administrator to respond to the CO<INF>2</INF> issue through 
proper regulations.
    Senator Merkley. I believe you are acknowledging in that, 
which I am glad to hear, that it is a serious problem and that 
the EPA, that carbon dioxide is a pollutant and we have a legal 
obligation to take it on.
    Mr. Pruitt. I think Massachusetts v. EPA says that. 
Counterbalance, by the UARG decision, that came out a few years 
later, that you can't transform a statute, as the EPA sought to 
do with the PSD program. So I think the court has spoken very 
emphatically about this issue. And the EPA has a legal 
obligation to respond.
    Senator Merkley. And as you kind of rank the urgency with 
which you bring to this, do you see it as something that you 
wake up every day being, like, the next generation will weigh 
whether or not we acted promptly? Or is it more, I have a legal 
obligation because of this court decision, so I will have to 
have some folks pay some attention to it?
    Mr. Pruitt. I think the importance, Senator, it is very 
difficult to prioritize. Senator Gillibrand is not here, but 
when she talks to me about PFOA and the threat that she is 
facing in New York, is that any less important than the 
CO<INF>2</INF> issue? It is not. So the EPA deals with very 
weighty issues, as you know, water and air quality. It is a 
matter of prioritizing the resources to achieve better outcomes 
in each. And I think it is very important to do so as 
Administrator.
    Senator Merkley. I do feel like perhaps you don't 
understand the gravity of the situation, from your response. 
Because there are feedback mechanisms that are starting to 
occur with the open bluewater in the Arctic, feedback from 
methane bubbling up from the permafrost, bubbling up from the 
peat bogs, bubbling up from what was previously frozen methane 
on the bottom of the ocean that has incredibly accelerating 
impact on global warming.
    Our rate of carbon dioxide pollution is not decreasing 
globally. It has doubled in rate from one part per million per 
year to two parts per million per year. So we are on an 
accelerating curve as a human civilization. And if human 
civilization doesn't get it together very quickly, we are in 
very deep trouble. I would hope at some point perhaps the 
urgency of the situation would be something you will grab hold 
of.
    Thank you.
    Senator Barrasso. Thank you.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Attorney General Pruitt, last year at an oversight hearing, 
we heard reports of the EPA regional offices who are sending 
companies information collection requests, or ICRs, pursuant to 
section 114 of the Clean Air Act, regarding their operations, 
with no explanation as to the reason for the ICRs. These ICRs, 
which companies are legally obligated to respond to, can cost 
the companies millions of dollars to collect the information to 
respond to the request. They often hear no follow up from the 
EPA regarding whether their response was adequate or what the 
information would be used for.
    Last year, I requested from the EPA a record of the ICRs 
that had been sent to U.S. companies throughout the various 
regions. I was told by the EPA staff that there was no way to 
get this information, because they didn't have it.
    Second, in 2015 I wrote a letter to the EPA Administrator 
Gina McCarthy requesting the economic information that forms 
the basis of the Clean Power Plan and the ozone NO<INF>x</INF> 
standards. These are the major regulations that were being 
quickly imposed on American taxpayers. The response which I 
received, it took 2 and a half months to get the response, but 
I understand that I am one of the few recipients of an actual 
letter back from the EPA, and I would ask that it be included 
as part of the record of the meeting today, Mr. Chairman. The 
letter was basically nothing short of referring me to an 
Internet link that directed me to a Web page, the same Web page 
which generated the questions in the first place. Essentially, 
they just simply suggested that I Google it. Not hardly a 
response that you would expect back from a Federal agency, at 
least one that was trying to be responsive with regard to major 
proposed rules.
    Working as a United States Senator I have found it nearly 
impossible to easily access the information that I am looking 
for. I can't imagine the difficulty of a small business, a 
farmer or a rancher, when they are seeking to get information 
from the Environmental Protection Agency. As the EPA 
Administrator, the role which you are seeking, do you believe 
that this is an adequate way to communicate what the public and 
elected officials, and where are your views on making agency 
communication and recordkeeping more transparent and 
accessible?
    Mr. Pruitt. Senator, this is actually a common theme. As I 
met with many of you on this Committee, both Democrats and 
Republicans, it was expressed to me that concern about the lack 
of response by the EPA at all, in response to inquiries, let 
alone the time of response. So I believe it is very important, 
as I indicated in my opening statement, to listen not only to 
the voices of the American people, but listen to Members of 
Congress, listen to members of this body with respect to the 
issues that are of concern to them in their respective States. 
That is something I take very seriously and would seek to 
respond very expeditiously to you and to others in this body 
with responses.
    Senator Rounds. The Ranking Member had asked, and was 
following up with questions in terms of your role as the 
Attorney General with regard to fracking issues in Oklahoma, 
but also with regard to clean air attainment levels and so 
forth. It seemed to me that what you were trying to portray at 
the time, and I would like you to expand on this, because I 
think this is important, is that you have a different role as 
an Attorney General than you would be if you were responsible 
as the agency within the State who had the direct statutory 
authority to respond to those issues. It seems to me that that 
is one of the roles that the EPA Administrator has which would 
be different than that of Attorney General, which is the 
execution of the laws that we have passed.
    Could you expand a little bit? Because I think this is 
really important in terms of the way you perceive your duties 
with regard to executing the laws that this Congress has 
passed.
    Mr. Pruitt. Yes, Senator, and I appreciate the question. 
The role of Administrator is to perform an executive role, an 
executive policymaking role and carrying out the functions and 
the statutes that Congress has passed. That is much different 
than my current role as Attorney General. As I tried to 
indicate to Senator Carper, in respect to enforcement actions 
in the State of Oklahoma, that is vested specifically in the 
Department of Environmental Quality. They are the ones that 
bring enforcement actions against companies who do not comply 
with air permits, et cetera. We provide general counsel to them 
in that process, but it is not our responsibility. But more, it 
is not our jurisdiction. And that is important to me, because 
it goes back to rule of law; it goes back to process.
    I think oftentimes what we see in this country is that 
folks kind of disregard the authority or jurisdiction that has 
been given to them by the statute of the Constitution, and they 
act anyway. That is what creates, I think, a lack of confidence 
in the American people. So I try to respect those boundaries. I 
try to respect my role as Attorney General, stay in my lane, if 
you will, and provide the counsel and perform the job that we 
are supposed to perform to that agency, but then allow that 
agency to enforce as required by law.
    Senator Rounds. And then very quickly, that also means that 
with regard to determining the science behind the laws that we 
create, as the Administrator, you are not going to make the 
determination yourself. You expect that sound science and the 
scientists with that background would be making the 
recommendations that you would then face a decision on?
    Mr. Pruitt. Yes, Senator, objective and transparent in that 
process.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Rounds.
    Senator Booker.
    Senator Booker. Mr. Chairman, if you would gracefully hold 
the clock for a second, because I want to respond very 
succinctly to something that you and Senator Boozman said. 
First of all, to you, sir, this is my first time going through 
nomination hearings. You have been very generous with the way 
you have been conducting these hearings. I think it is 
important that we note that, and I appreciate the number of 
rounds that you are doing.
    And then to Senator Boozman, I really do appreciate him 
adding to the line of inquiry I am having, he referred to me as 
a friend, which means a lot to me. People around here, your 
colleagues, know that you have a deep respect for the kind of 
kindness and just decency that you represent, a level to which 
I aspire but have not attained. Thank you for that. Thank you 
for indulging me.
    Senator Barrasso. Thank you.
    Senator Booker. And again, with respect to my colleague, 
who is a really good man, if this was between Delaware and New 
Jersey, I am the up-State, I would be very happy with the 
agreement that it seems that you, you are the down-State. So 
that is what I don't understand. You said earlier in your 
testimony in regard to this matter that you have a copy of the 
2003 agreement. Do you have that?
    Mr. Pruitt. I have the second agreement, Senator.
    Senator Booker. OK, let's just look at the 2000 agreement. 
I know you claimed in your testimony earlier that the 2003 
agreement had expiration on it.
    Mr. Pruitt. There was a 10-year period. But that needed to 
be reevaluated. This is the second statement I have here, 
Senator.
    Senator Booker. I just want to clarify that it is a 
contradiction. There is no expiration on the 2003 agreement. It 
had a reevaluation, a period in which it would be reevaluated. 
And it was reevaluated by your State with involvement of the 
EPA and the involvement of Arkansas, and they came up with the 
same .037 standard. And if you look at the provisions of what 
you do have in front of you, the 2013 agreement, and I have a 
blow-up of page 4 of that agreement, it states that--starting 
here, it states that Oklahoma, through the Water Resources 
Board, will propose a rule amendment that removes the date to 
achieve full compliance with a numeric phosphorus criterion set 
forth in Oklahoma administrative code. Then it lists these two 
codes.
    If you look at those two codes, what those two codes do, 
you know what they are, they said the sections of phosphorus 
concentration shall not exceed .037 by June 30th. It is 
removing the June 30th deadline in these two statutes.
    So that is what is frustrating to me, is that this is what 
you are heralding as a great agreement. But you already had in 
the year 2013 agreement--it is clear that you are doing, to me, 
and I don't know any other way of reading the facts, is that 
you take a binding rule of law and you suspend it for another 3 
years, allowing more pollution to take place.
    Mr. Pruitt. Senator, that is not--the issue here was not 
whether Oklahoma could enforce its .037 standard; it was 
whether Arkansas was going to adopt that standard on that side 
of the border. That had never taken place in history. That was 
the concern of Oklahomans. That was the concern of Mr. Fite at 
the Seneca-Illinois River.
    Senator Booker. So I am going to stipulate to what you 
said, because I am running out of time, sir. I agree with you, 
whether Arkansas was going to be able to live up to that 
standard. But you are the Oklahoma Attorney General. And this 
is what I want to say. As soon as you did this so-called 
historic agreement that set it back, you basically turned to 
the EPA with a rule, with the power of law of the Supreme Court 
and said, OK, back off my corporations.
    Why do I say that so confidently? Because I pulled a letter 
from Tyson Foods that literally 6 days after your so-called 
historic agreement of suspending this rule for 3 years, they 
are delighted. They write to the EPA and say, hey, you may have 
not only heard of the February 20th agreement by Oklahoma and 
Arkansas officials to jointly conduct a comprehensive study of 
concentrations and impacts in the Illinois rivershed. They are 
excited. They literally say, compliance, however, with the now 
.037 has been suspend. So lay off us, EPA, under this 
agreement, until the study process is completed. In conclusion, 
the bi-State agreement has suspended implementation date of 
.037 during the term of the agreement.
    Industry is really happy about this, and believes--and of 
course this letter, you are saying Tyson is wrong; they believe 
that what you did is give them, the EPA, with the power of the 
Supreme Court and 20 years of work that predecessors of yours 
had done, the power to suspend that power over them to comply 
with the law.
    So that is really what I am struggling with. On one hand 
you say that you filed lawsuits against 14 people, against the 
EPA. It is this idea of federalism, of Oklahoma sovereignty, 
Oklahoma States' rights, you are fiercely fighting for 
Oklahoma. And on the side of the polluters. You say the EPA is 
attempting to do things.
    But then on the other hand, in this case that you are 
talking about, you switch suddenly to say, well, Oklahoma's 
water quality standard for phosphorus, that has been worked on 
for 25 years, armed with an EPA approval, armed with a Supreme 
Court decision, on point saying that up-river States are bound, 
industries believe that they are bound, but suddenly you are no 
longer fighting for Oklahoma. You are fighting to protect 
industry, on the side of industry again.
    Mr. Pruitt. I can assure you, Senator, that industry didn't 
think they were bound.
    Senator Booker. Why did Tyson write the letter, sir?
    Mr. Pruitt. I don't know why they sent that. Because as 
Senator Boozman indicated earlier, the phosphorus level at .037 
was unenforceable on the Arkansas side of the border. That was 
the concern. Until this agreement that we have here was 
negotiated and signed by Arkansas, that had never occurred in 
the history of Oklahoma.
    Senator Booker. But sir, Arkansas was party to the 2012 
scientific investigation. They are bound by the Supreme Court 
case which I pointed out to you already, and I can read you the 
binding paragraphs, [unclear] by the EPA and obviously 
understood by industry that they were bound by that standard. 
Your agreement didn't stop it. It extended the period in which 
people could pollute. I don't understand how that could be 
historic.
    Mr. Pruitt. Senator, I think as you look at what was 
achieved between Arkansas and Oklahoma, you had the Arkansas 
Attorney General, Ed Fite, who had been involved in these 
issues, as indicated earlier, since 1983, trying to enforce and 
obtain water quality that improved the Seneca-Illinois River; 
he cited the historic results in this matter.
    So I am unaware of the letter that you are referring to, 
but I can assure that industry was not, not at all excited 
about .037 being enforced on the Arkansas side of the border.
    Senator Booker. And I will conclude just by saying, sir, it 
is clear that industry was excited about the 3-year delay that 
you bought them to continue to pollute. It is written there in 
a letter. It seems to me the theme in your work is not 
federalism and States' rights, but deregulation in siding with 
polluters against the environment and public health standards. 
It is unfortunate to me that , unless you can show me something 
different in the way that this actually helped to clean up the 
river quicker, but I just don't see that at all in the evidence 
and the facts that I have before me.
    Senator Barrasso. Thank you very much, Senator Booker.
    Our next questioner is actually Senator Boozman. Since we 
have Oklahoma and Arkansas both here, I don't know if you have 
a question, Senator Boozman, or if you just want to make a 
comment about this agreement, since both of the States are 
here. You represent the congressional district directly 
adjacent.
    Senator Boozman. I want to make a quick comment, and then 
after that, I think all of my questions have been answered. I 
would yield back if we can have agreement.
    I think the thing, Senator Booker, to understand is that 
first of all, the water was not being polluted at that point. 
Arkansas had made tremendous improvement over the years, and 
had just--our discharge in Springdale, Fayetteville, Rogers, 
Bentonville, the major communities there that have grown 
tremendously during that timeframe, their discharges were down 
to very admirable levels. So all of that was being done.
    The question was, was .037 fair versus .04 or .05. As I 
mentioned earlier our most pristine river in Arkansas was not 
at .037. So we didn't feel like we could do that. So Oklahoma 
was happy with all this stuff. Arkansas is not. And because of 
that, in 2013, as the agreement ran out, they were prepared to 
go back to court again. This thing had been litigated since the 
Supreme Court finding back in the 1990s all along the line.
    To be honest, I am not happy with the .037. I think it is 
too stringent. I would challenge to find a river in New Jersey 
that meets that standard, and you can't do it. It is a very, 
very stringent standard.
    So it wasn't continuing to pollute and things like that. 
Tremendous progress made on the Arkansas side. Everyone agrees 
with that. It was, where do you draw the limit.
    So often with the EPA, and this is so important, we have 
had on the Committee, we have had the gentleman that represents 
the water district for this huge area. They spent a billion 
dollars doing a great job of cleaning things up, raising 
everybody's rates. EPA has come back and wants them to spend 
another billion dollars for a tiny fraction that everybody 
agrees would not have any impact on the water quality in the 
river. These are the kinds of things that you get into.
    So again, I am really not happy at all about the .037. I 
think that Tyson and the industry were happy in the sense that 
you would have a situation where you would have some finality, 
you would have some resolution so that everybody could go 
forward.
    Senator Barrasso. Senator Ernst, any final comments or 
thoughts or questions?
    Senator Ernst. Thank you, Mr. Chairman. I don't have any 
further questions. Whatever additional questions I have, I will 
submit for the record.
    But I do have some closing comments. I do want to push back 
a little bit on the Ranking Member's comments earlier. I had 
gone through a series of examples of overreach by the 
Government with the expanded definition of Waters of the U.S. 
And the Ranking Member had stated that he had a letter that he 
had received from Administrator Gina McCarthy. And I have no 
doubt that she was answering those questions honestly, because 
she wasn't the one making the statements. The statements that I 
presented came from the Corps of Engineers and the Department 
of Justice.
    Now, I know this to be true: these are not as implied from 
some obscure Web site off of the Internet done by some blogger 
in a basement somewhere. The comments actually came from this 
Committee, case studies from this Committee, September 2016. 
These are examples of case studies from all across the United 
States. I will cite just one that I opened up to.
    A landowner in California received an investigation letter 
from the Corps informing him that disking performed by a tenant 
farmer on his land may have resulted in an unauthorized 
discharged into WOTUS and that regulators had opened a case 
against the landowner. They are being implemented, case by 
case. This letter came as a surprise to the landowner, who had 
been disking this particular site periodically over the last 15 
years to sustain grazing conditions for his cattle, a practice 
he believed was normal, until he received this notice.
    The court told the landowner's consultant that all disking 
for any purpose and at any depth with any potential WOTUS is a 
discharge into WOTUS, and in the absence of a permit represents 
an unauthorized discharge in violation of the Clean Water Act. 
This is an actual letter from the Corps that was submitted to 
this Committee, the EPW Committee, last year.
    So this is not made up. This is a very real impact to all 
Americans. So I appreciate your stance, Attorney General 
Pruitt, that if you are confirmed, you will work with those 
that wish to continue farming and normal practices. But this is 
not made up, folks. We just need everyone to understand that 
the Corps, the DOJ, and the EPA have gone beyond what we 
consider to be reasonable application of the law.
    Thank you very much.
    Senator Carper. Mr. Chairman, if I could just respond very 
briefly. The letter that I sent on January 11th was not just to 
the EPA. It was to the head of the EPA and also the Assistant 
Secretary at the Army, Department of the Army, who is in charge 
of the Army Corps of Engineers. So it was really to both, both 
EPA and the Army Corps of Engineers. I gave them a half-dozen 
or more questions and said, these assertions that we are 
hearing, what is the truth? And they responded jointly.
    Senator Ernst. And if I can respond to that, I apologize, 
because I was going to use Senator Rounds' letter as a prop. I 
had not seen a letter from the EPA. I had written Administrator 
Gina McCarthy nearly 2 years ago on some issues that I was 
wanting addressed for Iowa. And I invited her to come to Iowa 
and visit. She never, ever responded to me or my staff.
    Thank you, Mr. Chairman.
    Senator Barrasso. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Pruitt, you have criticized the Obama administration on 
a number of occasions for allegedly ``colluding with 
environmental groups to engage in sue and settle tactics.'' You 
just reiterated your concern to Senator Inhofe.
    But in December many of your co-plaintiff attorneys 
general, who are suing the EPA over the Clean Power Plan, sent 
a letter to President-Elect Trump, urging him to settle their 
lawsuits related to the Clean Power Plan. That sure sounds like 
an invitation to engage in sue and settle to me.
    To avoid the appearance of entering into sweetheart 
settlements on the Clean Power Plan cases will you commit to 
recusing yourself form all ongoing litigation that you are 
involved in?
    Mr. Pruitt. Senator, I would say to you that the sue and 
settle practice, whether by this Administration or future 
administrations, is a practice that should not be followed. I 
believe that regulation through litigation is wrong. I believe 
that the rulemaking process that Congress has established 
should be respected by agencies, not only the EPA but across 
the board.
    I would mention one case to you.
    Senator Markey. It looks a lot like that is what the 
attorneys general are doing, who are suing. And you are a co-
plaintiff in this case on the Clean Power Plan. Will you recuse 
yourself from any role in the settling of these cases, in the 
negotiation on a settling of these cases?
    Mr. Pruitt. The sue and settle practice should not be used 
by any administration to regulate. We have experienced in 
Oklahoma a case involving the Fish and Wildlife and Endangered 
Species Act in the relisting of the lesser prairie-chicken that 
impacted our State. So sue and settle is wrong.
    Senator Markey. Are you giving me a yes, that you will not 
settle with these attorneys general?
    Mr. Pruitt. I will not engage in a sue and settle practice, 
if confirmed as EPA Administrator, at any time.
    Senator Markey. Will you negotiate with them to reach a 
settlement, such as has been recommended by the attorneys 
general who are the plaintiffs in this case against the Clean 
Power Plan?
    Mr. Pruitt. Senator, it is a belief of mine that the use of 
sue and settle is a practice that should not be done by any 
agency of the U.S. Government.
    Senator Markey. Right. So will you recuse yourself from any 
involvement in this litigation as it is being decided?
    Mr. Pruitt. As I have indicated to you, Senator, the EPA 
ethics counsel, career staff at the EPA, has said that a 
particular matter, a specific case that those will be evaluated 
at the time. I will seek their counsel and comply with their 
counsel.
    Senator Markey. Honestly, Mr. Pruitt, there is no bigger 
case than the Clean Power Plan. It goes to the promise that the 
United States is making to the world that we are going to 
reduce significantly our greenhouse gases. So this just goes to 
you as an individual saying that since you brought the case 
with these other attorneys general that you will now recuse 
yourself. Since you are in fact the plaintiff and defendant in 
this case if you are confirmed as the EPA Administrator.
    Mr. Pruitt. Senator, as I indicated to you earlier, and I 
am sorry to interrupt you, but as I indicated to you earlier, I 
will recuse if directed by the EPA ethics counsel, career staff 
at EPA ethics. You know these individuals. They have been 
there, and I will follow their counsel and guidance.
    Senator Markey. All right. I know I am not going to get you 
to recuse yourself from any of these cases, but I am just 
telling you, it is going to wind up being a huge conflict of 
interest if these attorneys general get to settle on their 
terms with the Trump administration and you are sitting there 
in the middle of the room as that occurs.
    Now, let me go to another subject, and that is this bottle 
of Trump water. Trump water, natural spring water. On the label 
it says, ``pure, fresh and free from contaminants. This is 
water the way it was meant to be.'' Trump hotel guests have the 
luxury of drinking this water if they don't trust what comes 
out of the tap. Low income communities across our country do 
not have the same luxury. Do you agree that the EPA plays a 
critical role in ensuring that all Americans, regardless of 
racial, ethnic, or economic backgrounds, have a right to clean 
water, free from contaminants?
    Mr. Pruitt. Absolutely. In fact, Senator Booker and I 
talked about environmental justice in our meeting.
    Senator Markey. That is great. As the widespread lead 
contamination in Flint, Michigan's water supply tragically 
reminds us, low income and minority communities often bear far 
greater environmental burdens. Yet you told Senator Cardin 
earlier today that you didn't know if there is any safe level 
of lead. But scientific experts, including the CDC and World 
Health Organization, have concluded that there is no safe level 
of lead exposure.
    Will you commit to making environmental justice for poor 
and minority communities an immediate priority of the EPA, if 
you are confirmed as Administrator?
    Mr. Pruitt. I believe it is a very important role of the 
EPA Administrator.
    Senator Markey. Well, minority communities often don't have 
the money----
    Senator Barrasso. The Senator's time has expired in the 
third round. Thank you.
    Senator Sullivan.
    Senator Sullivan. General Pruitt, I just have one final 
question. We talked about some of the challenges that we have; 
this Committee has been working on infrastructure issues. There 
were a lot of discussions last year about Flint, Michigan, and 
aging infrastructure, which I think is a concern at the State 
and local and Federal levels.
    There is also a challenge in certain parts of the country 
on no infrastructure. None. No clean water and sewer. My State 
has over 30 communities that don't have any clean water and 
sewer. In terms of the diseases and the living conditions in 
communities like that, as you can imagine it can be very 
difficult. So in a bipartisan way, this Committee acted last 
year, established a new program for disadvantaged communities, 
small communities, to work on those kinds of issues for 
different communities, whether Alaska or other parts of the 
country, that literally live in third world conditions in some 
communities. So that would be administered by the EPA, this new 
program. I just want to get your commitment to work with us to 
fully fund that new program to work on those kinds of issues.
    Mr. Pruitt. As we talked about in our meeting, Senator, I 
believe sometimes when infrastructure is referenced we think 
roads and bridges, and we don't think water infrastructure. I 
think all those are important, and I would make that a priority 
interfacing with Congress if confirmed as EPA Administrator.
    Senator Sullivan. Great. Thank you.
    Senator Barrasso. Thank you, Senator Sullivan.
    I want to thank all the members for the respectful way in 
which the business was conducted today. Members may also submit 
follow up written questions, but it seems that everyone had 
plenty of opportunity to ask oral questions. Schedule for the 
close, the recording for the close of business Thursday, 
January 19th--Senator Carper.
    Senator Carper. I thought we were going to do one more.
    Senator Barrasso. I thought three rounds was the longest in 
the history of this. The last, the only other time there were 
three rounds was Christie Todd Whitman in 2001. Those were 
three rounds of 5 minutes each. And the reason that she as a 
Republican nominee was given three rounds is that the Chairman 
of the Committee was Harry Reid. So three rounds, the witness 
has been here since 10. It is now 4:30, so he has been 6 and a 
half hours, and three rounds. By any criteria that one would 
use, each of 5 minutes, when Gina McCarthy was nominated, and I 
had significant numbers of questions, Barbara Boxer limited me 
to one 5-minute round and one 2-minute round. We have more than 
doubled today that amount of time for questioning.
    Senator Whitehouse. Mr. Chairman.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. I am certainly not saying that you've 
been unfair with us, but until this very minute, I don't think 
it has been clear to anyone that there was a three round limit. 
I believe you opened the hearing by saying that we would go on 
until people's questions were answered.
    So this is a bit of a novelty. But again, please don't take 
it as a criticism of your fairness. I think that you have been 
fair. This is just news. And I do have a bunch of questions 
right here that I'd hoped to ask as what I expected to be a 
final fourth round.
    Senator Barrasso. Then I would invite you to please submit 
those follow up written questions by tomorrow close of 
business.
    Senator Carper. Mr. Chairman, could I be recognized?
    Senator Barrasso. Yes, sir. Senator Carper, and then 
Senator Booker.
    Senator Carper. I appreciate the way you've conducted this 
hearing today. I appreciate all the members coming and coming 
back again and again. When we were talking a week or two ago 
about the hearing, whether to have 1 day of hearings or 2 days 
of hearings, our side was interested in having 2 days of 
hearings. We were interested in having an outside panel, and it 
was explained to us that that is not really the tradition of 
the Committee, to have an outside panel.
    But you, Senator, preferred to have it in 1 day, and we'll 
stay as long as people have questions, I think those were 
almost exactly your words. And that is hard to argue with, to 
stay as long as people have questions. Some of the folks have 
some more questions. I know I do. And we are not running out 
the clock on those questions. I would just ask that you think 
back on our earlier conversation, and you see your way clear to 
have one more round, and we'll call it a day.
    Senator Barrasso. Yes, well, I would say a couple of 
things. One is, I offered to start the Committee meeting 
earlier today because there are many of us who have commitments 
into the evening, people from our home States who are here for 
the inauguration activities. We have commitments for our home 
States. And the idea of starting at 9 was rejected. And we 
wanted to go along, right before the third round, I said, now, 
if there is going to be ongoing, maybe we should take a break, 
give the witness an opportunity to take a break, you said, no, 
let's plow on.
    The witness has been sitting there now for just about 3 
hours. And depending on wishes of the Committee, my preference 
is to say, we have done more than ever done in the last 16 
years or 17 years for nominees. If people have one or two 
questions I would want to give the witness an opportunity to 
stretch his legs. I will be happy to stay. And we can come back 
with a 3-minute round.
    But I just think--people have obligations and commitments. 
And we thought we would be completed by now. It does seem by 
many of the end, and for people who are here now, they could 
go. So we have three members, if you want to go 2 to 3 minutes 
or one or two questions, I think we would be able to 
accommodate. But to bring back the entire Committee and go into 
the night----
    Senator Carper. I am not suggesting we bring back the 
entire Committee. Let me just suggest that if we can, we can 
agree here. Those that are here today, right this moment, if 
they have questions, give them 5 minutes. And then when they're 
done, we are done.
    Senator Barrasso. Any objection from our side?
    Senator Inhofe.
    Senator Inhofe. Though we would be able to yield back any 
time that we had, if we didn't want to use it.
    Senator Barrasso. Sure.
    Senator Carper. Or you could yield to us.
    [Laughter.]
    Senator Inhofe. I can only say that I have chaired this 
Committee for quite a number of years. I have been through this 
once before, and there is always an effort by those who are 
perhaps not really satisfied, as some of the others might be, 
to try to make it continue on and on and on.
    I would prefer to go ahead. I think we have all had 
adequate time and be prepared to vote.
    Senator Barrasso. Well, we don't have a vote scheduled for 
today on this. We don't have an agreement on that. So it 
wouldn't be a vote. I would say, if we----
    Senator Inhofe. Well, if that is the case, then we can 
confine it for the record, any questions that they have.
    Senator Barrasso. Any other suggestions?
    Senator Sullivan. Mr. Chairman, I think you've been 
exceedingly fair, particularly relative to the confirmation of 
Gina McCarthy. And I think it is purely within your call to 
have additional questions be submitted for the record. The 
opportunity for the witness to answer all the questions, he'll 
still have to do it before his confirmation. But relative to 
any other EPA Administrator hearing, you've been very generous, 
very fair, and I think that in retrospective, I think that is a 
very fair outcome, to still ask the questions, just submit the 
questions for the record.
    Senator Carper. Can I respond to our colleague from Alaska? 
I don't know if you remember a year or 2 ago, there was a joint 
session of the House and Senate committees, environment 
committees. And the witness was Gina McCarthy. And I arrived 4 
hours into the hearing. And after a while, I was recognized to 
ask a question. And my first question of Gina McCarthy was, 
you've been here for 4 hours, haven't you? She said yes. And I 
said, is there any question you haven't been asked that you 
wish you had been asked? And she said yes. I said, what is it? 
She said, I wish I'd been asked if I needed a bathroom break.
    [Laughter.]
    Senator Carper. I don't know if the witness could use a 
bathroom break. But if you need one for a couple minutes, we 
could arrange that.
    Here's what we are asking for. Five minutes, Cory Booker, 
Sheldon Whitehouse, Tom Carper. We ask our questions and we are 
done. That's it. Can you handle that? Why don't you say yes? 
We're wasting a lot of time here.
    Senator Barrasso. As you said, you have a couple of 
questions. Let's go 3 minutes each and we'll call it good. 
You're up.
    Senator Booker. Mr. Chairman.
    Senator Barrasso. Senator Booker.
    Senator Booker. I'd asked to be recognized earlier. I do 
want to----
    Senator Barrasso. I apologize. Yes, sir.
    Senator Booker. I just want to repeat, I do think what 
Senator Sullivan said, you have been very, very generous, it is 
true. I appreciate what seems like an accord right now of a few 
minutes now. I'd appreciate that.
    One thing you didn't mark, which I think should be really 
important, is I have no sympathy for the nominee and his 
endurance. I do have for his family, behind him, who has sat 
through this. I just want to mark for the record that they are 
true champs. I think that is important to know. I thank them 
for their indulgence. Not the nominee, but them.
    Senator Inhofe. I would just say that is more evidence that 
he cares for the children of Oklahoma.
    [Laughter.]
    Senator Barrasso. I would just say, more people vote for me 
because of my wife than vote for me, and I would suggest for 
you as well, in the case of this nominee.
    Senator Carper. Let me yield to Senator Whitehouse.
    Senator Whitehouse. I just want to touch on two things, and 
then we'll wrap up. The first is that on your questionnaire you 
listed an e-mail address with a me.com domain as your business 
e-mail. You also have an OAG.ok.gov address. Are there other e-
mail addresses that you have, and are the other e-mail 
addresses that you use for business other than your me.com and 
your OAG.ok.gov e-mail addresses?
    Mr. Pruitt. I am sorry, Senator. The ``me'' address is not 
a business e-mail address. I am not sure why it was designated 
as such.
    Senator Whitehouse. Well, maybe we can just correct the 
filing on that.
    Mr. Pruitt. There are no other e-mail addresses, if that is 
your question, Senator.
    Senator Whitehouse. We have gone through the cases that you 
list as your environmental cases. When we take out the cases 
that were started by your predecessor, Drew Edmonson, and when 
you take out the cases that are fish kill cases, which I 
understand is a formulaic matter that is resolved by letter at 
the staff level, you count the fish, you pay the fee, and when 
you take out the qui tam cases, which are, for those who aren't 
lawyers, a private individual who brings an action, and then 
the Attorney General can step in and take the action over if 
they want, but it is brought in the first instance by a private 
individual. And then if you take out the cases in which you 
sued EPA, there is virtually nothing left.
    And in addition to that we have that you closed the 
environmental protection unit in Oklahoma as a free standing 
unit. You told me when we met that you had rolled it into your 
federalism unit. But I was just on the federalism unit's Web 
site, and the word ``environmental'' doesn't even appear on 
that. It appears to be run by the Solicitor General. It says 
over and over again that it is involved in appellate 
litigation. And of course if you are bringing an action you are 
not starting at the appellate level.
    Mr. Pruitt. Senator, if I may, the Deputy Solicitor 
General, Clayton Eubanks, was actually employed by the previous 
Attorney General. He has been designated the Deputy Solicitor 
General and is responsible for environmental related advice and 
consent to those agencies.
    Senator Whitehouse. Yes. That's a different function, 
though. That's a different function than to bring an action. I 
have been an Attorney General, too. I know the difference. The 
Attorney General has an obligation to provide lawyers, to give 
advice to agencies. But you also have the authority to bring 
criminal actions if you wish. And you have the authority to 
bring civil actions if you wish. And it is those authorities 
that I believe have not gotten much attention.
    And the last piece of that, because you will have a chance 
to respond, but I am on a short clock, is that there was in 
Oklahoma an environmental crimes task force that your 
predecessor led. It describes, and I would ask to have these 
documents put into the record, from 1997 to 2010 the OECTF, the 
Environmental Crimes Task Force or the Environmental Protection 
Unit, in conjunction with EPA and other entities, conducted 142 
criminal investigations, resulting in 56 prosecutions. Criminal 
cases resulted in individual convictions on 110 felonies, 21 
misdemeanor counts, corporate convictions, 10 felony and 3 
misdemeanor counts, $8 million in fines, 28 years of jail time. 
We can put it in the record.
    Do you even participate in the Oklahoma Environmental 
Crimes Task Force still?
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Pruitt. Senator, as I have indicated, we work each day 
with our Department of Environmental Quality on enforcement 
along with other agencies. I guess it is a matter of ``who 
takes the credit'' for that type of enforcement. But those 
individuals have offered statements to this body. They are a 
matter of the record. You've heard statements that the Chairman 
has referred to that we have worked diligently with those 
agencies to enforce appropriately. And I would refer to their 
statements in response.
    Senator Barrasso. Thank you, Senator.
    Senator Booker.
    Senator Booker. Thank you very much.
    First of all, I appreciate your talking about environmental 
justice and mentioning that. We did talk about that, and I felt 
good about your personal commitment, at least to me, that you 
would pursue that.
    I just want to go through this last point. I want to put 
together a fact pattern here to let you have at it and dispute 
it. I know there is at least one point in here you dispute, and 
I really want to get to what I draw from the facts. And you 
can, again, have the last word.
    So what I am seeing, that I put together all the facts, 
just a pattern. There's a litigation from your predecessor that 
you declined to conclude when you got in against polluting 
poultry producers who were dumping hundreds of thousands of 
tons of chicken waste into the Illinois River watershed. You 
shut down the environmental enforcement unit in your office. 
This is the one I know you do not agree with me on. But I see 
it as that you also attempted to suspend Oklahoma's water 
quality standard for 3 years.
    But the last fact, and again, you have the last word here, 
sir, is that you also supported a constitutional amendment, 
State Question 777, the so-called Right to Farm amendment, that 
would have made it more difficult for the Oklahoma State 
Legislature, again, you talk about federalism, now trying to 
take the teeth out of the Oklahoma State Legislature and local 
governments to enact their own environmental laws in the 
future,
    And this kind of support, and I looked all throughout the 
magazines, you are going in support of this, it is clear. Here 
you are in the pro and con about supporting 777. Here is--most 
of the editorial boards were against you on this in your State. 
Here's one from Tulsa World Endorsement that said the measure 
would prevent future State and local regulation on farming and 
livestock activities unless the State has a compelling State 
interest, a very high legal standard, as I know, not the lawyer 
that you are, sir, but I know that is a very hard one--
standard--to meet.
    So this is the challenge, this idea that you are supporting 
federalism versus, it seems to me, a pattern of you being on 
the side of the polluters, and even trying to take the teeth 
out of the State legislature's ability to regulate these 
harmful environmental toxins. I am happy that this ballot 
initiative was overwhelmingly defeated by Oklahoma voters. But 
as I see you ascending potentially to this very important 
position, sir, I just worry about whose side you are going to 
be on, given the fact pattern that I have about big industry, 
about big pollution, especially as I know the billions of 
animals that we have in CAFOs that are poisoning rivers all 
over this country.
    I really just want you to respond to that, sir. And I will 
say, because this will be my last word, you will have it. I 
want to thank you for your indulgence. And I want to thank your 
family as well.
    Mr. Pruitt. Thank you, Senator. And let me respond. There's 
been some confusion about the litigation. You made reference to 
several things there, and if I may respond to a couple. The 
litigation to which you refer, Senator Boozman actually 
referred to it as well; my predecessor did bring an action, 
approximately 2007 timeframe, against the poultry industry and 
many other defendants in the Northern District of Oklahoma. 
That case had been fully litigated, submitted to the court for 
decision before I ever came into office. It was an example of 
potentially regulation through litigation. And I have talked 
about that earlier in response to questions.
    I had every authority to dismiss that case when I came into 
office. I did not. That case is still pending today, awaiting a 
Federal judge's decision. I have taken no action to undermine 
that case. I have done nothing but file briefs in support of 
the court making a decision. So that is a point of clarity on 
the litigation.
    With respect to our office, I submitted this in response to 
Senator Whitehouse's request. We met last week and he asked 
about FTEs and budget. I have submitted response to him. We 
have almost a $700,000 budget that the Administrator of our 
office has attributed to environmental-related activities and 
seven FTEs that are associated with that as well. So I want to 
make sure that those two items were shared with you in response 
to your comments.
    Senator Booker. You have nothing to respond to on the State 
Question 777?
    Mr. Pruitt. The State Question 777, we are actually 
involved in the ballot drafting of those things. So though you 
represented that I was actively involved in an endorsement, I 
really was not as far as the actual vote. Now, there was some 
op-ed and some decisions. But I have tried to make sure that I 
didn't get involved in that because of our other obligations in 
the office.
    Senator Barrasso. Senator Carper.
    Senator Booker. And I can submit this for the record, sir?
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
      
    Senator Booker. Thank you, sir.
    Senator Carper. Mr. Pruitt, earlier today I mentioned that 
had submitted a list of about 50 questions to you shortly after 
Christmas, asked for a response by January 9th and got none. I 
asked my staff this morning if we had gotten written responses 
to those questions as of today. And I understand that we have 
not.
    You're going to receive a number of questions for the 
record from us, Democrats and Republicans. And I am anxious to 
see what your responses are to those questions. We need your 
answers, and we need good answers. And the idea of waiting 2 or 
3 weeks and not providing anything is just unacceptable. So 
just to put that out there.
    And I would like to ask you a question.
    Mr. Pruitt. If I may offer this, I tried to, and I talked 
to the Chairman about this, with respect to your questions I 
submitted, I was respecting the protocol of the Chair in 
responding to those questions and committed that those 
questions would be answered for the record post the hearing. 
And that is what I was directed to do by the Chairman.
    Senator Carper. All right.
    Second, based on your other statements, I just want to 
clarify something. If confirmed, can we have your assurances 
that the EPA will continue to regulate mercury emissions from 
power plants under section 112 of the Clean Air Act, and you 
will not defer to the States?
    Mr. Pruitt. Mercury, under the section 112, is something 
that EPA should deal with and regulate.
    Senator Carper. Thank you. I came across a quote from you 
that said--I think you stated the following about an EPA rule 
involving cross-State smog pollution. And the EPA rule, I think 
you were quoted as saying, ``threatened the competitive edge 
Oklahoma has enjoyed for years with low cost and reliable 
electric generation. This low cost energy not only benefits 
Oklahoma manufacturers but gives our State a considerable edge 
in recruiting new jobs.'' And the question I would ask, at the 
peril of those of us who live in States that are downwind from 
where Oklahoma might be, as you lower your energy costs to 
benefit Oklahomans, I just want to ask you, in the spirit of 
the Golden Rule, keep in mind what that means for us. Keep in 
mind what that means for us.
    Because in my State, I said earlier on, I can shut down my 
State's economy, and we still would be out of compliance on any 
number of Clean Air requirements. And that was not because of 
anything we put up in the air but because of what folks out to 
the west put up in the air. It eventually came down to the end 
of America's tailpipe. I would just ask that you do that.
    And last, we have a chart, you see this chart. It's an 
interesting chart. This is what we call a busy chart. It's a 
busy chart. It looks at the issue of cross-border pollution, as 
you can see, with this chart, smog, pollution in our country 
moves all over the place. I mean, all over the place. As I 
mentioned, as Delaware's Governor, we shut down my State in 
order to come in compliance with Clean Air challenges. Under 
your vision for EPA it sounds like States will be left on their 
own to deal with this very complex problem that we see 
demonstrated right here. I would just ask, how do States 
address this kind of pollution you see demonstrated here 
without the assistance of the EPA?
    Mr. Pruitt. Well, Senator, as I indicated earlier today, I 
believe that as an example, the Cross-State Air Pollution Rule, 
to which you just referred, is a very important authority that 
the EPA needs to exercise. It needs to do so within the 
processes that have been provided by the statute. But it is 
something that is very important for the EPA to perform and 
execute.
    Senator Carper. All right. Mr. Chairman, I have a unanimous 
consent request to submit for the record, Mr. Chairman, a 
number of letters with concerns about and many letters in 
opposition to, some cases for, other cases opposition to Mr. 
Pruitt's nomination. There are 14 in all.
    Senator Barrasso. Without objection.
    [The referenced letters follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
   
    Senator Carper. Thank you so much.
    And again, to Mr. Pruitt, to your family, thank you all for 
joining us today. I see Cage, your son, right behind you, I 
could barely see Cage's lips moving when you spoke. So I 
suspect he has a future in law, I am not sure.
    [Laughter.]
    Mr. Pruitt. We'll see. Thank you, Senator.
    Senator Barrasso. Attorney General Pruitt, I do want to 
follow up; as you said, you were instructed by the Committee. I 
have a copy for the record of a January 9th letter which is the 
day that you were asked to submit the 52 answers to the 
questions. It's a letter from me to the Ranking Member saying, 
please note the EPW Committee does not require nominees to 
respond to questions in advance of a hearing. And I know you'll 
be responding to the written questions that will be submitted 
by tomorrow night.
    Senator Carper. Mr. Chairman, could I just add a short 
thing? That's a conversation between you and the Chairman, I 
understand that. But again I would just reiterate, you have 
received a lot of questions, including some that have been 
unanswered that I had submitted 2 or 3 weeks ago. We need your 
responses. We need your responses. And I hope the Chairman will 
give you a reasonable amount of time to respond to those 
questions, because there will be quite a few of them. They are 
not going to be like multiple choice answers. They won't be 
true and false. They will be more complete.
    Thank you.
    Senator Barrasso. Additionally, I am going to introduce for 
the record an article from The Economist about mercury and the 
Mercury Rule. And it is interesting that it says rulemaking is 
being made to look more beneficial under Barack Obama, but it 
goes to say, ``A casual listener would have assumed that all 
these benefits came from reduced mercury. In fact, reduced 
mercury explained none of the purported future reduction in 
deaths, heart attacks and asthma, and less than 0.01 percent of 
the monetary benefits. Instead, almost all the benefits came 
from concomitant reductions in a pollutant that was not the 
principal target of the Mercury Rule, namely, fine particles.''
    And I will submit that for the record as we look at the 
issues going into the future.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. I want to thank all the members of the 
Committee for your patience. I certainly want to thank the 
nominee for his time and his testimony today. The hearing is 
adjourned.
    [Whereupon, at 4:55 p.m., the hearing was adjourned.]
    [Additional information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
                             <all>
</pre></body></html>
